Semiannual Report to the Congress
    October 1, 2001 – March 31, 2002
Inspector General’s Statement



                    A      t the time of our last semiannual
                   report, the country was mourning in the
                                                                 Plan, and input to the Corporation’s
                                                                 2002 Performance Plan. Our office also
                   aftermath of September 11, and our            co-sponsored a 2-day Emerging Issues
                   report was dedicated to the memory of         symposium with Inspectors General of
                   those who had lost their lives in that        the Department of the Treasury and the
                   tragedy. My office recommitted itself to      Board of Governors of the Federal
                   the privilege of carrying out the mission     Reserve System. This symposium
                   of the Office of Inspector General (OIG)      brought together senior officials,
                   as public servants. We have done that in      congressional staff, and other subject
                   earnest during the reporting period and       experts from our organizations who
                   will continue to proudly serve the            offered insights on the banking and
                   Federal Deposit Insurance Corporation         financial services industries and the
                   (FDIC), the Congress, and the American        challenges facing all who are involved in
                   people.                                       those arenas.
                        Our audit and evaluations staff               However, much more needs to be
                   successfully completed a comprehensive        done, and the future for everyone at the
                   series of reviews related to the failure of   FDIC will be demanding. In February
                   Superior Bank, FSB, Hinsdale, Illinois,       2002 at an Executive Leadership
                   and I, along with the Inspector General       Conference, FDIC Chairman Donald
                   from the Department of the Treasury           Powell announced a new and bold vision
                   and a representative from the U.S.            for the Corporation going forward.
                   General Accounting Office, testified          Through downsizing and reorganization,
                   before the Senate Committee on                the workforce of the FDIC is expected to
                   Banking, Housing, and Urban Affairs           be streamlined but more agile and
                   regarding the causes of that failure          efficient. And though the workforce will
                   based on our work. Our investigative          be smaller in number, the Chairman
                   staff continued work related to the           further challenged his executive team to
                   events of September 11 by participating       make the FDIC a leader in banking
                   on the New York Joint Terrorism Task          information, supervision, and policy. He
                   Force and the Evidence Recovery Team          envisions the FDIC providing more
                   at the Pentagon and by responding to a        timely and better information than
                   request from the Federal Bureau of            anyone else; recognizing and responding
                   Investigation’s Financial Crimes Section      to emerging risks before they threaten
                   for assistance in investigating the           safety and soundness or harm
                   funding used to perpetrate the acts of        consumers; and becoming the authority
                   terrorism and links to possible future        and resource that the Congress, media,
                   acts.                                         and others turn to for guidance.
                       As a mark of additional success this           The OIG fully supports that vision
                   period, fines, restitution, and monetary      for the Corporation and will do all it
                   recoveries resulting from investigative       can, in partnership with the
                   work totaled $536 million. Other OIG          Corporation, other financial regulatory
                   components have provided assistance to        agencies, and the Inspector General
                   the Corporation in a spirit of                community, to help make it a reality.
                   partnership in such areas as advice on        We are participating in the corporate
                   the Division of Supervision Process           downsizing program and have plans for
                   Redesign II effort, comments on the           resource realignments that we believe
                   Corporation’s draft Emergency Response        will enhance our overall effectiveness.




2
We will also monitor the various            Financial Institutions and Consumer           must also note that another member of
executive task forces as they carry out     Credit, Committee on Financial                the Audit Committee, Ms. Myrta “Chris”
the Chairman’s proposals. We appreciate     Services, U.S. House of Representatives.      Sale, who has served as Chief Financial
additional opportunities afforded us by     During the period January 1, 2000             Officer at the Corporation since May
the Chairman to help shape the              through March 28, 2002, 17 financial          1999 and who has offered great support
Corporation’s future: we are attending      institutions failed. We note that recent      of the OIG, will soon be leaving the
the Chairman’s meetings and other           losses to the insurance funds are             Corporation and therefore the Audit
forums with the Chairman, Director          pushing the FDIC ever closer to the 1.25      Committee. We will miss her
John Reich, and other senior FDIC           percent designated reserve ratio of the       participation and the contributions she
Executives and Board Members where          insurance fund balance to estimated           made to Audit Committee discussion
we can share the OIG’s independent          insured deposits, whereby the FDIC            and debate. I wish her much continued
perspectives on new initiatives and         must charge premiums to all insured           success on behalf of the entire OIG.
issues facing the Corporation. We not       depository institutions. Increases in              I also wish to acknowledge that I
only value the opportunity for              estimated insured deposits and/or losses      named Patricia M. Black as the OIG’s
expressing such views, we also              from additional bank failures could           Deputy Inspector General on April 8,
appreciate the support we are receiving     potentially cause insurance funds to fall     2002. Pat has served for the past 5 years
from the Chairman and Director Reich,       below the statutorily mandated reservc        as my Counsel and brings to her new
especially, as we carry out the OIG         ratio. The FDIC is concerned that             position substantial experience in the
mission.                                    automatic triggers limit the flexibility of   Inspector General community as well as
     In addition to the organizational      the FDIC Board of Directors to respond        outstanding leadership and management
changes that the Corporation is facing,     appropriately to differing economic and       skills that will serve the OIG well in the
the banking industry itself continues to    industry conditions. Therefore, the FDIC      upcoming months as we re-create our
face risks, given economic uncertainties;   has supported statutory changes related       office.
new and riskier financial services and      to risk-based insurance premiums and
                                            assessment credits for past contributions.          Finally, and sadly, the OIG lost a
products; and possible new security                                                       highly esteemed former colleague and
threats to information, human, and          This situation lends additional
                                            importance to timely consideration of         friend during the reporting period.
physical resources. As the Corporation                                                    James A. Renick, my former Deputy
downsizes and restructures, it must         deposit insurance reform provisions.
                                                                                          Inspector General who served at the
ensure that it is able to fully carry out        In past semiannual reports I have        FDIC for more than 23 years, died on
its mission. Every FDIC employee must       pointed out that the FDIC Board               February 5, 2002. He will long be
be fully engaged in protecting the safety   position of Vice Chairman has been            remembered for his many contributions
and soundness of the financial              vacant since January 2001, a condition        to the OIG, the model life he led, and
institutions and preserving public          which I believe is to the Board’s             the positive human qualities that made
confidence in the nation’s banking          detriment and fails to ensure the             him unique. We extend our sympathies
system. The OIG understands that            independence of the FDIC. Although the        to the members of Jim’s family for their
responsibility and is committed to          FDIC Board is still not operating at full     loss.
continuing to prepare and improve itself    strength, a change to the FDIC’s Board
so that it can add maximum value to the     of Directors did take place during the
Corporation as it confronts these risks.    reporting period. Mr. James Gilleran was
     Against the backdrop of change and     confirmed as Director of the Office of
risk, the FDIC and a number of other        Thrift Supervision, replacing Director
policymakers continue to recommend          Ellen Seidman, and thereby became one
                                            of the outside Directors on the FDIC              Gaston L. Gianni, Jr.
the merging of the Bank Insurance Fund
and the Savings Association Insurance       Board. Director Gilleran also serves as a         Inspector General
Fund. On October 17, 2001, Chairman         member of the Corporation’s Audit
                                                                                              April 30, 2002
Powell testified on deposit insurance       Committee and brings to that forum
reform before the Subcommittee on           valuable insights and background. I




                                                                                                                             3
Table of Contents
               Inspector General’s Statement ..........................................................................2
               Overview ............................................................................................................7
               Highlights ..........................................................................................................9
               Major Issues ....................................................................................................11
               Investigations ..................................................................................................27
               OIG Organization ............................................................................................36
               OIG 2001 Performance Report ........................................................................49
               Reporting Terms and Requirements ................................................................69
               Appendix I: Statistical Information Required by the Inspector General
                                 Act of 1978, as amended ..............................................................71
               Abbreviations and Acronyms ..........................................................................76


               Tables
               Table 1: Significant OIG Achievements ..........................................................44
               Table 2: Nonmonetary Recommendations ......................................................44


               Figures
               Figure 1: Products Issued and Investigations Closed ......................................45
               Figure 2: Questioned Costs/Funds Put to Better Use ......................................45
               Figure 3: Fines, Restitution, and Monetary Recoveries Resulting
                             from OIG Investigations ..................................................................46




                                                                                                                                        5
Overview


                                            services. At the same time, the             leadership and, in some cases, expertise
Major Issues                                Corporation is charged with effectively     and historical knowledge. The
     The Major Issues section of our        supervising financial institutions and      Corporation is taking steps to
report focuses on key challenges            carefully protecting consumers’ rights.     compensate for these resource losses
confronting the FDIC as it works to         A Board of Directors operating at full      and must build on ongoing initiatives to
accomplish its mission. In the OIG’s        strength is essential to lead the           develop a comprehensive, integrated
view, these major issues fall into two      Corporation as it faces such challenges.    approach to human capital issues. It
broad categories. First, the Corporation    Without a full Board, the Corporation’s     has established a Human Resources
faces challenges related to its core        independence cannot be guaranteed. As       Committee and must continue to focus
mission of contributing to the stability    the Corporation moves forward, deposit      attention on human capital concerns.
and public confidence in the nation’s       insurance reforms will continue to be
financial system by insuring deposits,                                                       In light of changes in the banking
                                            debated and deliberated by the banking      industry, advances in technology, and
examining and supervising financial         industry and the Congress. One aspect
institutions, and managing                                                              such dramatic shifts in staffing and skill
                                            of such reform involves the possible        levels, the Corporation has begun to
receiverships. Such challenges              merger of the Bank Insurance Fund and
sometimes involve significant policy                                                    closely scrutinize its business processes
                                            the Savings Association Insurance Fund,     and their associated costs in the interest
decisions and are often influenced by       an action that the OIG supports.
external factors such as industry events,                                               of identifying operational efficiencies.
economic trends, activities of other             Turning attention to the               Among other activities, its Division of
federal banking regulators, consumer        Corporation’s more “operational”            Supervision Process Redesign II project,
concerns, and congressional interest.       demands, the use of information             New Financial Environment, and plans
                                            technology (IT) at the FDIC is              to relocate many D.C.-based staff to
     Second, a number of important          crosscutting and absolutely essential to    Virginia Square in the future have
operational matters require the             the Corporation’s accomplishment of its     generated ideas for such efficiencies and
Corporation’s attention as its workforce    mission. In conducting its IT activities,   are positive steps.
actually carries out the corporate          the Corporation’s priority must be the
mission. These issues touch on, for                                                          Finally, under the provisions of the
                                            effective and efficient use of IT to        Government Performance and Results
example, information technology             achieve program results corporate-wide.
resources and security, contracting                                                     Act with its emphasis on accountability,
                                            It must continue to develop an              the Corporation establishes goals,
activities, human capital concerns, cost    enterprise architecture process to
efficiencies, and performance                                                           measures performance, and reports on
                                            manage technology, applications, and        its accomplishments for all of these
measurement and accountability.             technical infrastructure for the            major issues and their corresponding
     In our previous semiannual report,     Corporation. It also needs to follow        challenges.
we identified an important emerging         sound system development procedures,
management challenge that warranted         comply with IT principles espoused by            Our Major Issues section also
attention: security. This area extends      legislation and regulation, and ensure      discusses the OIG’s completed and
beyond information resources security       that effective controls are in place and    ongoing/planned work to help the
concerns to issues of personal security     implemented to safeguard system             Corporation successfully confront these
and safety, largely in response to the      security, mitigate risks, and protect IT    major issues and their associated
terrorist activities of September 11,       resources. Given the extent of the          challenges. We discuss areas where we
2001. In this report we update efforts in   FDIC’s contracting activities, strong       identified opportunities for
this area.                                  controls and vigilant contractor            improvements and the recommendations
                                            oversight are also critical to the          we made in those areas. We identified
    We are also identifying a new                                                       potential monetary benefits of $1.6
emerging issue–that of the Quality of       Corporation’s success. Contracting
                                            must be done in the most cost-effective     million and made 68 nonmonetary
Bank Financial Reporting and Auditing.                                                  recommendations during the reporting
This emerging risk potentially affects      manner. The Corporation’s contract
                                            oversight mechanisms must protect the       period. Our work targets all aspects of
the FDIC in its role as regulator,                                                      corporate operations and includes a
receiver, and insurer.                      FDIC’s financial interests and help
                                            ensure that the FDIC is actually getting    number of proactive approaches and
     With respect to the major issues       the goods and services for which it is      cooperative efforts with management to
relating to the Corporation’s core          spending millions of dollars.               add value to the FDIC (see pages 11-26).
mission, the FDIC must address risks to
the insurance funds in a complex global         Major downsizing over the past
banking environment that continues to       years has already impacted the FDIC
experience change and offer expanded        workplace and more is in store. As a
                                            result, the Corporation has lost

                                                                                                                           7
                                             our progress, we visually depict
Investigations                               significant results over the past five
     The operations and activities of the    reporting periods (see pages 36-47).
OIG’s Office of Investigations are
described beginning on page 27 of this
report. As detailed in the Investigations    OIG’s 2001 Performance
section, the Office of Investigations is     Report
reporting fines, restitution, and                 We are including the OIG’s 2001
recoveries totaling approximately $536       Performance Report as a separate but
million. Cases leading to those results      integral component of our Semiannual
include investigations of bank               Report to the Congress. Our
embezzlement, wire fraud, bank fraud,        performance report summarizes our
misrepresentations regarding FDIC            progress against our annual plan, which
insurance, money laundering, and             contained 34 specific goals under the
concealment of assets. Our report also       following three areas: Audits,
highlights efforts of OIG agents working     Evaluations, and Investigations Add
on September 11-related investigative        Value; Professional Advice Assists the
assignments and discusses our new            Corporation; and OIG Communicates
Electronic Crimes Team. Some of the          Effectively with Clients/Stakeholders. It
investigations described reflect work we     is our hope that by presenting this
have undertaken in partnership with          report along with our semiannual report,
other law enforcement agencies and           the Congress and other readers will have
with the cooperation and assistance of a     a more complete picture of the FDIC
number of FDIC divisions and offices. To     OIG’s overall performance and
ensure continued success, the OIG will       accountability (see pages 49-68).
continue to work collaboratively with
FDIC management, U.S. Attorneys’
Offices, the Federal Bureau of               Appendixes
Investigation, and a number of other law          We list the Inspector General Act
enforcement agencies (see pages 27-35).      reporting requirements and define some
                                             key terms in this section. The
                                             appendixes also contain much of the
OIG Organization                             statistical data required under the Act
     The OIG Organization section of         and other information related to our
our report highlights several key            work this period (see pages 69-75).
internal initiatives that we have actively
pursued during the reporting period.
The OIG’s internal focus has been on
realigning resources, building effective
working relationships, and achieving
high performance. This section of our
report also references some of the
cooperative efforts we have engaged in
with management during the reporting
period, including making presentations
at corporate conferences and meetings.
We note the proposed or existing laws
and regulations reviewed during the past
6 months, refer to litigation and other
efforts of OIG Counsel, and also capture
some of our other internal initiatives
this reporting period. In keeping with
our goal of measuring and monitoring




 8
Highlights


◆ The Office of Audits issues a total of 19   ◆ OIG counsel litigates seven matters        monitoring risks posed by the nation’s
  reports containing potential monetary         during the reporting period and            largest banks. Additionally, the OIG
  benefits of $1.6 million.                     provides advice and counsel on a           comments in advance on the draft
                                                number of issues.                          interagency agreement signed on
◆ OIG reports include 68 nonmonetary                                                       January 29, 2002 authorizing an
  recommendations to improve                  ◆ The OIG reviews and comments on 1          expanded delegation of authority to
  corporate operations and activities.          proposed federal regulation and 18         grant the FDIC more autonomy in
  Among these are recommendations to            proposed FDIC policies and directives      examining banks that pose a
  strengthen security over FDIC                 and responds to 7 requests under the       heightened risk to the insurance funds.
  information systems, study apparent           Freedom of Information Act and
  limitations of section 38 of the Federal      Privacy Act.                             ◆ The FDIC OIG joins Offices of
  Deposit Insurance Act (Prompt                                                            Inspector General of the Department
  Corrective Action), develop                 ◆ The OIG coordinates with and assists       of the Treasury and the Board of
  interagency information-sharing               management on a number of                  Governors of the Federal Reserve
  agreements with other federal                 initiatives, including a joint project     System in hosting an Emerging Issues
  regulators, pursue legislative changes        with the Office of Internal Control        Symposium that brings together senior
  related to vesting special examination        Management and the Division of             officials, congressional staff, and
  authority in the Chairman, enhance            Administration to ensure that              subject experts and audit staff from
  risk-scoping procedures for Fair              accounting and auditing contractors        the financial regulatory agencies.
  Lending examinations, and improve             comply with the General Accounting
  the Corporation’s guidance for                Office’s new independence standards,     ◆ The OIG’s Office of Investigations
  determining the least-cost resolution of      coordination with the Division of          completes assistance in terrorist
  failing financial institutions.               Supervision (DOS) on its Process           investigations carried out in New York
                                                Redesign II project, Office of             City and at the Pentagon. The OIG is
◆ OIG investigations result in 21               Investigations presentations at DOS        also assisting the Federal Bureau of
  indictments/informations; 11                  Commissioned Examiner Seminars,            Investigation’s Financial Crimes Unit
  convictions; and approximately $536           and Office of Audits Executives’           in investigating the funding used to
  million in total fines, restitution, and      participation at DOS Field Office          perpetrate the acts of terrorism on
  civil settlements. Approximately $531         Supervisor meetings.                       September 11 and links to possible
  million of that dollar amount                                                            future acts.
  represents court-ordered restitution        ◆ The OIG accomplishes a number of
  and is not an amount that has been            internal office initiatives, including   ◆ The OIG issues results of four reviews,
  collected.                                    formulation of a comprehensive plan        several based on a congressional
                                                for downsizing and restructuring,          request, related to the failure of
◆ The OIG continues efforts with the            issuance of a draft Human Capital          Superior Bank, FSB, Hinsdale, Illinois.
  Division of Resolutions and                   Plan, participation in the President’s     Loss estimates resulting from the
  Receiverships (DRR) to pursue court-          Council on Integrity and Efficiency’s      failure total $440 million as of
  ordered restitution. As of March 31,          Social Security Number Misuse              March 31, 2002. This loss estimate was
  2002, the OIG is conducting 32                working group, completion of our           derived after including the discounted
  investigations that are being                 fourth external client survey, and         value of the note received in
  coordinated with DRR and involve a            establishment of the OIG’s Information     settlement from the bank’s former
  total of over $1.2 billion in outstanding     Security Program.                          owners and considering that actual
  restitution orders or other types of                                                     recoveries on remaining assets were
  debt.                                       ◆ The Office of Audits receives an           less than earlier projections.
                                                unqualified opinion on a peer review
◆ The OIG and U.S. General Accounting           conducted by the OIG of the U.S.         ◆ Inspector General Gianni testifies on
  Office continue their joint effort to         Agency for International Development.      the failure of Superior Bank before the
  audit the Corporation’s financial                                                        Committee on Banking, Housing, and
  statements. The OIG submits required        ◆ The OIG issues the results of a review     Urban Affairs, U.S. Senate, commenting
  information for the government-wide           of the FDIC’s special examination          on areas where regulatory oversight
  financial statement audit.                    authority and DOS’s effectiveness in




                                                                                                                           9
  could be strengthened; the regulatory    ◆ As a result of OIG investigative efforts
  capital treatment of residual             conducted with the Federal Bureau of
  assets; and the FDIC Board’s              Investigation, the Internal Revenue
  authorization of an expanded              Service, the U.S. Attorney’s Office for
  delegation of authority for examiners     the Southern District of West Virginia,
  to conduct examinations, visitations,     and the U.S. Department of Justice,
  or other activities of insured            seven former officials of the First
  depository institutions.                  National Bank of Keystone were
                                            sentenced, with resulting fines and
◆ Inspector General Gianni submits          restitution of more than $527 million.
  Fiscal Year 2003 Appropriation
  Request to the Subcommittees on VA,      ◆ The OIG holds an office-wide
  HUD and Independent Agencies,             conference, the theme of which is
  Committee on Appropriations, U.S.         Putting People First, in late October
  House of Representatives and U.S.         2001. Emphasis is placed on the value
  Senate.                                   that the OIG places on its staff and the
                                            role they have in contributing to the
◆ Inspector General Gianni testifies in     FDIC and OIG missions.
 his capacity as Vice Chair of the
 President’s Council on Integrity and      ◆ The FDIC and the banking industry
 Efficiency before the Subcommittee          are experiencing significant and rapid
 on Government Efficiency, Financial         change. We believe a number of issues
 Management and Intergovernmental            associated with these challenges are
 Relations, Committee on Government          deserving of special attention at this
 Reform, U.S. House of Representatives,      time. These broad major issues are
 regarding the President’s Management        identifying areas where the OIG
 Agenda and the role of the Inspector        focuses its resources.
 General community in accomplishing
 the agenda.

◆ The OIG provides advisory comments
 to management on the FDIC’s 2002
 Annual Performance Plan focusing on
 the linkage between the performance
 plan goals and those articulated by
 Chairman Powell at the Corporation’s
 February 2002 Leadership
 Conference.

◆ The OIG provides the Corporation
 with a risk analysis of an emerging
 risk: the Quality of Bank Financial
 Reporting and Auditing, an area of
 potential concern to the FDIC in its
 role as regulator, receiver, and
 insurer.

◆ The OIG comments on the
 Corporation’s draft Emergency
 Response Plan and continues an
 evaluation of the adequacy of the
 physical security of FDIC facilities in
                                                   OIG staff responsible for work related to the failure of Superior Bank, FSB.
 headquarters and other selected sites.


10
Major Issues


Organizational Leadership
     Strong leadership has always been         Management Challenges at the FDIC
vital to the success of the banking and
financial services industry. The FDIC          In the interest of improving federal performance government-wide, the Senate
Board is comprised of five directors,          Governmental Affairs Committee has asked Offices of Inspector General to identify the 10
including the FDIC Chairman, two other         most significant management challenges facing their agencies. At the FDIC, our office
external directors, the Comptroller of         has identified and previously reported these challenges as follows:
the Currency, and the Director of the          • Organizational Leadership
Office of Thrift Supervision (OTS). All        • Addressing Risks to the Insurance Funds
are presidential appointees. At the FDIC
during the 1990s, one or more                  • Supervising Insured Institutions
presidentially appointed positions on the      • Protecting Consumer Interests
Board of Directors frequently were
                                               • Deposit Insurance Reform
vacant. Perhaps now more than ever,
the Corporation needs a full                   • Managing Information Technology
complement of Board members to carry           • Ensuring Sound Controls and Oversight of Contracting Activities
out the FDIC mission.
                                               • Establishing Goals and Measuring Results
      Of special note during the reporting
period was that James Gilleran was
                                               • Addressing Human Capital Issues
sworn in on December 7, 2001 as                • Containing Costs and Assessing Business Processes
Director of OTS and, as such, joined the       In our last semiannual report, following the events of September 11, 2001, we identified
FDIC Board. Notwithstanding Director           an additional, rapidly emerging management challenge, that of Ensuring the Security of
Gilleran’s membership on the FDIC              the FDIC’s Physical and Human Resources. We update progress in this area in this semi-
Board, the Board continues to operate          annual report.
with one vacancy. The Board position of
Vice Chairman has been vacant since            The Corporation has a number of ongoing programs and initiatives in place to address all
January 2001. The FDIC is both the             of these challenges and we continue to work in partnership with the Corporation on these
independent regulator of a significant         major issues. Additionally, in this report we discuss a new issue that has potential impact
portion of the nation’s banking system         on the FDIC in its role as regulator, insurer, and receiver: the Quality of Bank Financial
as well as the only federal insurer of         Reporting and Auditing.
deposits wherever they are placed in our
nation’s banks. As a corporation
governed by its Board of Directors, the                                                             Although the FDIC has a continuous
vital balance between various interests
                                             Addressing Risks to the
                                                                                               program to ensure the viability of the
implicit in the Board’s structure is         Insurance Funds                                   deposit insurance funds, recent trends
preserved only when all vacancies are             A primary goal of the FDIC under             and events continue to pose additional
filled. Accordingly, we have strongly        its insurance program is to ensure that           risks to the funds. The economic
urged that vacancies on the FDIC’s           its deposit insurance funds remain                landscape changed dramatically
Board be filled as promptly as               viable. Achieving this goal is a challenge,       following the events of September 11,
practicable in order to afford the FDIC      given that the FDIC supervises only a             and recovery is on the upswing, but the
the balanced governance and sustained        portion of the insured depository                 potential exists for an increased number
leadership essential to the agency’s         institutions. The identification of risks         of bank failures. Additionally, the
continued success.                           in non-FDIC-supervised institutions               environment in which financial
     The OIG again emphasizes its belief     requires coordination with the other              institutions operate is evolving rapidly,
that to handle the challenges and issues     federal banking agencies. The FDIC                particularly with the acceleration of
facing the Corporation, a Board of           engages in an ongoing process of                  interstate banking; new banking
Directors operating at full strength must    proactively identifying risks to the              products and asset structures; electronic
be in place.                                 deposit insurance funds and adjusting             banking; and consolidations that may
                                             the risk-based deposit insurance                  occur among the banking, insurance,
                                             premiums charged to the institutions.             and securities industries resulting from
                                             The Division of Finance completes the             the Gramm-Leach-Bliley Act.
                                             final phase of this ongoing process by
                                             collecting the premium assessments.

                                                                                                                                     11
     Bank mergers have created               included the FDIC receiving a payment           substantially from that of its primary
“megabanks,” or “large banks” (defined       of $460 million, of which $100 million          regulator;
as institutions with assets of over $25      was received at closing. The $360
billion), and, for many of these             million remainder will be amortized           • The FDIC’s least cost decision to place
institutions, the FDIC is not the primary    over a 15-year period at a zero percent         Superior Bank into a conservatorship
federal regulator. As of March 31, 2001,     interest rate. Various other                    and its liquidation of remaining
there were 38 megabanks in the               contingencies will impact the final             receivership assets; and
country. Of the $5.3 trillion                settlement amount. Superior was the
consolidated assets controlled by the 38     third FDIC-insured failure of 2001 but        • The Division of Resolutions and
megabanks, the FDIC was the primary          the first institution insured by the            Receiverships’ marketing and
federal regulator for only $162.5 billion    Savings Association Insurance Fund to           resolution of Superior Federal, FSB
in 3 institutions. The megabanks             be closed during that year.                     (New Superior).
created as a result of mergers and the            Given the FDIC’s role in promoting
new or expanded services that the            and preserving public confidence in                We also completed a follow-up audit
institutions can engage in under the         financial depository institutions, Senator    entitled The FDIC’s Use of Special
Gramm-Leach-Bliley Act are presenting        Sarbanes requested that the OIG review        Examination Authority and DOS’s
challenges to the FDIC. The failure of a     why the failure of Superior Bank              Efforts to Monitor Large Bank Insurance
megabank, for example, along with the        resulted in such a significant loss to the    Risks.
potential closing of closely affiliated      insurance fund and that we make
smaller institutions, could result in huge   recommendations for preventing any
losses to the deposit insurance funds.       such loss in the future. The Senator’s        Lessons Learned from Superior
                                             request contained a list of specific issues   Bank

OIG Reports on the Failure of                for us to address. Because Superior                Our independent assessment of
Superior Bank, FSB                           Bank was an institution regulated by          Superior Bank’s failure determined that
                                             OTS, the Department of the Treasury           several factors involving a number of
    A significant portion of our work        OIG was also asked to conduct a parallel      different participants in the institution’s
during the reporting period focused on       review, as was the U.S. General               activities contributed to the institution’s
issues related to addressing risks to the    Accounting Office. The Treasury OIG           demise. As we reported, a number of
insurance funds. Specifically, we            also conducted a material loss review of      lessons can be learned from the history
conducted a series of reviews based on a     Superior.                                     of Superior and these are further
congressional request from Senator Paul                                                    discussed below.
Sarbanes, Chairman of the Senate                 These reviews all culminated in
Committee on Banking, Housing, and           congressional hearings on February 7,             The failure of Superior Bank was
Urban Affairs, related to the failure of     2002, at which the FDIC Inspector             directly attributable to bank
Superior Bank, FSB, Hinsdale, Illinois.      General and others testified.                 management and the bank’s Board of
                                                  In addition to Senator Sarbanes’         Directors ignoring sound risk
     Upon the failure of Superior Bank,                                                    management principles and failing to
OTS closed the institution on July 27,       request, we initiated reviews to address
                                             four related issues surrounding the           adequately oversee Superior operations.
2001. At the time of closure, Superior                                                     Specifically, these bank officials:
had total assets of $2.2 billion and total   failure of Superior:
deposits of $1.6 billion. The FDIC was       • The effectiveness of section 38 of the      • Permitted the institution to concentrate
named conservator and transferred the          Federal Deposit Insurance Act, also           its business too heavily in high-risk
insured deposits and substantially all of      known as Prompt Corrective Action, in         assets (residual assets resulting from
the assets of Superior to Superior             preventing or reducing losses to the          Superior’s securitizing or reselling
Federal, FSB (New Superior), a newly           deposit insurance funds as a result of        loans) without maintaining adequate
chartered, full-service mutual savings         bank failures;                                financial resources to withstand
bank. The failure of Superior was one of                                                     potential losses,
the costliest of all recent failures. The    • The processes in place that help ensure
FDIC’s most recent loss estimate is $440       that DOS case managers stay informed        • Used unrealistic and overly optimistic
million.                                       of emerging issues to maintain an             assumptions to record the value of
                                               informed position on their caseloads          residual assets in the institution’s
    On December 10, 2001, the                                                                accounting records,
Corporation and the former owners of           and effectively monitor risk and
Superior entered into a settlement             instances where the case manager’s
                                               evaluation of an institution differs        • Supported liberal interpretations of
agreement. The terms of the settlement
                                                                                             accounting principles that enabled the

12
                                                               Senator Paul Sarbanes and Inspector
                                                               General Gianni following a hearing on
                                                               the failure of Superior Bank.



 institution to recognize enormous gains         While Office of Thrift Supervision                    did not accurately reflect the financial
 on sales of residual assets and report     examination reports identified many of                     position of the institution because the
 impressive net income figures that         the bank’s problems early on, OTS did                      ratios were based on inflated asset
 masked the net operating losses the        not adequately follow up and investigate                   valuations. In addition, beginning with
 institution was actually experiencing,     the problems, particularly the valuation                   OTS’s 2000 examination, we believe that
 and                                        of residual assets carried by the bank.                    OTS used a methodology to compute
                                            OTS appeared to rely mostly on                             Superior’s capital that artificially
• Paid dividends and executed other         representations made by the bank and                       increased the capital ratios, thus
  transactions that benefited Superior’s    validated by E&Y. OTS also placed                          avoiding the provisions of PCA. By using
  holding company but further depleted      undue reliance on the ability of the                       a post-tax capital ratio for the first time
  the institution’s capital.                wealthy owners of the bank’s holding                       that we were able to determine,
                                            company to inject capital if it was ever                   Superior was classified as “adequately
     Superior’s external auditors, Ernst    needed. However, when an injection of                      capitalized.” If a pre-tax calculation had
& Young (E&Y), rendered unqualified         capital was needed in 2001, the owners                     been used, Superior would have been
opinions every year from 1990 through       agreed to, but subsequently did not,                       “undercapitalized,” thus more
2000 and supported the bank’s               provide the necessary capital. Warning                     immediately subjecting Superior to
valuations of residual assets and its       signs were evident for many years, yet                     various operating constraints under
methodology for calculating gains on        no formal supervisory action was taken                     PCA. These constraints may have
sales of those assets. Even after the       by OTS until July 2000, which                              precluded Superior management from
regulators began questioning the            ultimately proved too late.                                taking actions late in 2000 that were
valuations in January 2000, the firm             Coordination between regulators                       detrimental to the financial condition of
steadfastly maintained that the bank        could have been better. OTS denied a                       the institution.
was properly valuing the assets in          request by the FDIC to participate in                           The federal banking agencies have
accordance with accounting principles.      the January 1999 examination of                            attempted to address these PCA issues
It was not until 1 year later that E&Y      Superior. Instead, OTS allowed the FDIC                    through the adoption of risk-focused
reversed its position and agreed with the   to meet with the OTS examination team                      examination programs and risk-based
regulators’ opinion that the value of the   off-site to discuss concerns                               capital requirements. In addition, on
residual assets should be adjusted to       approximately 1 week before the end of                     November 29, 2001, the agencies issued
comply with those same principles,          the examination. FDIC regional                             a new rule that changes, among other
which required a $270 million reduction     management did not raise this issue to                     things, the regulatory capital treatment
in the bank’s accounting records. The       the FDIC Board of Directors to gain                        of residual interests in asset
regulators later identified $150 million    access through the FDIC’s special                          securitizations. The rule, which became
more in write-downs to the residual         examination authority. OTS and the                         effective on January 1, 2002, addresses
assets so their value would be fairly       FDIC did work together in the January                      the concerns associated with residuals
presented. Once these accounting            2000 examination and more clearly                          that exposed financial institutions like
adjustments were made, Superior was         identified the problem with the residual                   Superior to high levels of credit and
deemed insolvent.                           asset valuations. Even then, however,                      liquidity risk.
       Further, in our opinion, E&Y did     the regulators initially relied on bank                        Our review identified other areas in
not:                                        management and E&Y assurances that                         which we believe regulatory oversight
                                            the bank was properly accounting for its                   could be strengthened. Specifically, the
• Encourage certain disclosures in the
                                            securitization activities and did not                      bank regulatory agencies should focus
  bank’s financial statements that would
                                            immediately put a halt to these                            attention on policies and procedures for:
  have been expected under the
                                            transactions, to the detriment of
  circumstances,                                                                                       • Reviewing external auditors’ working
                                            Superior.
                                                                                                         papers for institutions that operate
• Perform sufficient tests and other             The early intervention provisions of                    high-risk programs, such as subprime
  procedures to ensure the proper           section 38 of the Federal Deposit                            lending and securitizations;
  valuation of residual assets on the       Insurance Act, commonly referred to as
  bank’s accounting records, and            Prompt Corrective Action (PCA),
                                                                                                       • Following up on warning signs that
                                            require regulators to address problems
                                                                                                         indicate possible fraud or other
• Identify or disclose a significant        before the financial condition of a failing
                                                                                                         irregularities;
  misstatement of Superior’s loan loss      institution deteriorates significantly.
  reserves.                                 PCA did not work in the case of
                                            Superior. The capital ratios at Superior


                                                                                                                                          13
 . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . .


• Consulting with other regulators when       limitations in the effectiveness of section    the projected loss to the deposit
  they encounter complex assets such as       38. First, the capital level can be a          insurance fund for these options.
  those at Superior Bank; and                 lagging indicator of an institution’s               Prior to the presentation of the
                                              financial condition, and section 38 lacks      failing bank case, DRR’s access to
• Following up on previous examination        other indicators besides capital that may      Superior records and personnel was
  findings and recommendations.               be helpful in signaling the need for           limited partly based on the fact that
                                              regulatory intervention. Second,               Superior’s owners were in the process of
OIG Further Pursues Prompt                    regulatory agencies use data prepared and      implementing a capital restoration plan
Corrective Action Issues                      submitted by the institutions themselves       that purported to address the capital
                                              to determine when PCA should occur, and        problems at Superior As a result, DRR
     We conducted another review that
                                              that data may not be reliable. We              did not complete the Information
further pursued PCA issues. This review
                                              recommended that the FDIC study these          Package or Asset Valuation Review, two
was based on discussions with staff of
                                              limitations to determine whether the           critical activities that enable DRR to
the Senate Committee on Banking,
                                              addition of non-capital measures would         solicit bids from potential acquirers and
Housing, and Urban Affairs. The
                                              increase the effectiveness of section 38 in    compare the offers for determining the
committee staff requested that we assess
                                              preventing or minimizing losses to the         least costly resolution strategy, as
how well the PCA provisions in section
                                              insurance funds.                               required by the Federal Deposit
38 of the Federal Deposit Insurance Act
were working.                                      Further, although section 38(g)           Insurance Corporation Improvement Act
                                              permits regulators to take PCAs based          of 1991. Additionally, DRR did not have
     In conducting our work, we
                                              on factors other than capital, it does not     sufficient information to develop other
concentrated our efforts on the three
                                              provide specific criteria for                  possible resolution alternatives for
largest institution failures that have
                                              implementation and imposes some                Superior prior to presenting the failing
occurred since January 1997. As of
                                              restrictions that limit the timeliness and     bank case to the FDIC Board.
December 31, 2001, the failure of those
                                              range of actions taken. Therefore, we               DRR adequately documented the
three institutions accounted for $1.17
                                              also recommended that the FDIC, as             asset and receivership liability claim
billion, or 80 percent of the total losses
                                              part of its study, assess whether              balances and the deposit premium
to the deposit insurance funds from the
                                              regulatory or legislative changes should       estimates used in the failing bank case
23 institutions that failed between
                                              be pursued to clarify when section 38(g)       but did not adequately document the
January 1997 and September 2001. In
                                              should be invoked and to eliminate the         assumptions used to estimate the loss
addition, these three institutions had
                                              restrictions imposed by this section.          on Superior’s $2.4 billion in assets. This
high concentrations of residual assets.
We focused our audit to determine             The FDIC’s Decision to Place                   loss value was instrumental in projecting
whether section 38 actions were               Superior Bank into Conservatorship             the cost of Superior’s failure to the
implemented in a timely manner for                  Again, in connection with Superior       deposit insurance fund in the failing
Superior Bank, First National Bank of         Bank’s failure, we completed an audit of       bank case.
Keystone (Keystone), and Pacific Thrift       the FDIC’s decision to place substantially          DRR does not have adequate
and Loan Company and whether those            all of the assets and certain liabilities of   guidance for determining the least costly
actions prevented or reduced losses to        Superior into a conservatorship and of the     resolution for large financial institutions
the insurance funds.                          Corporation’s efforts to liquidate             in situations where DRR cannot
     We determined that the federal           Superior’s assets that did not transfer to     complete the Information Package or an
banking regulators were precluded from        that conservatorship.                          Asset Valuation Review before the
initiating section 38 corrective actions           Our review determined that the FDIC       institution is closed and, thus, DRR’s
timely because Superior, Keystone, and        Board of Directors made its least cost         current guidance was not applicable to
Pacific Thrift and Loan Company valued        decision to place Superior into                the Superior resolution. DRR has made
residual assets in a manner that increased    conservatorship primarily on the Division      improvements to its resolution process
income and inflated their reported capital    of Resolutions and Receiverships’ (DRR)        in the last few years. DRR developed
balances above the minimum capital            recommendation and the information             information-sharing arrangements with
levels that require the regulators to         presented in DRR’s failing bank case.          the Office of the Comptroller of the
invoke such actions. In each case, the        DRR presented two resolution                   Currency and the FDIC’s DOS that have
financial condition of the institution had    alternatives to the FDIC Board in its          facilitated DRR’s early access to failing
significantly deteriorated before the         failing bank case but did not include          institutions. DRR also included in its
regulators were able to invoke PCA. These     complete financial analyses to support         2002 Strategic Plan an objective to
circumstances indicate apparent                                                              document and retain appropriate
                                                                                             background information concerning

14
 . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . . SYMPOSIUM . . .


unique situations encountered for each
resolution for future DRR reference or
for presentation purposes.                      Inspectors General Host Symposium
Follow-up Audit Addresses the                   During the reporting period, the Offices of Inspector General of the Department of the
FDIC’s Special Examination                      Treasury, the Board of Governors of the Federal Reserve System, and the FDIC jointly
Authority and Large Bank Risk                   sponsored a 2-day Emerging Issues Symposium at the Seidman Center. This forum
Monitoring                                      brought together a number of speakers who presented their perspectives on the banking
     We reported the results of our
                                                and financial services industries and the challenges facing all who are involved in those
follow-up audit of a study that we
                                                arenas. Among the distinguished speakers were Director Reich from the FDIC; Governor
conducted of DOS’s efforts to monitor
                                                Roger Ferguson from the Board of Governors of the Federal Reserve System; John Hawke,
and assess risks at insured institutions
                                                Comptroller of the Currency; and Ellen Seidman, Director of the Office of Thrift
for which the FDIC is not the primary
                                                Supervision. Additionally, staff representatives from the Senate Banking, Housing, and
federal regulator. In a memorandum to
                                                Urban Affairs Committee, Subcommittee on Financial Institutions; and House Financial
the FDIC Chairman in October 1999, we
                                                Services Committee participated in a panel discussion addressing congressional priorities
reported that other federal regulators
                                                and legislative agendas for current and future banking issues. Other sessions included an
had occasionally restricted the FDIC’s
                                                interagency panel on the failure of Keystone Bank, presentations by Division of
efforts to participate in safety and
                                                Supervision staff on asset securitization activities and subprime and predatory lending, a
soundness examinations at institutions
                                                discussion of identity theft given by a Federal Trade Commission representative, and a
for which the Corporation is not the
                                                joint presentation by FDIC Legal Division and Treasury OIG Counsel on the Patriot Act and
primary federal regulator. Such
                                                Money Laundering. Participants at the symposium were unanimous in their appreciation
restrictions had limited the FDIC’s
                                                for the opportunity to come together and hear such dynamic and enlightening discussion.
ability to assess risks to the deposit
                                                Ideas presented during the 2 days will serve to enhance the work of the Inspector General
insurance funds. We also reported that
                                                community, and participants look forward to other such cooperative initiatives in the
because of limitations in the information
                                                future.
routinely provided to DOS by the other
regulators pertaining to the nation’s
                                              regulator or the approval of the Board or             Prior to issuing our report, we had
largest banks, DOS may not be able to
                                              (2) seek a legislative change to vest this       an opportunity to review a draft
adequately assess the risks that the
                                              authority in the Chairman.                       interagency proposal addressing factors
country’s largest non-FDIC supervised
                                                   Based on the results of our follow-         that have restricted the FDIC’s special
banks pose to the insurance funds.
                                              up review, the circumstances supporting          examination authority and the
     The objective of our follow-up                                                            Corporation’s concerns regarding
                                              our previous suggestion did not
review was to assess the progress that                                                         information sharing. We also discussed
                                              substantially change, and movement in
the FDIC has made since the issuance of                                                        the proposal with DOS management.
                                              the industry and the consequences of
our previous memorandum and to make                                                            We commended the Corporation’s efforts
                                              additional failures increased the risk to
recommendations that might improve                                                             to address past problems in gaining
                                              the deposit insurance funds.
the Corporation’s effectiveness in                                                             access to and information on
                                              Accordingly, we formally recommended
working with the other federal                                                                 institutions for which the FDIC is not
                                              that the FDIC’s special examination
regulators. We reviewed the issues solely                                                      the primary federal regulator. We also
                                              authority be strengthened. Additionally,
based on information provided by the                                                           expressed several concerns related to
                                              as a result of our follow-up work, we
FDIC in its efforts to effectively carry                                                       limitations that the language of the draft
                                              reaffirmed the position that we
out its mission. We did not perform                                                            agreement might place on the FDIC’s
                                              expressed in our prior review by
audit fieldwork at the Board of                                                                statutory authority to independently
                                              recommending that DOS develop
Governors of the Federal Reserve                                                               assess risks to the deposit insurance
                                              agreements with the other bank
System, the Office of the Comptroller of                                                       funds.
                                              regulatory agencies to provide the FDIC
the Currency, or OTS.
                                              with the real-time information and                    On January 29, 2002, the FDIC’s
    In our 1999 memorandum, we had            access to megabanks necessary to carry           Board of Directors acted on the proposal
suggested that the Chairman (1) request       out the Corporation’s responsibilities as        by authorizing an expanded delegation
delegated authority from the FDIC             the insurer. DOS agreed with this                of authority to grant the FDIC more
Board to initiate special examinations        recommendation.                                  autonomy in terms of examining banks
without having to secure the                                                                   that pose a heightened risk to the
concurrence of the primary federal                                                             deposit insurance funds. The new



                                                                                                                                    15
delegation also provides for the creation      state non-member banks, including            needs to ensure the examination
of a dedicated FDIC examiner program           state-licensed branches of foreign banks     workforce will be adequate for handling
at the eight largest banks and is              and state-chartered mutual savings           potential problems and bank failures.
intended to provide more timely access         banks. The challenge to the Corporation      OIG Work Addresses Supervision
to information related to those banks.         is to ensure that its system of              Challenges
After signing the agreement, FDIC              supervisory controls will identify and
Chairman Powell stated, “The                   effectively address financial institution         The OIG’s work related to the
agreement establishes a better process         activities that are unsafe, unsound,         Corporation’s supervision activities
for determining when the FDIC will use         illegal, or improper before the activities   during the reporting period consisted in
its authority to examine any insured           become a drain on the insurance funds.       part of ongoing assistance provided to
institution. It will further protect the                                                    Phase II of the DOS Process Redesign
                                                   Emerging trends and new                  Project. OIG staff provided input and
insurance funds. It shows what the             developments in the banking industry
banking regulators can achieve when we                                                      feedback to proposals and questions. A
                                               require the Division of Supervision          major focus of recent involvement is
work together.”                                (DOS) to identify and assess risks from:     DOS’s new Maximum Efficiency Risk-
     Our report went a step further and        • subprime lending;                          focused Institution Targeted (MERIT)
recommended that the FDIC pursue a                                                          Guidelines for examining small, low-risk
legislative change that would vest             • declining underwriting standards for       institutions. The OIG is pleased to play
special examination authority in the             commercial real estate lending;            a part in helping to ensure that the
FDIC Chairman. We believed this was                                                         programs developed by DOS contain
the best approach to resolving problems        • rapid changes in bank operations
                                                 between safety and soundness               adequate management controls.
related to the Corporation’s special
examination authority because any                examinations;                                   Additionally, the OIG issued a
agreement is subject to interpretation                                                      report that was one of a series of
                                               • the growth of information technology       reviews initiated in response to the
and varying degrees of support when              and its increasing impact on payment
there is a change among the leadership                                                      failure of Superior Bank, FSB, Hinsdale,
                                                 systems and other traditional banking      Illinois, that was placed into
of the four federal banking agencies.            functions;
DOS agreed with this recommendation                                                         receivership on July 27, 2001. (See
and stated that revising section 10(b)(3)      • fraudulent activities, which have          earlier discussion of Superior Bank-
of the FDIC Act would achieve a more             contributed significantly to bank          related work.) We conducted our
permanent solution to inefficiencies             failures in recent years; and              Evaluation of Rating Differences
related to the FDIC’s use of special                                                        Between the FDIC and Other Primary
examination authority. As a result, DOS        • expanded banking activities permitted      Federal Regulators to determine the
had included amending section 10(b)(3)           by the Gramm-Leach-Bliley Act.             extent to which there are ratings
in its Legislative Priorities list for 2002.                                                differences between the FDIC and the
                                                   Further, DOS may have to
However, upon corporate review, this                                                        primary federal regulator and to
                                               reevaluate the concepts of risk, capital,
was not pursued.                                                                            evaluate the process for resolving these
                                               and asset valuation in light of recently
                                                                                            differences.
                                               developing investment products and
Supervising Insured                            methods.                                          We identified few ratings differences
                                                                                            during our review period, and,
Institutions                                        There are also continuing pressures
                                                                                            consistent with the FDIC’s procedures
     The FDIC shares supervisory and           for the FDIC to increase the efficiency
                                                                                            for Disagreement with Primary Federal
regulatory responsibility for                  of the bank examination process
                                                                                            Regulator Ratings, case managers told us
approximately 9,796 banks and savings          designed to identify and assess these
                                                                                            that good communication and
institutions with other regulatory             risks. Additionally, with the possibility
                                                                                            coordination with the primary federal
agencies including the Board of                of a serious economic downturn, and
                                                                                            regulator were the keys to resolving
Governors of the Federal Reserve               given the magnitude of FDIC corporate
                                                                                            differences, and, more broadly,
System, the Office of the Comptroller of       downsizing, DOS must assess its size
                                                                                            monitoring the condition of institutions
the Currency, the OTS, and state               and mix of expertise and skills in its
                                                                                            not supervised by the FDIC.
authorities. The FDIC is the primary           workforce to ensure sufficient capacity
                                               for addressing increased risks.                   Some case managers raised
federal regulator for 5,579 federally
                                               Considering the lead time for developing     concerns related to the FDIC’s special
insured state-chartered commercial
                                               new commissioned examiners, the FDIC         examination authority. These concerns
banks that are not members of the
                                                                                            were further addressed as part of our
Federal Reserve System, which includes
                                                                                            follow-up audit of the FDIC’s use of


16
special examination authority and DOS’s            Our report discusses the adequacy     shrink around a target or range,
efforts to monitor large bank insurance       of Federal Financial Institutions          establishing assessment credits based on
risks, as discussed earlier in this report.   Examination Council procedures for the     past contributions, and indexing
                                              FDIC’s pre-examination planning for fair   insurance coverage and raising the
Protecting Consumer                           lending examinations of small banks and    insurance on retirement accounts.
                                              the FDIC’s implementation of those              The FDIC views these
Interests                                     procedures. The procedures were not        recommendations as interrelated and
     The FDIC is legislatively mandated       adequate for many of the banks that the    believes they should be implemented as
to enforce various statutes and               FDIC supervises, and a lack of available   a package because piecemeal
regulations regarding, for example,           monitoring and demographic data often      implementation could introduce new
consumer protection and civil rights          made it difficult for examiners to apply   distortions and aggravate the problems
with respect to state-chartered, non-         procedures for determining potential       that the recommendations are designed
member banks and to encourage                 discrimination. The Corporation had,       to address. While conceptually the
community investment initiatives by           however, initiated several compensating    recommendations appear to the OIG to
these institutions. Some of the more          actions. Specifically, the Division of     be sound, we have not done work
prominent laws and regulations in this        Compliance and Consumer Affairs            related to all of them. Based on work to
area include the Truth in Lending Act,        (DCA) issued FDIC Examination              date, the OIG strongly supports merging
Fair Credit Reporting Act, Real Estate        Procedures for “Low-Risk” Institutions     the funds.
Settlement Procedures Act, Fair Housing       that discusses how to risk-focus reviews
Act, Home Mortgage Disclosure Act,            of fair lending requirements. DCA has           Chairman Powell noted the
Equal Credit Opportunity Act, and             also implemented new training for its      unanimity within the banking
Community Reinvestment Act of 1977.           examiners that addresses the conduct of    community on this particular point.
                                              fair lending examinations, including       Today, as a result of bank mergers and
     The Corporation accomplishes its                                                    acquisitions, many institutions hold
mission related to fair lending and other     various issues that arise during risk-
                                              scoping. Finally, DCA has revised its      both BIF- and SAIF-insured deposits,
consumer protection laws and                                                             obscuring the difference between the
regulations primarily by conducting           referral and consultation program to
                                              emphasize direct contact with the          funds. In fact, the Chairman stated that
compliance examinations, taking                                                          more than 40 percent of SAIF-insured
enforcement actions to address unsafe         Washington Office for guidance during
                                              the fair lending examination process.      deposits are now held by commercial
or unsound banking practices and                                                         banks. The resulting fund would not
compliance violations, encouraging                 We also determined that               only be stronger and better diversified
public involvement in the compliance          documentation of the risk-scoping          but would also eliminate the concern
process, assisting financial institutions     process could be improved. A DCA           about a premium disparity between the
with fair lending and consumer                internal review confirmed that the         BIF and the SAIF. Assessments in the
protection compliance through                 present level of documentation of the      merged fund would be based on the risk
education and guidance, and providing         risk-scoping process needs to be           that institutions pose to the single fund.
assistance to various parties within and      improved, and new documentation            The prospect of different prices for
outside of the FDIC.                          requirements will be issued in May         identical deposit insurance coverage
OIG Reviews Fair Lending                      2002.                                      would be eliminated. Also, insured
Examination Risk-Scoping                                                                 institutions would no longer have to
Procedures                                    Deposit Insurance Reform                   track their BIF and SAIF deposits
     We completed our review of The                On October 17, 2001, Chairman         separately, resulting in cost savings for
Division of Compliance and Consumer           Powell testified on deposit insurance      the industry.
Affairs’ Risk-Scoping Procedures for          reform before the Subcommittee on              On April 4, 2002, the Chairman also
Fair Lending Examinations during the          Financial Institutions and Consumer        spoke about merging the funds at the
reporting period. “Fair lending” is a         Credit, Committee on Financial             University of North Carolina Banking
term used to describe compliance with         Services, U.S. House of Representatives.   Law Center in Chapel Hill, North
two federal laws prohibiting                  The Chairman recommended the               Carolina. In his statement he said,
discrimination in lending: the Fair           merger of the Bank Insurance Fund
                                                                                              If the conditions we have seen
Housing Act enacted by Title VIII of the      (BIF) and the Savings Association
                                                                                           for the last several years were to
Civil Rights Act of 1968 and the Equal        Insurance Fund (SAIF), charging risk-
                                                                                           continue, the safest banks and
Credit Opportunity Act of 1974.               based premiums to all institutions,
                                                                                           thrifts that paid to build up the
                                              allowing insurance funds to build or



                                                                                                                            17
  funds on balance would be no             Extranet sources also pose risks to the           Enterprise Architecture. A new
  worse off than they are under            Corporation and the institutions that it     enterprise architecture process will be
  the present system. Riskier              regulates and insures. Many of the risks     introduced to manage technology,
  banks, fast growers, and new             are new and unique. Solutions to             applications, and technical
  entrants would bear more of              address them are sometimes difficult         infrastructure for the Corporation. The
  the assessment burden in the             and without precedent.                       new enterprise architecture process will
  short term. It also means that,               In addition to technological            be integral to corporate and IT planning
  if conditions worsen, the safest         advances, the Corporation must               and should provide a corporate view of
  banks would be better off than           continue to respond to the impact of         and future direction for business
  they are under the present               new laws and regulations on its              processes, information, applications,
  system, since their premiums             operations. Management of IT resources       and infrastructure. It will also provide
  during a downturn would be               and IT security have been the focus of       the standards and procedures to be
  lower.                                   several significant legislative acts, such   followed whenever a new information
     Bills are currently under             as the Government Performance and            system is being built.
consideration in both the House and        Results Act and the Paperwork                     Our work in the IT area during the
Senate regarding deposit insurance         Reduction Act. The Government                reporting period identified a number of
reform. Testimony by the Treasury and      Information Security Reform Act              significant security concerns and
the Federal Reserve System supports the    requires the OIG to conduct an annual        opportunities to improve the efficiency
FDIC’s proposed framework for changing     evaluation of the FDIC’s information         and effectiveness of certain applications
the way deposit insurance is paid for.     security controls. Our second such           and data integrity as well. A brief
We will continue to monitor this           review is currently ongoing.                 summary of important IT-related
important initiative, as changes in this        According to the 2002 Annual            products follows.
area will impact the way the FDIC          Performance Plan, the Corporation will       Follow-up Audit of Internal
operates and how our office can best       continue to be engaged in several major      Controls over the Customer
support the FDIC in pursuit of its         technology initiatives during the            Information and Control System
mission.                                   remainder of 2002. These include the         (CICS) for FDIC Financial Systems
                                           following:                                       CICS is a transaction management
Managing Information                            New Financial Environment. The          program for mission-critical
Technology                                 FDIC is working to replace its financial     applications, such as the Bank
     Accomplishing information             system, resulting in substantially lower     Information Tracking System, Call
technology (IT) goals efficiently and      costs and greater functionality when         Processing System, and the FDIC’s
effectively requires significant           fully implemented. The new financial         financial systems. Such financial
expenditures of funds and wise decision-   environment will improve business            systems include the Financial
making and oversight on the part of        processes by adopting the best practices     Information Management System
FDIC management. The Corporation’s         built into software packages, simplify       general ledger, the Accounts Payable
2002 IT budget is approximately $192.5     and consolidate the financial application    Purchase Order System, and the
million.                                   and data environment, enhance                Electronic Procurement Routing Invoice
                                           efficiency by automating manual work,        Solution. The financial systems record
     IT is increasingly impacting every    maximize e-business opportunities, and       and report all the financial activity of
facet of our lives and is evolving at a    provide better information for corporate     the Corporation.
rapid pace. The Corporation must           decision-making. (See a discussion of
constantly evaluate technological                                                           CICS provides the interface
                                           OIG work related to the New Financial        between these application programs and
advances to ensure that its operations     Environment later in this report.)
continue to be efficient and cost-                                                      the computer’s operating system.
effective and that it is properly               Information Security Program            Specifically, it provides the mainframe
positioned to carry out its mission. The   Improvements. The Corporation                operating system with the ability to
capabilities provided by IT advances       developed and implemented an                 handle transactions from user terminals
such as paperless systems, electronic      information security program to address      such as a personal computer.
commerce, electronic banking, and the      identified weaknesses. During 2002 the           In order to conduct its functions,
instantaneous and constant information-    Corporation plans to enhance security        CICS uses a System Definition File. The
sharing through Internet, Intranet, and    performance measurement and                  System Definition File within CICS
                                           contractor and external security.



18
identifies and defines what transactions     and calculating asset values. The Asset      DPS was operating as intended,
or programs are available to users of the    Valuation Review reports generated by        inconsistencies in data structure and
mission-critical applications. Also the      RAVEN are instrumental in determining        content between DPS and the
CICS software system includes very           the least costly resolution of the           Receivership Liability System (RLS), the
powerful capabilities (for example,          institution. RAVEN is used to prepare        FDIC system that issues valid receiver
commands that can shut down the              the bid packages given to prospective        certificates, raised concerns regarding
application systems) that must be            failing institution bidders and              the reliability of DPS data on which
appropriately controlled to protect          establishes valuations for assets to be      dividends are computed and paid.
corporate applications and data.             liquidated by the FDIC. Institution          Additionally, some DPS general and
Consequently, to ensure the integrity of     regulators are charged with maintaining      application controls were not
application programs and data, CICS          strict confidentiality in matters related    implemented before DPS was put into
must be integrated with the security         to potential institution failures.           operation. Specifically, the Division of
software used on the mainframe               Consequently, RAVEN contains                 Information Resources Management
computer.                                    extremely confidential information           (DIRM) did not obtain memorandums of
     Our audit determined that controls      related to the institution’s asset values    agreement on data sharing or institute
were not in place to protect access to       and liabilities.                             adequate change controls over the
the CICS System Definition File within           We conducted an audit to determine       application’s software, and the Division
the CICS system. As a result, over 100       whether security and controls over the       of Finance did not update its
non-CICS programmers had full access         RAVEN data, application software, and        contingency plan or procedure manuals
to the file and had the capability to shut   operating environment were adequate.         to reflect changes brought about by
down or disrupt the systems that are         We concluded that RAVEN data and             DPS. We recommended that the FDIC
critical to the FDIC’s mission. When we      operating environment security control       take steps to correct the inconsistencies
brought this condition to management’s       practices were not adequate to protect       between DPS data and data in the
attention, appropriate action was taken      sensitive data. Further, application         related applications. We also
to correct the problem.                      security and control practices had not       recommended that the Corporation
                                             been implemented to ensure that              implement certain general and
    We determined that other access                                                       application controls that were not in
security controls were adequate for          application documentation was prepared
                                             and retained. Finally, adequate change       place at the time of our audit.
CICS system files, resources, and                                                         Management has either completed or is
software monitoring products used by         controls had not been implemented. We
                                             made seven recommendations to                taking action on our recommendations.
the FDIC financial systems.
                                             address these concerns. Management           Additional IT Work
Security and Controls over the Risk          had either completed or was in the
Analysis and Value Estimation                                                                 Other reviews during the reporting
                                             process of taking action on all              period covered the following matters:
System                                       recommendations as of the date of
     The FDIC is charged with the            report issuance.                                  Controls over Outlook Resources.
resolution of failing financial                                                           The FDIC uses Outlook to provide
                                             The FDIC’s Dividend Processing               electronic mail and calendar services to
institutions. The Corporation’s DRR is       System
responsible for resolving troubled                                                        its employees. Our review determined
financial institutions and selling assets         Our audit addressed the FDIC’s          that the FDIC’s policies and procedures
at the least cost and highest recovery to    Dividend Processing System (DPS), the        did not adequately protect data residing
the Corporation’s insurance funds.           Corporation’s accounting application         in Outlook folders. Guidance was
                                             used to determine payment amounts            lacking to properly control the use of
     Fundamental to selling assets for       and the corporate system of record for       Outlook settings that can permit other
the least cost and highest recovery are      dividends paid to the holders of receiver    system users to have access to
the practices developed by DRR to            certificates from failed institutions. DPS   information created by or intended for
establish asset prices and evaluate the      generates payment requests based on          the original user. As a result, sensitive
bids received on the failing institution.    receivership certificates, administrative    data residing in e-mail messages and
The asset prices are established using       expense, and funds available for             Outlook folders may not have been
the Asset Valuation Review process.          distribution.                                secured against unauthorized disclosure,
     DRR uses the Risk Analysis and               DPS generally met user                  deletion, or modification. The security
Value Estimation (RAVEN) application         requirements and improved the                risk was increased because the version
to support the Asset Valuation Review        efficiency and effectiveness of the          of Outlook in use at the time could
process by determining asset samples         dividend payment process. Although           contribute to users inadvertently



                                                                                                                           19
assigning access to their personal folders                                                                         information
to all Outlook users. The Corporation                                                                              technology and
took action on the recommendations we         Update on Prior OIG Work:                                            logistical services
made in this report.                          Corporation Reaches Settlement Agreement                             such as managing
     The FDIC’s Excess Computer                                                                                    the automated
                                              On March 28, 2002, Ryland Mortgage Corporation and its parent,
Hard Drive Sanitation Procedures.                                                                                  inventory system
                                              the Ryland Group, Inc., executed a global settlement agreeing to
We conducted this audit to determine                                                                               and operating the
                                              pay the FDIC $5.4 million to settle all claims in connection with
whether the statement of work                                                                                      equipment
                                              the servicing, administration, and termination of nine Resolution
contained in DIRM’s contract with its                                                                              distribution centers
                                              Trust Corporation (RTC) securitizations.
inventory management contractor                                                                                    for DIRM.
                                              Ryland was the servicer for nine mortgage backed securities
complied with corporate policies and                                                                                     Our report
                                              series issued by RTC. The FDIC, as successor to RTC, owned the
procedures and whether the corporate                                                                                contained two
                                              reserve funds and residual interests associated with each series,
policies and procedures relating to                                                                                 recommendations:
                                              all of which have now terminated. The servicing related disputes
removing data from excess computer                                                                                  one to disallow
                                              centered on Ryland’s inappropriate calculation of realized losses
equipment were adequate. We                                                                                         questioned costs of
                                              by including excess interest and excess servicing fees as well as
recommended measures to better ensure                                                                               $50,460 and
                                              other servicing deficiencies. Both the Division of Resolutions and
that all data are effectively removed                                                                               another to
                                              Receiverships (DRR) and the OIG did reviews of samples of
from the Corporation’s excess                                                                                       determine whether
                                              Ryland’s realized losses. DRR used the OIG’s findings to support
computers, and the Corporation                                                                                      requirements listed
                                              and bolster its claims against Ryland. The Legal Division con-
promptly implemented new procedures                                                                                 in a General
                                              ducted extensive negotiations with Ryland which resulted in this
in response. We also recommended that                                                                               Services
                                              settlement.
the Corporation test the new procedures                                                                             Administration
to ensure their full effectiveness going                                                                            supply schedule
forward.                                                                                       contract or those listed in the FDIC
                                             Additionally, with increased downsizing
                                                                                               delivery order are applicable to the
                                             and possibly more involvement of
Ensuring Sound Controls                                                                        contractor and ultimately disallow any
                                             contractors to carry out the FDIC
                                                                                               appropriate portion of the $252,675 of
and Oversight of                             mission, effective oversight will become
                                                                                               unresolved costs we identified. The
                                             even more critical.
Contracting                                                                                    questioned costs were all related to
                                                  Projections of calendar year 2002            billing the FDIC at rates higher than
     The private sector provides goods
                                             non-legal contract awards and purchases           allowable based on employees’
and services to the FDIC as needed
                                             total 1,400 actions valued at                     education and experience qualifications.
through contracting to assist the
                                             approximately $375 million. Information           Management agreed with both
Corporation in accomplishing its
                                             technology has always been one of the             recommendations.
mission. Contractors provide assistance
                                             most active areas of contracting. As of
in such areas as information technology,                                                       New Approach to Contract Audits
                                             March 31, 2002, there were more than
legal matters, loan servicing, asset                                                               In coordination with the Division of
                                             210 active information resources
management, and financial services.                                                            Administration, we are developing a new
                                             management contracts valued at
     Maintaining a strong system of          approximately $350 million that had               approach to conducting audits of
internal controls and effective oversight    been awarded in headquarters.                     contractor billings as well as
of contracting is critical to the FDIC’s     Approximately $185 million of this                performance-type audits in the
success. The Corporation has taken a         expenditure authority for active                  contracting area, and several audits are
number of steps in this regard-training,     contracts had been spent and $165                 in process using the new approach.
revisions to the Acquisition Policy          million remained to be used as of that            Audits of contractors will focus more
Manual, and Contractor Oversight             date.                                             specifically on contract provisions to
working groups. A goal related to                                                              determine the allowability of costs.
                                             Contractor Billing Audit
contractor oversight was added to the                                                          Performance-type audits in the
Corporation’s Annual Performance Plan,            We completed an audit of the                 contracting area will focus on such
which is formulated in accordance with       billings of an FDIC contractor to the             issues as how well contracts are
the Government Performance and               FDIC to determine whether the                     administered and the adequacy of
Results Act. The Corporation must            contractor’s billings complied with the           contractor oversight. In the past, these
sustain such efforts going forward.          terms and conditions of the delivery              objectives were often combined into one
                                             order. The contractor provided                    audit.



20
    We plan to separate out any FDIC        actual performance and achieving these       strategic and annual performance goals.
contract administration and oversight       strategic goals, which are closely linked    Our review plan consists of the following
issues from our contractor audits and       to the major issues discussed in this        three integrated strategies:
incorporate those issues into a             semiannual report.                           • Linking Planned Reviews to the
performance-type audit where we can              The Corporation has made                  Results Act. We will link planned
analyze trends and make more                significant progress in implementing the       reviews to corporate strategic goals and
meaningful recommendations. Audits of       Results Act and will continue to address       annual performance goals and provide
contractors will have a narrow scope        the challenges of developing more              appropriate Results Act coverage
and a streamlined process, which should     outcome-oriented performance                   through audits and evaluations. As
result in a shorter period needed to        measures, linking performance goals and        part of this strategy, our planning effort
issue the final reports.                    budgetary resources, establishing              this year will seek to align our audit
                                            processes to verify and validate reported      work more closely with the
Establishing Goals and                      performance data, and addressing               Corporation’s strategic plan and
                                            crosscutting issues and programs that          performance goals.
Measuring Results                           affect other federal financial institution
     The Government Performance and         regulatory agencies. The FDIC is             • Targeted Verification Reviews. We
Results Act (Results Act) of 1993 was       committed to fulfilling both the               will maintain a program of independent
enacted to improve the efficiency,          requirements of the Results Act and            reviews to evaluate the adequacy and
effectiveness, and accountability of        congressional expectations that the            reliability of selected information
federal programs by establishing a          performance plans and reports clearly          systems and data supporting FDIC
system for setting goals, measuring         inform the Congress and the public of          performance reports. The OIG has
performance, and reporting on               the results and outcomes of the FDIC’s         developed a standard work program to
accomplishments. Specifically, the          major programs and activities, including       conduct these evaluations.
Results Act requires most federal           how the agency will accomplish its goals
agencies, including the FDIC, to prepare    and measure the results.                     • Advisory Comments. We will continue
a strategic plan that broadly defines
                                            OIG Formulates Results Act Review              our practice of providing advisory
each agency’s mission, vision, and
                                            Plan                                           comments to the Corporation regarding
strategic goals and objectives; an annual
                                                                                           its update or cyclical preparation of
performance plan that translates the             In late 1998, the House Leadership
                                                                                           strategic and annual performance plans
vision and goals of the strategic plan      formally requested that the Inspectors
                                                                                           and reports.
into measurable annual goals; and an        General of 24 executive agencies
annual performance report that              develop and implement a plan for
compares actual results against planned                                                  OIG Reviews Draft FDIC 2002
                                            reviewing their agencies’ Results Act
goals.                                                                                   Annual Performance Plan
                                            activities. The Congress attaches great
     The Corporation’s strategic plan and   importance to effective implementation            During this reporting period, the
annual performance plan lay out the         of the Results Act and believes that         OIG reviewed and provided advisory
agency’s mission and vision and             Inspectors General have an important         comments to management on the FDIC’s
articulate goals and objectives for the     role to play in informing agency heads       draft 2002 Annual Performance Plan.
FDIC’s three major program areas of         and the Congress on a wide range of          Our comments were based in large
Insurance, Supervision, and                 issues concerning efforts to implement       measure on a consideration and analysis
Receivership Management. The plans          the Results Act. We believe the              of corporate objectives and priorities
focus on four strategic goals that define   congressional views on such a review         emphasized by the FDIC Chairman at
desired outcomes identified for each        plan represent an appropriate direction      the February 2002 Leadership
program area: (1) Insured Depositors        for all Offices of Inspector General.        Conference for executive staff. We
Are Protected from Loss Without                                                          believe the high-level communication of
                                            OIG’s Results Act Review Plan
Recourse to Taxpayer Funding, (2)                                                        clear corporate performance and
                                                 The FDIC OIG is fully committed to      accountability expectations at the
FDIC-Supervised Institutions Are Safe
                                            taking an active role in the                 conference was commendable and fully
and Sound, (3) Consumers’ Rights Are
                                            Corporation’s implementation of the          consistent with the concepts of the
Protected and FDIC-Supervised
                                            Results Act. We have developed a review      Results Act, including the concept of
Institutions Invest in Their
                                            plan to help ensure that the Corporation     linking corporate performance to
Communities, and (4) Recovery to
                                            satisfies the requirements of the Results    individual accountability.
Creditors of Receiverships Is Achieved.
                                            Act and maintains systems to reliably
Through its annual performance report,
                                            measure progress toward achieving its
the FDIC is accountable for reporting

                                                                                                                             21
     Our comments included a
comprehensive matrix analysis of the
linkage between the Leadership                Update on Personnel Security Work
Conference 2002 Performance Measures          Corporation Makes Progress on Background Investigation Project
and the draft FDIC 2002 Annual
Performance Plan. The Leadership              In our last semiannual report, we reported the results of a review that we conducted at
Conference performance measures               the request of the Subcommittee on Oversight and Investigations, Committee on Financial
established performance objectives for        Services, U.S. House of Representatives. The Subcommittee Chairwoman, Sue W. Kelly,
2002 that provide the framework for           requested that we evaluate the FDIC’s policies, procedures, and practices under which the
quarterly performance reporting and           Corporation conducts, adjudicates, and documents background investigations of prospec-
executive accountability to the               tive and current employees. At the Corporation’s request, we also assessed whether the
Chairman. Our analysis of the linkage         Corporation had effectively implemented a process to ensure that proper risk designations
indicated that a substantial number of        had been assigned to FDIC’s positions.
the Leadership Conference measures            We determined that the FDIC needed to do more to ensure that all corporate positions
had not been fully incorporated in the        have risk designations and that such designations are commensurate with assigned
draft FDIC 2002 Annual Performance            responsibilities and reflected accurately in corporate databases.
Plan.                                         During this reporting period, the Corporation took significant action to address the recom-
     We suggested that management             mendations in our report. With respect to our recommendation to redesignate position
review the Leadership Conference              sensitivity levels for Division of Supervision and Division of Compliance and Consumer
performance measures and consider             Affairs’ positions to reflect public trust responsibilities, the Division of Administration
incorporating them as annual                  received over 90 percent of the background investigation forms from over 2,500 examin-
performance goals in the 2002 Annual          ers, and approximately 50 percent are currently with the U.S. Office of Personnel
Performance Plan, especially the              Management for investigation. Thus, the Corporation expects to complete the project well
corporate-level measures. Management          ahead of its initial estimated completion date. Action to address remaining open recom-
officials agreed conceptually with our        mendations is ongoing.
view and suggestions, but the timing was
not sufficient to make adjustments in
the 2002 plan. Management indicated
they would consider our suggestions in      Addressing Human Capital                          correct existing skills imbalances. To do
the 2003 plan.                                                                                so, the Corporation has in motion a
                                            Issues                                            comprehensive program that includes
     The OIG will continue to develop            The FDIC has been in a downsizing            early retirement offerings, separation
and refine its integrated oversight         mode for the past 10 years as the                 incentives, solicitations of interest,
strategy to help ensure that the FDIC’s     workload from the banking and thrift              reassignments, retraining, outplacement
Results Act-related efforts fully conform   crises of the late l980s and 1990s has            assistance, and possible reductions-in-
to the spirit and intent of the Act. We     been accomplished. Over that time-                force. As the Corporation adjusts to a
plan to continue to work with the           frame, the workforce (combined from               smaller workforce, it must continue to
Corporation to improve the FDIC’s           the FDIC and the Resolution Trust                 ensure the readiness of its staff to carry
performance measurement and                 Corporation) has fallen from                      out the corporate mission.
reporting through our audits,               approximately 23,000 in 1992 to 6,175
evaluations, and management advisory                                                               The Corporation has predicted that
                                            as of March 31, 2002. In addition to
reviews and analyses. The OIG will also                                                       almost 20 percent of FDIC employees
                                            reductions in the size of the workforce,
continue to monitor and review                                                                will be eligible to retire within the next
                                            as the Corporation’s needs have
legislation proposed in the Congress to                                                       5 years. The Corporation must
                                            changed, employees have been relocated
amend the Results Act and will actively                                                       continue to conserve and replenish the
                                            to best serve those changing needs. The
participate to refine appropriate OIG                                                         institutional knowledge and expertise
                                            Corporation is continuing to streamline
Results Act roles, responsibilities, and                                                      that has guided the organization over
                                            its staff to reduce operational costs,
activities through the President’s                                                            the past years. Hiring and retaining new
                                            especially its management overhead and
Council on Integrity and Efficiency and                                                       talent will be important, and hiring and
                                            program support costs. A number of
the interagency groups it sponsors.                                                           retention policies that are fair and
                                            division mergers and reorganizations are
                                                                                              inclusive remain a significant
                                            taking place or planned. By June 2003,
                                                                                              component of the corporate diversity
                                            the Corporation hopes to substantially
                                                                                              plan.
                                            complete required downsizing and



22
     Another consideration is               corporate human resource strategies.        to operating costs. Such needs may
determining where corporate employees       One priority of the committee is the        include, for example, further ensuring
will be housed over the long-term.          Chairman’s initiative to establish a        information resources security and
Millions of dollars are spent on leases     corporate university and job rotation       building security.
throughout the country. Given the           program, as announced at the February            FDIC Chairman Powell has
changes in the industry, trends such as     Leadership Conference.                      underscored the importance of
telecommuting and increased use of               Designing, implementing, and           efficiency and effectiveness of the FDIC
technological tools to perform work, and    maintaining effective human capital         in various communications with FDIC
continued attrition, the Corporation        strategies are critical to improving        employees. Certainly, the Corporation’s
may need to consider additional             performance and accountability and          planned organizational streamlining and
relocations or establish new work sites     must be the focus of sustained corporate    downsizing will seek such efficiencies
and capabilities for its staff.             attention. The OIG is conducting an         and economies. Additionally, the
     In that regard, during the reporting   evaluation review of aspects of the         Corporation is evaluating the cost of
period the Corporation’s Board of           Corporation’s human capital efforts. Our    certain corporate operations against
Directors approved construction of a        work is focusing on the design of the       appropriate benchmark organizations.
new nine-story building at its Virginia     Corporation’s current training,             The results of such studies will help the
Square office complex in Northern           education, and development policies and     Corporation identify areas in which its
Virginia. This building will house FDIC     programs to ensure the Corporation          costs may be higher than other
staff for the most part now working in      maintains a highly skilled workforce for    organizations and potential “best
leased space in the District of Columbia.   handling anticipated and unforeseen         practices” to reduce these costs.
The expansion will cost approximately       workloads. We expect to issue the                Further, the Corporation is
$111 million; however, the Corporation      results of our work in the next             implementing a service costing
anticipates substantial savings in the      semiannual report.                          initiative-new procedures to charge
long run–more than $78 million (in                                                      receiverships for services provided by
today’s dollars) over the next 20 years.    Containing Costs and                        the Corporation by applying standard
At the Division of Administration’s                                                     rates. This initiative should also result
request, the OIG will be conducting a       Assessing Business                          in further allocation of receivership
type of pre-award audit to ensure that      Processes                                   expenses. The OIG is conducting a
the process for soliciting and hiring                                                   review of the Corporation’s efforts in
                                                 The Corporation continues to try to
contractors to perform the work of                                                      this area.
                                            identify and implement ways to contain
constructing the new site is carefully
                                            and reduce costs, either through more       OIG Work Evaluates Corporate
controlled and properly carried out.
                                            careful spending or assessing and           Efforts for Efficiencies
     To implement an overall successful     making changes in business processes to
human capital framework, organizations      increase efficiency. As steward for the         Completed OIG work during the
need information systems that allow         Bank Insurance Fund and the Savings         reporting period related to this major
managers to identify skills imbalances      Association Insurance Fund, the FDIC        issue included a review of the FDIC’s
and project future needs. Also important    looks for cost reductions and efficiency    management of its headquarters-owned
is that the Corporation’s human capital     improvements to minimize the draw on        buildings and a review of the
strategy and workforce planning system      the funds.                                  Corporation’s planning for its New
are directly linked to the FDIC’s overall                                               Financial Environment.
                                                 The Corporation has taken steps to
strategic and performance plans. The                                                         Regarding the headquarters-owned
                                            increase emphasis in this area. As
Corporation’s 2001-2006 strategic plan                                                  buildings, we recommended that the
                                            discussed in the previous section of this
includes workforce issues and a                                                         Corporation develop a policy that
                                            report, savings will result from the
discussion of corporate resources.                                                      formally establishes a building
                                            Corporation’s planned building of its
    The Corporation has established a       new Virginia Square site. Several other     management program that incorporates
Human Resources Committee. This             initiatives are in process to better        at a minimum, the following
committee is an executive steering          understand what the various business        requirements:
committee that reports to the Chief         processes and activities within the FDIC    • a comprehensive 5-year building
Operating Officer and is responsible for    cost, how they can be made more               management plan for each facility that
developing policy recommendations           efficient, and how they compare to            is updated annually and includes
regarding major human resource issues       private and public sector entities. The       estimated project costs;
and monitoring implementation of            Corporation may also need to recognize
                                            and plan for unmet needs which can add

                                                                                                                           23
• prioritization criteria for maintenance,   would impose external discipline on the       evacuation of all employees and visitors
  repair, and improvement projects, with     process, and we considered these              in a timely manner.
  an emphasis on employee safety and         controls responsive to our concerns.
  legally required projects; and                                                         • Communication and coordination is
                                             Update on Physical                            needed with any other government
• a deferred-maintenance reporting                                                         authorities who are relevant to the
  requirement that includes both the         Security, an Emerging                         nature of the emergency, including
  estimated present and future costs to      Issue From Previous                           federal law enforcement and other
  correct deficiencies.                                                                    security forces; other federal and state
                                             Semiannual Report                             banking regulatory authorities; and
     We also recommended that the                 In our last semiannual report,           local government, police, fire, health,
Corporation assign a higher priority to      largely in light of the events of             and emergency preparedness
installing fire suppressant sprinkler        September 11, we identified an                authorities as circumstances may
systems at several specific FDIC             emerging issue that the FDIC needed to        dictate.
buildings.                                   address: physical and personnel
                                             security. The Corporation has devoted       • A decision making process is needed
     With respect to the New Financial       considerable attention to these areas
Environment, we conducted an                                                               for implementing a business continuity
                                             and continues to do so. It has enhanced       plan that can (1) ensure the
evaluation to assess the reasonableness      important physical security features of
of the cost/benefit analysis and the                                                       continuous capacity of the FDIC and
                                             its properties. It has worked to keep         other federal and state banking
system architecture vision prepared to       employees informed of security matters
plan the FDIC’s future financial                                                           regulatory authorities to ensure the
                                             and events occurring in the Washington,       safety and soundness of the nation’s
environment. We identified limitations       D.C., area that may impact employee
in the cost/benefit analysis estimates,                                                    banking system and (2) bring about a
                                             safety and security. It also developed a      resumption of other Corporation
but the need to modernize the                draft Emergency Response Plan on
Corporation’s financial management                                                         activities.
                                             which the OIG provided extensive
systems suggested that the Corporation       comments to the Chief Operating
should proceed with acquisition                                                              We indicated in our comments that
                                             Officer during the reporting period.
planning for a commercial off-the-shelf                                                  the draft Emergency Response Plan met
financial management system. We              OIG Offers Comments on                      some of those needs, but not all of them.
expressed concerns regarding the             Emergency Response Plan                     We communicated our comments to
estimates, ambitious time frames, and            In commenting on the draft plan,        prompt further corporate analysis and
uncertainties with what financial system     we noted that several lessons could be      planning.
components would be integrated or            learned as a result of September 11,             We also completed fieldwork on an
interfaced. We pointed out that the          including the following:                    evaluation of the FDIC’s physical
Board should have more complete and          • A system is needed to decide who will     security of Washington, D.C., area
accurate information before approving          invoke the emergency response and         facilities during the reporting period.
such a large investment in technology.         when it will be done.                     Our objectives were to assess whether
We therefore recommended that the                                                        the FDIC’s security program was
Chief Financial Officer use an                                                           established and implemented to protect
                                             • The FDIC needs to have its own means
incremental two-case approval process                                                    real and personal property, assess risks,
                                               for judging the scale of any emergency
to obtain the Board’s approval to                                                        make decision-makers aware of risks,
                                               and what portions of its response plan
proceed with the New Financial                                                           and act promptly and appropriately in
                                               will be implemented.
Environment.                                                                             response to risks. We are continuing to
    The Chief Financial Officer agreed                                                   perform fieldwork related to these same
                                             • FDIC employees and visitors within its
with the spirit of our recommendation                                                    issues in FDIC field sites and will issue
                                               workspace need an emergency
but explained that an incremental two-                                                   the results of our work in the upcoming
                                               evacuation warning system that can be
case approval process was not feasible                                                   semiannual reporting period.
                                               triggered by those authorized to make
within the existing budget and                 emergency decisions.
procurement plan cycle. However, the
Chief Financial Officer indicated that       • An evacuation plan needs to be in place
the Board would establish parameters on        to ensure the orderly and safe
funding and periodic reporting which



24
                                              oversight missions. To the extent that       some of them, although it is unclear
Emerging Issue: The                           the financial reporting of businesses        exactly what may be done or how
Quality of Bank Financial                     (including financial institutions) is not    effective the potential solutions may
Reporting and Auditing                        reliable, the regulatory processes and       ultimately be. Likewise, legislation to
                                              mission achievement can be adversely         address a number of these issues is
    During the reporting period, the
                                              affected. Financial institution regulators   under consideration by the Congress.
OIG brought the following emerging
                                              are affected by the quality of reporting     Moreover, in a recent speech to the
issue to FDIC management’s attention.
                                              of financial institutions and businesses     American Bankers Association
     Recent highly publicized business        transacting with financial institutions.     Community Bankers Conference, FDIC
failures, including financial institution     Critical operational processes of            Chairman Powell raised concerns about
failures, have raised significant             financial institution regulators can be      the reliability of bank data and auditing
questions about the quality of financial      adversely affected. Essential research       as well as the possible need for more
reporting and auditing of these               and analysis (used for economic analysis     regulatory action in these areas.
businesses. Various dimensions of this        and decision-making) and bank                     We continue to believe that issues
issue have been, and continue to be,          supervision (examinations) can be            related to the quality of financial
widely discussed and reported in various      complicated and potentially                  reporting and auditing of financial
forums, most notably with continuing          compromised by poor quality financial        institutions (and businesses transacting
congressional hearings on the failure of      reports and audits.                          with financial institutions) constitute a
Enron Corporation. Aspects of the
                                                   In addition to supervision safety       risk to regulators in effectively achieving
problem as it relates to financial
                                              and soundness issues, the FDIC, in its       their oversight responsibilities. We
institutions have been documented in
                                              roles as receiver and insurer, is            believe this risk is of significant
recent OIG work on bank failures-
                                              potentially affected by financial            magnitude to be acknowledged and
Superior Bank as discussed earlier in
                                              reporting and audit quality, regardless of   monitored by the FDIC in its role as a
this report, and Keystone Bank, as
                                              whether the FDIC is the primary federal      financial institution regulator and
presented in prior semiannual reports.
                                              regulator. Receivership management           insurer. Obviously, due to the nature of
During the reporting period, the OIG
                                              operations, relying on accounting and        the risk (involving a lack of reliable
shared its views on this issue with FDIC
                                              auditing contractors, can be adversely       quality data), the true magnitude and
management in the Office of Internal
                                              affected. Potentially, the insurance funds   impact of the problem cannot be
Control Management and DOS. We
                                              can be affected, for example, by             reasonably quantified or projected.
suggested that the Corporation disclose
                                              financial institution and other business     However, the potential impact of the
and discuss the issue in its Chief
                                              failures precipitated in whole or in part    risk could be material and significant.
Financial Officers Act Report as an
                                              by financial reporting irregularities.           To further pursue aspects of this
internal control matter warranting
continued monitoring. The Corporation             The financial reporting and audit        issue, the OIG is conducting an audit of
determined that it would include the          quality issues are complicated by a          FDIC examiner reliance on the work
matter as an emerging issue in the            number of interrelated risk factors,         performed by independent public
Financial Industry Highlights section of      including: auditor independence;             accountants.
the report.                                   complexity and sophistication of
                                              business structures and transactions;
    The issues involve interrelated roles
                                              adequacy and complexity of standards;
of management (including Boards of
                                              fraud; auditors’ document retention
Directors and Audit Committees),
                                              procedures; adequacy of auditor
independent auditors, and regulators.
                                              oversight; and qualifications and fitness
Management is primarily responsible for
                                              of Audit Committees, Boards of
the reliability of financial reports with
                                              Directors, and Officers.
auditors providing an independent audit
function and regulators relying on the            The issues above have been
financial data.                               acknowledged by various parties that
                                              function in an oversight capacity. For
     Affected regulators include the
                                              example, the Securities and Exchange
Securities and Exchange Commission as
                                              Commission and the accounting
well as the FDIC and other financial
                                              profession have, to varying degrees,
institution regulators. The need for
                                              acknowledged most or all of these issues
reliable financial data affects the ability
                                              and initiated certain actions to address
of regulators to effectively achieve their


                                                                                                                              25
     OIG Identifies Possible Additional Funds To Be Remitted to the FDIC
     During the reporting period the OIG completed an audit of the process that the FDIC’s Division of Resolutions and Receiverships
     and Division of Finance used to identify and account for unclaimed deposits transferred to the FDIC and former Resolution Trust
     Corporation (RTC) from institutions that acquired failed banks and savings and loan associations. The FDIC and RTC subse-
     quently transferred those unclaimed deposits to appropriate state unclaimed property agencies that accepted temporary cus-
     tody of those funds for 10-year holding periods in compliance with the 1993 unclaimed deposits amendments to the Federal
     Deposit Insurance Act.
     We determined that the FDIC’s policies and procedures had not been effective in ensuring that all unclaimed deposits trans-
     ferred to states were completely and accurately identified and recorded. Also, the amounts recorded in the FDIC’s systems did
     not agree with amounts that state unclaimed property agencies reported to the OIG. The FDIC had also not adequately moni-
     tored the state agencies to determine the amounts of unclaimed deposits that should be returned to the FDIC at the end of the
     10-year holding periods. We estimated that an additional $1.45 million could be remitted to the FDIC if additional controls are
     established and consider this amount to be funds put to better use. This amount represents the net difference, reduced by the
     percentage of state-paid claims, between the FDIC’s records and state-reported amounts for the 34 states and the District of
     Columbia that responded to our information requests.
     FDIC management agreed with recommended action in our report but did not agree with the monetary benefits that we identi-
     fied. The response stated that (1) amounts used in our calculation were based on unsubstantiated state-provided data and (2)
     the funds needed to be currently available and controlled to be classified as “funds to be put to better use.”
     Regarding the concern raised about “unsubstantiated state-provided data” in our calculation, we acknowledge that the recon-
     ciliation process will likely identify differences in amounts to be returned–in some cases less than initially estimated, in other
     cases more. However, our estimate was based on the best information available at the time of our review and is reasonable
     based on steps taken to be conservative. The estimate does not include deposits shown in FDIC systems for states that did not
     respond to the OIG’s requests. However, the reconciliation process may ultimately identify amounts from those states that
     should be returned to the FDIC.
     Regarding the need for the Corporation to currently have available and control the funds in order to classify them as “funds to
     be put to better use,” we disagree. The intent of the IG Act requirement to identify funds to be put to better use is to provide a
     justification for the need to take corrective actions by estimating future monetary benefit of such action. It is unrealistic to con-
     clude that the corrective action will not result in an increase in deposits returned to the FDIC just because the FDIC does not
     now control the deposits. We continue to believe that the corrective actions are justified because of the likelihood that more
     deposits will be returned if the actions are taken.




                                            OIG Assists on Financial Statement Audit and Conducts Other Financial
                                            Management-Related Work
                                            The OIG and U.S. General Accounting Office (GAO) continued to conduct the annual finan-
                                            cial statement audits of the FDIC. During this semiannual reporting period, the OIG team
                                            capitalized on their understanding of the FDIC’s financial management operations. In
                                            addition to their financial statement audit work, the OIG team simultaneously completed
                                            audits of several aspects of financial management performance. Those included an audit
                                            of the internal controls over the customer information and control system for the FDIC’s
                                            financial systems and an audit of the capitalization of internal-use software development
                                            costs. Financial-management related work in process includes reviews of the
                                            Corporation’s asset valuation review process and corporate controls in place to prevent
                                            improper payments.
                                            Regarding the government-wide financial statement audit effort, during the reporting peri-
                                            od the OIG submitted a letter to the Office of Management and Budget (OMB), Department
                                            of the Treasury, and GAO as required annually by the Treasury Financial Manual. This letter
                                            discussed procedures agreed upon by the OIG, OMB, Treasury, and GAO regarding the
                                            FDIC’s assertion that it compared summarized data to general ledger balances in the
                                            FDIC’s financial management system. Although the letter covers the fiscal year period
                                            ended September 30, 2001, the FDIC produces calendar year financial statements.




26
Investigations



     The Office of Investigations (OI) is
responsible for carrying out the
investigative mission of the OIG.               Investigative Statistics
Staffed with agents in Washington, D.C.,        October 1, 2001 - March 31, 2002
Atlanta, Dallas, and Chicago, OI
conducts investigations of alleged              Judicial Actions:
criminal or otherwise prohibited                  Indictments/Informations ............................................................................................21
activities impacting the FDIC and its             Convictions ................................................................................................................11
programs. As is the case with most OIG
offices, OI agents exercise full law            OIG Investigations Resulted in:
enforcement powers as special deputy              Fines of ............................................................................................................$34,000
marshals under a blanket deputation
                                                  Restitution of ............................................................................................$531,312,940
agreement with the Department of
Justice. OI’s main focus is in                    Civil Settlements ............................................................................................5,000,000
investigating criminal activity that may          Total ......................................................................................................$536,346,940
harm, or threaten to harm, the
operations or the integrity of the FDIC
                                                Employee Disciplinary Actions
and its programs. In pursuing these               Terminations ................................................................................................................1
cases our goal, in part, is to bring a halt       Suspensions ................................................................................................................1
to the fraudulent conduct under
investigation, protect the FDIC and             Cases Referred to the Department of Justice (U.S. Attorney)..........................................18
other victims from further harm, and            Referrals to FDIC Management ........................................................................................4
assist the FDIC in recovery of its losses.      OIG Cases Conducted Jointly with Other Agencies ........................................................ 59
Another consideration in dedicating
resources to these cases is the need to
pursue appropriate criminal penalties              Support and cooperation among                                    Fraud Arising at or Impacting
not only to punish the offender but to        other law enforcement agencies is also a                              Financial Institutions
deter others from participating in            key ingredient for success in the
                                                                                                                    Update on Prosecutions Resulting from
similar crimes.                               investigative community. We frequently
                                                                                                                    Investigation of Failure of the First
                                              “partner” with the Federal Bureau of
                                                                                                                    National Bank of Keystone
Joint Efforts                                 Investigation (FBI), the Internal
                                              Revenue Service (IRS), the Secret                                         As has been the case in our last
     The OIG works closely with U.S.
                                              Service, and other law enforcement                                    several reports, we are again reporting
Attorney’s Offices throughout the
                                              agencies in conducting investigations of                              additional results emanating from the
country in an attempt to bring to justice
                                              joint interest.                                                       investigation involving the failure of the
individuals who have defrauded the
FDIC. The prosecutive skills and
outstanding direction provided by             Results
Assistant United States Attorneys with             Over the last 6 months, OI opened
whom we work are critical to our              21 new cases and closed 36 cases,
success. The results we are reporting for     leaving 102 cases underway as of March
the last 6 months reflect the efforts of      31, 2002. Our work during the period
U.S. Attorneys’ Offices in the District of    led to indictments or criminal charges
Massachusetts, the District of New                                                                                  First National Bank of Keystone (West
                                              against 21 individuals and convictions of
Jersey, the Northern District of Ohio,                                                                              Virginia). The investigation and
                                              11 defendants. Criminal charges
the Central District of Illinois, the                                                                               prosecutions involving Keystone are
                                              remained pending against 21 individuals
Southern District of Iowa, the Southern                                                                             being conducted by a multi-agency task
                                              as of the end of the reporting period.
District of West Virginia, the Northern                                                                             force composed of special agents of the
                                              Fines, restitutions, and recoveries
District of Georgia, the Northern District                                                                          FDIC OIG, FBI, and IRS and prosecutors
                                              stemming from our cases totaled over
of Mississippi, the Western District of                                                                             from the United States Attorney’s Office
                                              $536 million. The following are
Oklahoma, the Northern District of                                                                                  for the Southern District of West
                                              highlights of some of the results from
Texas, the Western District of Texas, the                                                                           Virginia and the U.S. Department of
                                              our investigative activity over the last 6
Central District of California, and the                                                                             Justice. The FDIC Division of
                                              months:
District of Hawaii.                                                                                                 Resolutions and Receiverships has also


                                                                                                                                                                          27
provided valuable assistance in support      obstructing the examination of the bank          the Office of the Comptroller of the
of the task force investigations.            that ultimately resulted in its closure.         Currency.
     An examination that was conducted       Her most recent jail term is to be served
by the Office of the Comptroller of          consecutively with the prior sentence.         • The former vice president and head
Currency in 1999 uncovered                        On December 17, 2001, five other            bookkeeper who was sentenced to 3
information that ultimately resulted in      former officials of Keystone were                years’ probation and fined $5,000
the closure of the First National Bank of    sentenced in U.S. District Court for the         based on her prior plea of guilty in
Keystone (Keystone) on September 1,          Southern District of West Virginia in            June 2001 to one count of obstruction
1999. Based on the estimated losses to       connection with their prior guilty pleas         of an examination of a financial
the insurance fund attributable to the       to various illegal conduct involving their       institution.
Keystone failure, it is 1 of the 10 most     employment at the bank. The former
costly bank failures since 1933.             executive vice president of Keystone           • The former vice president and proof
                                             Mortgage Corporation, a subsidiary of            operator of Keystone who was
      The investigation initially targeted
                                             Keystone, was sentenced to 12 1/2 years          sentenced to 3 years’ probation and
the attempts of the bank principals to
                                             in prison to be followed by 5 years of           fined $3,000 based on her prior plea of
obstruct the examination of the bank.
                                             probation. He was also ordered to pay            guilty in June 2001 to one count of
Following the successful prosecution of
                                             $515 million in restitution. He was              obstruction of an examination of a
several of the bank officers on
                                             already in prison serving a sentence in          financial institution.
obstruction charges, the task force
turned its focus to the underlying fraud     excess of 4 years for obstructing the
                                             examination of the bank in 1999 that           • The former vice president of the
in the operation of the bank that led to
                                             resulted in its closure. Following his           mortgage company who was sentenced
its failure. During the current reporting
                                             sentencing in July 2000 in the                   to 5 years’ probation and fined $4,000
period, the former bank chairperson of
                                             obstruction case, he pled guilty in              based on her prior plea of guilty in July
Keystone, who was also formerly the
                                             November 2000 to charges of                      2001 to two counts of filing false
mayor of Keystone, was convicted in
                                             conspiracy, money laundering, and bank           income tax returns.
October 2001 on 16 counts of money
laundering and conspiracy to embezzle        fraud. His most recent sentencing was
funds from the estate of J. Knox             on those charges. A news article by the            As a special condition of their
McConnell, who was the institution’s         Associated Press on the sentencing             sentences, all five defendants who were
president until his death in 1997. In        reported the following comments by the         sentenced in December were also
March 2002, she was sentenced to serve       sentencing judge: “I felt like anything        permanently banned from working at or
16 years and 5 months in prison to be        less would not be sufficient. It’s difficult   being affiliated with any federally-
followed by 3 years of supervised            to measure the harm and suffering              insured financial institution.
probation and was ordered to pay             caused by what has happened here.              Former President and Two Former Board
$6.12 million in restitution. During the     Many people lost their life savings.”          Members of Hartford-Carlisle Savings Bank
same trial in October 2001, the former       Based on an assessment of what he is           Indicted for Bank Fraud and Obstruction
senior executive vice president and          currently able to afford, the former           of an Examination; Two Other Former
chief operating officer was convicted on     executive vice president was ordered to        Officials of the Bank Plead Guilty to Illegal
four counts of embezzlement, four            make monthly payments of $300 toward           Conduct
counts of mail fraud, and a single           the restitution.
conspiracy count. In March 2002, she             Also sentenced on December 17,                 On November 27, 2001, a federal
was sentenced to 22 years and 7 months       2001 were:                                     grand jury in the Southern District of
in prison to be followed by 3 years of                                                      Iowa returned a 34-count indictment
                                             • The former vice president and cashier        charging the former president of the
supervised probation and was also              of Keystone who was fined $5,000,
ordered to pay $6.12 million in                                                             now defunct Hartford-Carlisle Savings
                                               ordered to pay $440,000 in restitution,      Bank (HCSB), Carlisle, Iowa, and his
restitution. She is also currently             and ordered to spend 8 months’
awaiting sentencing in connection with                                                      two brothers, both of whom were former
                                               confinement in a halfway house based         board members of HCSB, with various
her guilty plea in January 2002 to a           on her prior plea of guilty in May 2001
criminal information charging her with                                                      bank fraud-related activities.
                                               to one count of insider trading. The
bank fraud and conspiracy to commit            charge resulted from her sale of                  As alleged in the indictment, the
money laundering. She is currently in          approximately $440,000 in Keystone           three brothers made false
prison serving a 57-month sentence,            stock about 2 months before the bank         representations to Firstar Bank to obtain
which she received in July 2000                was declared insolvent and closed by         $1.75 million in loans, which they used
following her conviction on charges of                                                      to gain control of HCSB. The brothers


28
lied to the Federal Reserve Bank           money in the bank holding company,                This case is being investigated
regarding the source of funds used for     thus injecting capital into HCSB.            jointly by the FDIC OIG and the FBI
the purchase of the bank. They also             On February 21, 2002, a former          and is being prosecuted by the U.S.
allegedly falsified documents to conceal   vice president and director of HCSB          Attorney’s Office for the Southern
$2 million in fraudulent loans from        pled guilty in U.S. District Court for the   District of Iowa.
HCSB that were used, in part, to repay     Southern District of Iowa to a one-count     Former Chairman of Bank of Honolulu
Firstar. The former president is also      information charging him with making a       Pleads Guilty and is Sentenced for Wire
accused in the indictment of misleading    false statement to the FDIC. In his          Fraud and Bankruptcy Fraud
FDIC officials by creating and providing   position with the bank he submitted              On March 21, 2002, the former
fraudulent documents to FDIC               Consolidated Reports of Condition (call      chairman and owner of 76 percent of
examiners and by removing proof tapes      reports) to the FDIC. The information to     shares of the now-defunct Bank of
and loan documents from the bank.          which he pled guilty charges that he         Honolulu was sentenced in the U.S.
The missing items were subsequently        submitted a call report to the FDIC on       District Court in Honolulu, Hawaii, to 36
recovered during a search warrant          behalf of HCSB covering the period           months of incarceration to be followed
obtained by the FDIC OIG and executed      ending June 30, 1999 that failed to          by 5 years of supervised release.
by the OIG and FBI.                        identify the existence of a $1 million       However, he will be subject to
     According to the indictment, the      loan made by the bank to the former          immediate deportation upon release
brothers used proceeds from fraudulent     president of HCSB.                           from confinement. As part of the
loans from HCSB to buy                                                                  sentencing, he was also ordered to pay
property, sport utility vehicles,                                                                      restitution totaling
and pleasure items. The                                                                                $3,115,523. He has paid
indictment includes a forfeiture                                                                       $2,051,861, leaving an
claim through which the                                                                                unpaid balance of
government seeks possession of                                                                         $1,063,662 of restitution.
all property acquired through                                                                          The defendant had
the alleged fraud. Listed                                                                              previously pled guilty in
specifically in the forfeiture                                                                         October 2001 to violating
claim are: a condominium at                                                                            the federal wire fraud
Tenderfoot Lodge in Keystone,                                                                          statute as part of a
Colorado; land and a custom-built                                                               scheme whereby he and his
home in Randleman Ridge in Carlisle;                                                            brother fraudulently obtained the
60 acres of property in Carlisle; a                                                             proceeds of two loans totaling $3
cabin located in Clear Lake, Iowa; a                                                            million made by the Bank of
1999 Cobalt power boat; a 1999                                                                  Honolulu. He also pled guilty to
Chevrolet Tahoe; a 1999 Chevrolet                                                               knowingly and fraudulently
Suburban; stocks; and home                                                                      concealing property as part of
entertainment equipment.                        HCSB was an FDIC-regulated              the bankruptcy proceeding he filed in
     On January 17, 2002, another          institution that was closed on January       1998. The bankruptcy fraud violations
former director of HCSB pled guilty in     14, 2000 by the Iowa Division of             involve two tax refund checks from the
U.S. District Court for the Southern       Banking and was reopened the next day        State of Hawaii totaling $757,249, which
District of Iowa to a one-count            under new ownership. State banking           he received and failed to turn over to
information charging him with making       regulators questioned the validity of        the Bankruptcy Trustee.
false statements to HCSB. In addition to   about $6 million in loans when the bank           As we previously reported, the
being a former director of HCSB, the       was closed. The FDIC removed the             defendant was initially indicted in
defendant was also a shareholder in the    president, who is now facing criminal        August 2000 and was charged with
HCSB’s holding company. His plea           charges, a week before the bank was          additional violations in superseding
relates to a loan application he           closed. At the time, the FDIC concluded      indictments in October 2000 and May
submitted to HCSB as president of an oil   that he had probably engaged or              2001. The latter superseding indictment
company wherein he stated that the         participated in acts, omissions, and         also included charges against five other
specific purpose of the $500,000 loan      practices that constituted “violations of    individuals who were alleged to have
was for “term/equipment.” Upon receipt     law and regulations, unsafe or unsound       helped him hide money from the
of the loan proceeds, he invested the      banking practices and breaches of his        bankruptcy court and creditors. The
                                           fiduciary duties to the bank.”               additional defendants included two of


                                                                                                                           29
his brothers, two of his business            paid the bank approximately $54,000 to       charges of embezzlement and money
associates, and his girlfriend.              cover any deficit he caused the bank,        laundering. He had previously been
     As a condition of his plea agreement    and the bank’s insurance covered             arrested on February 2, 2002 based on a
with the government, all other charges       associated costs and some anticipated        complaint alleging similar illegal
against him were dropped, as were the        loss. Therefore, the bank’s loss was         conduct.
charges against his girlfriend and one of    negligible. The plea agreement, which             The FDIC closed Oakwood Deposit
his brothers. The charges in the second      allowed him to plea to a single count of     Bank on February 1, 2002 after the
superseding indictment against his two       misapplication of less than $1,000 of        discovery of information indicating
business associates and his other            bank funds, reflected his acceptance of      irregularities in the amount of deposits
brother still remain outstanding.            responsibility, the negligible loss to the   reported in the records of the bank.
                                             bank, and his cooperation in the             According to the charges filed against
    This case was jointly investigated by    investigation. He also voluntarily signed
the FDIC OIG and the FBI and was                                                          him, the former president is alleged to
                                             a consent order in September 2000            have used approximately $40 million of
prosecuted by the United States              prepared by the FDIC prohibiting him
Attorney’s Office for the District of                                                     the bank’s funds to invest in gambling
                                             from any future employment by, or            boats located in South Carolina and
Hawaii.                                      affiliation with, a federally-insured        Florida. Part of the evidence used to
Former Vice President of First State Bank    financial institution.                       support the charges against him was
of Pekin Pleads Guilty and Is Sentenced      Former Loan Secretary Sentenced for          seized during a search of his home.
for Misapplication of Bank Funds             Embezzling from Bank of Falkner                  This investigation is being
      On March 14, 2002, the former vice          On February 25, 2002, a former          conducted jointly by agents of the FDIC
president of residential real estate         loan secretary at the Bank of Falkner        OIG, the IRS Criminal Investigations
lending at the First State Bank of Pekin     (Mississippi) was sentenced in the U.S.      Division, and the FBI. Prosecution of the
(Illinois) was sentenced in the U.S.         District Court for the Northern District     case is being handled by the U.S.
District Court for the Central District of   of Mississippi to serve 3 years of           Attorney’s Office for the Northern
Illinois to 3 months of home detention       probation, perform 150 hours of              District of Ohio.
to be followed by 2 years of probation       community service, and pay $21,040 in
and was fined $2,000. The sentencing         restitution to the FDIC. As previously
followed the defendant’s prior plea of       reported, the defendant pled guilty in
guilty in December 2001 to a charge of       September 2001 to a one-count
misapplication of bank funds.                information charging her with
     As described in the Plea Agreement      embezzling $21,040 from the bank. The
and Stipulation of Facts, the defendant      FDIC OIG is conducting a joint
admitted that he had created                 investigation with the FBI regarding
unauthorized loans by altering               suspected fraudulent activity that
documents and other deceptive means          occurred at the bank prior to its failure
and funded them by using unauthorized        on September 29, 2000. As a part of her
cashier’s checks. As a part of his           plea agreement with the government,
ongoing scheme, he also funded the           she is cooperating with this ongoing
unauthorized loans using various             investigation. Information obtained by
methods including using customer loan        the FDIC Division of Resolutions and
payments and unauthorized draws from         Receiverships during its post-closing
customers’ construction loans. In total,     review of the bank has significantly
the former vice president created or         assisted the investigation.
otherwise manipulated, all without           Former President of Oakwood Deposit
authorization, 37 loans with a composite     Bank Indicted on Charges of
value of over $2.5 million. He               Embezzlement and Money Laundering
subsequently admitted his complex
manipulations to the executive vice              On February 26, 2002, the former
president of the bank and was fired. He      president and chief executive officer of
also detailed his activities to the agents   Oakwood Deposit Bank Co., Oakwood,
of the FDIC OIG and FBI who conducted        Ohio, was indicted by a federal grand
a joint investigation of this matter. He     jury in the Northern District of Ohio on



30
The OIG’s Electronic Crimes Team
               In our last report we described the
          formation of an Electronic Crimes Team
          (ECT) in the Office of Investigations to
          provide technology assistance during
          investigations. Currently, the ECT is
          staffed by two agents and a supervisor,
          all of whom have been trained as Seized
          Computer Evidence Recovery Specialists
          (SCERS). Additionally, over $50,000
          worth of computer forensic hardware
          and software has been procured to
          enable the SCERS to
          conduct forensic
          examinations both in a
          fixed lab that has been
          established in Washington
          and in a mobile lab that
          can be established at
          investigative sites where
          ECT support is needed.




                                                                                    At the closing of Hamilton Bank in Miami,
                                                                               Florida, in January 2002, the OIG initiated an
                                                                               investigation to pursue suspected fraud that may
                                                                               have occurred at the bank prior to its closure. To
                                                                               assist in preserving possible evidence, the ECT
                                                                               participated at the bank closing and successfully
                                                                               imaged over 20 of the bank’s computers.
        Harvey Witherspoon                                                     Subsequently, the ECT participated at the closings
        leads the ECT.
                                                                               of Bank of Sierra Blanca in Sierra Blanca, Texas;
                                                                               Nextbank in San Francisco, California; Oakwood
                                                                               Deposit Bank in Oakwood, Ohio; Net First National
                                                                               Bank in Boca Raton, Florida; and New Century
                             Atlanta OIG agents and ECT agents coordinate at   Bank in Shelby Township, Michigan. The OIG has
                             Hamilton Bank closing.                            initiated investigations of possible illegal activities
                                                                               that may have occurred at each of these
                                                                               institutions prior to their closings.




                                                                                                                                  31
Former Officer Indicted for Misapplying     had not expended any funds to purchase      falsely depicting that his ATM service
Funds of the Institution for Savings of     those checks.                               company was housing millions of dollars
Newburyport, Massachusetts                                                              of BestBank’s cash in its vaults in Dallas
                                                As previously reported, the same
                                            former executive vice president of FSBH     and Houston, Texas. He used the money
     On March 6, 2002, a former officer
                                            and another customer pled guilty in         generated by the scheme, in part, to
of the Institution for Savings (IFS) of
                                            February 2001 to conspiracy to defraud      fund his consolidation and control of the
Newburyport, Massachusetts, was
                                            FSBH by creating a series of 11             ATM service company and to finance a
indicted by a federal grand jury in the
                                            fraudulent nominee loans. Both are still    rapid expansion of the company.
District of Massachusetts on 59 counts
of misapplying funds. As alleged in the     awaiting sentencing on those charges.           Pursuant to a warrant issued by the
indictment, the former officer of IFS            The investigation of the activities    U.S. District Court, the defendant was
misapplied a total of approximately         involving FSBH is being conducted           arrested in Dallas, Texas, on February 1,
$162,000 between February 1997 and          jointly by the FDIC OIG and the FBI;        2002 by agents of the FDIC OIG and the
March 2001 by negotiating her personal      the case is being prosecuted by the U.S.    FBI, who are conducting a joint
checks at IFS and then removing them        Attorney’s Office, Oklahoma City,           investigation of this matter. The U.S.
from the bundle of items that IFS was       Oklahoma.                                   Attorney’s Office, District of Colorado,
sending to the Federal Reserve Bank for                                                 Denver, Colorado, is directing the
                                            Owner of Company Providing Automated        prosecution of this case.
processing. Later, when the missing
                                            Teller Machine Services Indicted for Wire
amounts were reported back to IFS, she                                                  Assets of Construction Company Seized
                                            Fraud, Bank Fraud, and Money
would make entries in the books and                                                     and Bank Accounts Frozen
                                            Laundering
records of IFS to conceal the missing
funds. The indictment also includes a           On January 30, 2002, the owner               Following an asset sale on Saturday,
forfeiture allegation through which the     and president of two companies, an          October 13, 2001 that was held by a
government seeks to recover the             armored car service company and a           construction company located in
proceeds of the alleged illegal             company that owns and operates              Blountsville, Alabama, agents from the
misapplication of funds.                    automated teller machines (ATMs), was       FDIC OIG and FBI seized over $70,000
                                            indicted in the U.S. District Court for     in proceeds and some unsold items
     The investigation of this case is
                                            the District of Colorado on 10 counts of    including a semi-tractor trailer and two
being conducted jointly by agents of the
                                            wire fraud, 33 counts of bank fraud, and    motorcycles. On the following Monday,
FDIC OIG and the FBI who arrested the
                                            3 counts of money laundering.               all of the company’s bank accounts were
defendant on March 8, 2002.
                                                                                        frozen pursuant to a U.S. District Court
Prosecution of the case is being handled         The indictment alleges that between    order. These actions were taken as a
by the United States Attorney’s Office      January 1998 and March 1999, the            part of an ongoing investigation being
for the District of Massachusetts.          defendant devised a scheme to               conducted by agents from the FDIC
Customer Pleads Guilty to Conspiring to     fraudulently obtain money and property      OIG, FBI, and IRS dealing with
Defraud First State Bank of Harrah          from BestBank, Boulder, Colorado, and       suspected fraud involving Community
                                            the Pueblo Bank and Trust Company           Bank, Blountsville, Alabama.
     On January 31, 2002, a customer of     (PB&T), Pueblo, Colorado. In total he is
the First State Bank of Harrah (FSBH),      alleged to have obtained and                Misrepresentations Regarding FDIC
Harrah, Oklahoma, entered a plea of         misappropriated in excess of $9 million     Insurance or Affiliation
guilty in the U.S. District Court for the   in bank funds for his own use and the       Former Financial Relationship Manager
Western District of Oklahoma to a one-      use of others.                              for Bank of America Texas Ordered to Pay
count information charging him with                                                     $496,475 in Restitution
                                                 The indictment charges that he
conspiring to defraud the bank. The
                                            obtained cash from BestBank and PB&T             On November 5, 2001, an amended
customer of FSBH was heavily indebted
                                            to stock and operate ATMs that were         judgment was filed in the U.S. District
to the bank. The information to which
                                            owned by one of his companies.              Court for the Western District of Texas
he pled guilty charges that from August
                                            However, he periodically ordered more       ordering a former financial relationship
through December 1998 he conspired
                                            cash than was needed. He then               manager with the Bank of America
with a former executive vice president
                                            commingled the extra cash with cash         (BOA) Texas, N.A., San Antonio, to pay
of FSBH and others in a scheme to
                                            obtained to stock ATMs that his other       restitution of $496,475.
defraud the bank by creating two forged
                                            company had contracted to service. As a
FSBH cashier’s checks totaling                                                              As previously reported, this
                                            part of the scheme, he is also alleged to
$1,052,000. The checks listed the                                                       defendant and his former accomplice,
                                            have provided BestBank with
defendant as the remitter, although he                                                  who owned a San Antonio investment
                                            spreadsheets and fabricated cash logs


32
company, pled guilty to criminal charges    to the two financial institutions in order   corporate defendants. In the suit the
in connection with their scheme to          to maintain checking account privileges.     United States alleged that the developer,
defraud six investors by misrepresenting    The letters indicated that his accounts      who was also sentenced to 5 years’
to them that BOA certificates of deposit    had been compromised by fraudulent           imprisonment following his bank fraud
(CD) totaling approximately $433,000        activity at Hartford-Carlisle Savings        conviction, is the “true owner” of Bay
were issued in their names. In doing so     Bank, referencing an ongoing criminal        Communities, a real estate company
they also misrepresented that the CDs       investigation being conducted by the         based in Palm Coast, Florida, that
were FDIC-insured. In fact, the six CDs     OIG and the FBI at that bank.                develops luxury waterfront
were issued in the name of the                   The customer had previously             condominiums throughout Florida’s east
investment company on BOA’s records         accepted full responsibility for his         coast.
and then pledged as collateral on loans.    actions and entered into an agreement             The government alleged in the suit
     Following his guilty plea in January   for pretrial diversion in November 2000,     that the defendant operated Bay
2001 to one count of 2nd-degree theft       whereby he agreed to abide by certain        Communities while in prison and
and one count of 1st-degree securities      specified conditions for a period of 12      continued to control it after his release
fraud under the Texas Penal Code, the       months and to perform 100 hours of           on parole. According to the lawsuit, he
accomplice was sentenced in April to 15     unpaid community service. However,           used his girlfriend, who is listed as the
years’ imprisonment, fined $1,000, and      the United States Attorney’s Office for      company’s CEO, to hide his control and
ordered to pay $382,985 in restitution.     the Southern District of Iowa terminated     thereby avoid paying the restitution. At
The former BOA employee pled guilty in      the agreement when it learned that he        the time the suit was filed, he had paid
November 2000 to two counts of making       had violated one of the conditions.          $40,000 of the restitution and
and issuing forged securities, and in       Subsequently, he was indicted as             maintained that, as an employee of Bay
January 2001 he was sentenced to 15         described above on the same alleged          Communities, he could only afford to
months’ imprisonment to be followed by      conduct that precipitated the prior          pay $1,500 of the restitution every
3 years’ probation. Restitution was not     pretrial diversion agreement.                month.
ordered at the time of his sentencing       Restitution and Other Debt Owed                  When the suit was filed, the
due to ongoing plea negotiations with       the FDIC                                     defendant and his girlfriend were living
his accomplice. However, the most                                                        together in an 8,535 square-foot home
recent amended judgement setting the        Bank Fraud Felon Agrees to Pay
                                            $5 Million to FDIC
                                                                                         with an assessed value of $3.9 million.
restitution amount completes the                                                         She was listed in property records as the
criminal prosecution of this case.               On March 5, 2002, a settlement          owner of the home, which is located in
Iowa Resident Sentenced After Pleading      agreement between the United States          an exclusive development in Boca
Guilty to Using Counterfeit Documents to    and a real estate developer was filed and    Raton, Florida.
Pose as an FDIC Special Agent               accepted in the U.S. District Court for           As a part of the settlement
                                            the District of Massachusetts whereby        agreement, the girlfriend executed a
    On March 22, 2002, a former             the defendant agreed to pay $5 million
customer of Hartford-Carlisle Savings                                                    personal guarantee for the entire $5
                                            he owes the FDIC as result of a              million. In addition, both the defendant
Bank, Carlisle, Iowa, and Firstar Bank,     restitution order imposed on him
Des Moines, Iowa, was sentenced in the                                                   and his girlfriend executed an
                                            following his conviction on bank fraud       Agreement for Judgement that will be
U. S. District Court in the Southern        charges in 1991. Pursuant to the terms
District of Iowa to 36 months’ probation.                                                held in escrow by the United States
                                            of the agreement, he paid $500,000 in        Attorney’s Office and will be filed in the
The customer had been indicted in           March 2002 and will pay the remaining
October 2001 on two counts of                                                            event of a default. The agreement
                                            amount in installments over the next 5       further provides that the United States
counterfeiting a document of the FDIC       years. The settlement money will go to
and two counts of uttering the                                                           may reinstitute the civil suit in the
                                            the FDIC as the successor of the two         event of default by either.
counterfeited documents (that is,           now defunct banks that he was
passing them to financial institutions).    convicted of defrauding.                          In addition to the defendant and his
In December 2001 he pled guilty to                                                       girlfriend, the suit named a number of
using a counterfeit document in his              The agreement was reached to            other defendants that were alleged to
dealings with Firstar Bank.                 settle a pending civil suit that was filed   have been involved in one or more of
                                            by the U.S. Attorney’s Office for the        the 17 different trusts, companies, and
    As alleged in the indictment, the       District of Massachusetts in October
customer forged two documents on                                                         corporations the developer had created
                                            2000 against the developer and a             beginning in 1994. A settlement
FDIC DRR letterhead purportedly signed      number of other individual and
by a “Special Agent” that he submitted                                                   agreement with one of those other


                                                                                                                            33
defendants was also filed on March 5,        Employee Activities                          Former Examiner Arrested for Filing False
2002, and similar agreements are being       DOS Associate Examiner’s FDIC
                                                                                          Claims with the FDIC
negotiated with the remaining individual     Employment Terminated                             On March 1, 2002, special agents of
defendants named in the suit.
                                                                                          the OIG arrested a former examiner
                                                  By letter dated December 3, 2001, a
Strawbuyer Sentenced for Perjury                                                          with the FDIC’s DOS. The OIG initiated
                                             grade-12 Associate Examiner in the
                                                                                          an investigation of the former employee
    A financial facilitator who              Lubbock, Texas, office of the Division of
                                                                                          based on a referral by DOS indicating
purchased an asset from the FDIC was         Supervision (DOS) was notified that his
                                                                                          she may have submitted false claims to
sentenced in U.S. District Court for the     employment with the FDIC would be
                                                                                          the FDIC for reimbursement of
District of Massachusetts to serve 6         terminated effective December 5, 2001.
                                                                                          relocation-related expenses. The
months’ home detention and 2 years’          The termination was based, in part, on
                                                                                          warrant issued for her arrest was based
supervised probation and was fined           information obtained during an OIG
                                                                                          on an affidavit by the OIG case agent,
$5,000. As reported previously, the          investigation which disclosed conduct
                                                                                          which set forth facts obtained during the
defendant had pled guilty to one count       unbecoming an FDIC employee
                                                                                          investigation. As described in the
of making a false declaration to a federal   including using FDIC equipment to
                                                                                          affidavit, between February and May
grand jury.                                  conduct stock trading activities on
                                                                                          1998, the employee submitted vouchers
                                             official time, lying to his supervisors
     During the late 1970s and through                                                    for relocation-related expenses totaling
                                             regarding these activities, and
the early 1990s, the defendant served as                                                  $32,978. Included in the expenses
                                             requesting that the OIG Special Agent
a commercial loan officer for several                                                     claimed on those vouchers were inflated
                                             who interviewed him provide false
financial institutions. He also worked for                                                charges for temporary quarters. The
                                             information to his supervisor regarding
a short time in the Resolution Trust                                                      employee terminated her employment
                                             the interview. The OIG investigation
Corporation (RTC) receiverships and                                                       with the FDIC in May 2000.
                                             was conducted based on a referral from
was a workout specialist with the
                                             DOS. The employee’s termination was
RTC/FDIC Franklin Office. In 1994 he
                                             also based on unsatisfactory
agreed to a removal order issued by the
                                             performance.
FDIC prohibiting him from participating
in the conduct or affairs of, or             Information Systems Assistant Suspended
exercising voting rights in, any insured     Following OIG Investigation of Missing
institution without the prior consent of     Computer Equipment
the FDIC. Subsequently, he began
                                                  An investigation conducted by the
providing services to individuals who
                                             OIG at the request of the FDIC’s
owed money to the FDIC and RTC to
                                             Security Management Section resulted
help them workout their debts. His plea
                                             in a 30-day suspension from duty and
of guilty to perjury was in connection
                                             pay of an Information Systems Assistant
with his testimony before a federal
                                             employed in the FDIC Division of
grand jury that was investigating
                                             Administration. At the direction of his
purchases of assets from the FDIC. The
                                             former supervisor, the employee
defendant purchased an asset from the
                                             reported the missing equipment to the
FDIC in 1994 and resold it 4 months
                                             FDIC Security Management Section.
later to the original owner.
                                             After conducting a preliminary inquiry,
                                             the security office referred the matter to
                                             the OIG for further investigation.
                                             Although the employee initially claimed
                                             he did not have the equipment or know
                                             where it was, it was subsequently
                                             located and retrieved during a
                                             consensual search of the employee’s
                                             residence conducted by OIG special
                                             agents.




34
                                        Update on Office of Investigations’ Response to
                                        Requests for Assistance in Terrorist Investigations




     During the month of October, two Office of Investigations Special Agents
were assigned to the New York Joint Terrorism Task Force (JTTF), which is
composed of approximately 22 federal agencies, including agents from 16 Offices
of Inspector General and several hundred New York Police Department
detectives. The JTTF is investigating leads possibly related to terrorism that are
received by the government via special 800 numbers
and Web sites as well as information from other                                      IG acknowledges
government entities. Since its inception following the                               special agent’s
attacks of September 11th, the JTTF has followed up                                  assistance in terrorist
on thousands of leads and made a number of arrests,                                  investigations.
primarily for immigration violations. FDIC OIG
agents participated in the arrests of five individuals
during the course of this assignment and were
involved in a number of investigations, some of which
remain ongoing due to additional information of
interest being developed. One OIG agent’s detail ended on October
18 and the other’s on October 26. The agents
spent a combined total of nearly 400 hours on
this assignment. No additional OIG support of
the New York JTTF is planned at this time.


    During this period the Office of
Investigations also completed a review of
financial records of 30 now-defunct financial institutions looking for information
on the terrorists or suspects. This work was performed in response to a request
by the Federal Bureau of Investigation’s (FBI) Financial Crimes Section for
special assistance from the OIG community in investigating the funding used to
perpetrate the recent acts of terrorism and links to possible future acts.
     As described in our previous report, in September 2001, seven OIG special
agents participated in the Evidence Recovery Team at the Pentagon in response
to a request by the FBI and the Department of Defense for assistance. On
February 4, 2002, the Inspector General presented certificates of appreciation
from the U.S. Army to the seven Office of Investigations Special Agents who
volunteered for this duty. Each agent also received an angel
and a card prepared by the students in grades 4 through 6 of
Sulphur Intermediate School in Sulphur, Oklahoma. In total,
the students made and sent over 300 angels and cards to be
presented to rescue workers at the terrorists’ attack sites,
concentrating mostly on the people who worked at the
Pentagon site.




                                                                                                               35
OIG Organization



     The OIG believes a spirit of             for a similar shift in the way the OIG      at risk. Similarly, our Office of
partnership is essential in conducting its    perceives itself and its business with a    Investigations staff have continued to
work. In this spirit, we have continued       smaller, more flexible workforce that is    participate regularly in the Division of
to seek opportunities to strengthen our       aligned with the OIG’s mission. He          Supervision’s (DOS) Commissioned
relationships both within the                 announced that the OIG will participate     Examiner Seminars, providing general
Corporation and with other audit and          in the Corporation’s early-out and          information on the types of
regulatory groups. Through joint efforts,     buyout program and modify its structure     investigations the OIG conducts, our
conferences, and meetings, we have            to realign OIG operations with the          coordination efforts, and “red flags” for
coordinated our work with the FDIC and        critical business of the FDIC,              examiners related to the failed First
shared best practices and information         geographically as well as functionally.     National Bank of Keystone. The Office of
regarding current and emerging issues in      This will result in restructuring and       Investigations has also provided
the banking industry and with others in       reducing the workforce and reallocating     information on teller machine fraud
the audit community.                          resources within the OIG.                   schemes during DOS training.
     During this reporting period, the             Our Office of Audits will                   The OIG also provided technical
new Chairman presented his                    organizationally align along four           assistance and review to the
comprehensive vision for a smaller,           strategic objectives, with one              Corporation in a joint project with the
revitalized FDIC that is reorganized,         crosscutting directorate. The major         Office of Internal Control Management
refocused, accountable, and more              directorates will be: (1) Supervision,      and the Division of Administration to
proficient. He stressed that for the FDIC     Insurance and Consumer Affairs;             determine whether FDIC policies ensure
to fulfill its responsibilities, it must be   (2) Resolution, Receivership, and Legal     that accounting and auditing contractors
the leader in several areas: banking          Affairs; (3) Information Assurance;         comply with the U.S. General
information, research, and analysis;          (4) Resource Management; (5) and            Accounting Office’s (GAO) new
supervision; and policy. He also              Corporate Evaluations. Other OIG            independence standards. As discussed in
announced a commitment to creating a          offices are restructuring geographically    our Major Issues section, we also
flexible workforce that is knowledgeable      and/or combining functions and seeking      provided a risk analysis to the
and ready. He advocated an FDIC               ways to improve overall process             Corporation, which discussed a
University to promote corporate identity      efficiencies.                               significant emerging risk to the FDIC:
and learning all aspects of the                                                           the Quality of Bank Financial Reporting
Corporation’s mission and a job rotation      Building Relationships                      and Auditing. This risk potentially
program to help cross-train staff. He                                                     affects the FDIC in its role as regulator,
                                                   We value opportunities to
placed a high priority on further                                                         receiver, and insurer. Further, the OIG
                                              communicate about our work and work
streamlining and realigning the                                                           provided advisory comments to FDIC
                                              processes and practices as a way to
Corporation through an early-out and                                                      management on the FDIC’s 2002 Annual
                                              improve and add impact to our work.
buyout opportunity followed by a                                                          Performance Plan, which focused on the
                                              During this reporting period we sought
reduction-in-force, if necessary. These                                                   linkage between the Corporation’s
                                              additional opportunities to discuss our
measures will focus a greater percentage                                                  Leadership Conference 2002
                                              work and also provided the Corporation
of the Corporation’s resources on risk                                                    performance measures and the goals and
                                              with technical assistance in a number of
assessment and management. As the                                                         objectives of the Performance Plan itself.
                                              ways. Executives from the Office of
Corporation identifies its priorities and                                                      Externally, we jointly sponsored a
                                              Audits and other OIG audit staff met
develops its strategies to operate into                                                   2-day symposium with Offices of
                                              with FDIC executives and staff to
the future, the OIG recognizes it must                                                    Inspector General of the Department of
                                              provide information regarding our audit
stay abreast of the Corporation and                                                       the Treasury and the Board of
                                              strategic framework, audits, and audit
reevaluate its priorities and strategies in                                               Governors of the Federal Reserve
                                              processes and practices. We outlined
light of the Corporation’s needs.                                                         System to identify emerging risks or
                                              audit objectives in four strategic areas
                                              (Supervision, Insurance, and Consumer       issues related to the banking industry.
Realignment of Resources                      Affairs; Resolution, Receivership, and      This forum brought together a number
     The OIG has taken several steps          Legal Services; Information Assurance;      of regulatory and congressional speakers
during this reporting period that parallel    and Resource Management). By                who offered their perspectives on the
various aspects of the Chairman’s vision,     structuring our audits strategically in     changes facing banking and financial
including expanding its efforts to            these areas, the OIG hopes to better        and financial services industries and
streamline its workforce and work             address the Corporation’s needs by          their regulators. We also worked with
processes. The Inspector General called       focusing on areas that are believed to be   the GAO and other regulatory agencies
                                                                                          on significant projects such as planning


36
material loss reviews and joint audits or   leadership development; and a results-                          employees and supervisors to be more
investigations. Further, the Inspector      oriented, high-performance culture. We                          in control of targeting their own training
General testified before the Senate         introduced our human capital strategic                          and development.
Committee on Banking, Housing, and          goal—to align OIG human capital                                      In the interest of constantly
Urban Affairs regarding the OIG’s           resources with the OIG mission—at the                           improving OIG operations and products,
analysis of the failure of Superior Bank,   OIG’s October 2001 office-wide                                  the OIG completed its fourth external
FSB. Senior OIG staff also met with         conference and are seeking input from                           client survey to obtain views and
congressional staff to discuss the OIG’s    OIG staff and others on the proposed                            feedback from senior and operating
work regarding the FDIC’s Court-            plan.                                                           FDIC management. The survey results
Ordered Restitution Program. Finally,            Strengthening our workforce                                will allow us to better assess the quality
through our new Office of Policy            capacity will be particularly important                         of our products and the effectiveness of
Analysis and Congressional Relations we     in the next several years to prepare and                        our office in communicating the
have significantly increased our overall    position us for the future in light of our                      objectives and results of our work.
communication with congressional staff      smaller workforce. As part of the Human
regarding policy issues impacting the                                                                            During the period, the OIG has
                                            Capital Strategic Plan objective on                             continued to support staff participation
Corporation and the financial services      workforce analysis, we are developing a
industry.                                                                                                   in a wide variety of diversity activities
                                            business knowledge inventory system to                          within the Corporation, and the OIG
                                            assess existing workforce knowledge and                         Employee Advisory Group continues to
High Performance –                          skills and determine where gaps may                             be involved in dialogue between the staff
                                            exist in the business knowledge needed
a Top Priority                              to accomplish future workload. Another
                                                                                                            and the Inspector General on many
     The OIG continues to look to                                                                           issues important to OIG staff. To answer
                                            element of the plan involves making                             OIG staff’s questions and answers that
increasing the value of our people and      investments in the competencies of our
the performance capacity of the OIG                                                                         have been generated by the early
                                            staff that result in continuous                                 retirement and buyout opportunity, OIG
while restructuring to a smaller            improvement in OIG expertise that can
workforce. Therefore, strategically                                                                         management created a Questions and
                                            match ongoing workload changes. The                             Answers page on the OIG Web site.
managing our human capital in a high-       OIG developed and implemented a new
performance culture continues to be a       training software package to increase
top priority in our organization. During    the efficiency of the OIG training
this reporting period we drafted a          application and registration process.
Human Capital Strategic Plan, continued     This paperless system is aimed at
to support staff participation in events    streamlining the process and increasing
to celebrate the diversity of our staff,    accessibility and efficiency, allowing
and completed our fourth external client
survey.
     The OIG identified the alignment of
our human resources with our mission
as a new proposed strategic goal to be
included in the OIG’s revision of its
Strategic Plan. Our proposed Human
Capital Strategic Plan complements the
                                                                                                                         The OIG values its human capital.
other strategic goals of the Strategic
Plan by aligning and integrating human
resource policies and practices with our
business practices. It also mirrors some
of the Chairman’s recent goals of having
the right number of people with the
needed skills in the right places. Our
plan focuses on four areas that are key
to maximizing the return on our human
capital and sustaining a high-
performance organization: workforce         Inspector General Gianni with retiree Ronald P. Auerbach and Mrs. Auerbach
analysis; competency investments;           celebrating Ron’s 33-year federal career.



                                                                                                                                                       37
     OIG Internal Activities
     • Developed a comprehensive plan for     • Participated in a PCIE Results Act
       restructuring and downsizing.            meeting to discuss new Performance-
                                                Based Budget Format and Scoring
     • Coordinated the completion of the        system and the Environmental
       fourth external customer survey          Protection Agency’s OIG Performance
       regarding satisfaction with OIG          Results and Measurement System.
       operations and processes.
                                              • Named an OIG Information Security
     • Provided technical support to the        Manager and began the development
       Inspector General in his role as         of the OIG’s Information Security
       member of the advisory committee         Program, which will focus on
       to update GAO’s Government               ensuring the protection of the OIG’s
       Auditing Standards.                      information resources and ensuring
                                                the uninterrupted continuation of
     • Coordinated the preparation and          OIG information technology
       revision of management control           operations.
       plans for the OIG’s accountability
       units under the Corporation’s          • Established an Information Security
       Internal Control and Risk                Advisory Group, chaired by the OIG
       Management Program.                      Information Security Manager, to
                                                guide the development and
     • Issued the OIG’s 2001 Performance        subsequent implementation of the
       Report.                                  OIG’s Information Security Policy
                                                and Program.
     • Submitted the FY 2003 Budget to
       House and Senate Appropriations        • Provided training for all audit staff
       Committees.                              regarding a new audit policy manual
                                                and related procedures and
     • Continued to develop a Human             TeamMate, an automated working
       Capital Strategic Plan to align          paper software package designed to
       human resources policies and             enhance the efficiency and
       practices with the OIG mission.          effectiveness of audits and
                                                evaluations.
     • Began to develop a business
       knowledge inventory system to          • Initiated a special project to
       assess existing workforce knowledge      document the enterprise-wide
       and skills and determine where gaps      architecture for the OIG.
       may exist in the business knowledge
       needed to accomplish future            • OIG’s audit function had a peer
       workload.                                review by the U.S. Agency for
                                                International Development (AID).
     • Continued participation in inter-        AID concluded that the OIG’s
       agency Government Performance            quality control system was designed
       and Results Act (Results Act)            in accordance with PCIE standards
       Interest Groups sponsored by the         and provided reasonable assurance
       President’s Council on Integrity and     of conformance to professional
       Efficiency (PCIE) and the U.S.           standards in the conduct of audits.
       Office of Personnel Management to
       share ideas and best practices on
       the Results Act implementation.




38
OIG Internal Activities (continued)
• The Inspector General and other        • Participated in PCIE’s Social
  OIG staff attended the Association       Security Number Misuse working
  of Government Accountants’ 13th          group to look at the use of social
  Annual Leadership Conference on          security numbers at all levels of
  “Transforming Leadership,” which         government and some concerns
  focused on the President’s               related to identity theft. Of special
  Management Agenda.                       interest is how federal agencies
                                           protect social security numbers
• Coordinated with the Federal             acquired during the course of
  Reserve Board OIG to discuss             normal operations.
  possible joint audit of prompt
  corrective actions and procedures      • Coordinated with Treasury and
  for material loss reviews.               Federal Reserve Board OIGs to plan
                                           for the material loss reviews for
• Jointly sponsored a 2-day                recently failed institutions.
  Symposium on Emerging Issues
  with Offices of Inspector General of   • OIG senior staff met with
  the Department of the Treasury and       congressional staff to discuss our
  the Board of Governors of the            work related to the FDIC’s court-
  Federal Reserve System, which            ordered restitution program.
  provided approximately 95 auditors
  from bank regulatory agencies and      • The Assistant Inspector General for
  other government organizations           Quality Assurance and Oversight is
  insight into emerging issues as          leading a PCIE committee to update
  identified by agency and                 OIG quality standards, which
  congressional leadership.                encompass all activities of Inspector
                                           General operations.
• Developed an overall graphic
  representation of the FDIC’s           • Office of Audits reorganized along
  information technology environment       four strategic objectives with one
  to be used in planning future            crosscutting directorate.
  information technology audit
  coverage.




                                                                                   39
     Coordination with and Assistance to FDIC Management

     • Provided advisory comments to          • Attended FDIC Information
       management on the FDIC’s 2002            Technology committee and DOS
       Annual Performance Plan.                 Process Redesign II meetings.

     • Provided the Corporation with a risk   • Provided comments to the Chief
       analysis, which identified an            Operating Officer on the
       emerging risk to the FDIC–the            Corporation’s draft Emergency
       Quality of Bank Financial Reporting      Response Plan.
       and Auditing. This emerging risk
       potentially affects the FDIC in its    • Provided comments on the
       role as regulator, receiver, and         Corporation’s draft Interagency
       insurer. We suggested that the           Agreement related to the FDIC’s
       FDIC’s Office of Internal Control        monitoring of risks in insured
       Management (OICM) consider this          depository institutions.
       risk for disclosure in the FDIC’s
       Statement on Internal Accounting       • Provided input to Contract
       and Administrative Controls, a           Oversight Workout Team effort led
       component of the FDIC’s Chief            by OICM and the Division of
       Financial Officers Act Report.           Administration.

     • Initiated an annual review of the      • Office of Audits executives
       Corporation’s Internal Control and       continued to meet with FDIC
       Risk Management Program, which           division directors and office heads
       will address whether the evaluation      regarding the Office of Audits’
       and reporting process supporting the     strategic audit planning framework.
       2001 FDIC Statement on Internal          They outlined audit objectives in
       Accounting and Administrative            four strategic areas (Insurance,
       Controls is consistent with the          Supervision, and Consumer Affairs;
       requirements of the Federal              Resolution, Receivership, and Legal
       Managers’ Financial Integrity Act.       Services; Information Assurance;
                                                and Resource Management).
     • Provided technical assistance in a
       joint project with OICM and the        • Attended the FDIC’s New Financial
       Division of Administration to            Environment Project meetings to
       determine whether FDIC policies          monitor progress of the project.
       ensure that accounting and auditing
       contractors comply with the            • Assisted the Division of Information
       General Accounting Office’s new          Resources Management in efforts to
       independence standards.                  improve the FDIC’s Information
                                                Security Review Process for
     • Continued providing OIG Weekly           completing federally mandated
       Highlights Report to the Chairman        independent security reviews of
       summarizing significant OIG              major applications and general
       activities.                              support systems.

     • Presented OIG planned and ongoing      • Coordinated with the Division of
       audits to DOS and Division of            Finance and DRR on loss estimates
       Insurance regional directors.            for recently failed institutions.




40
Coordination with and Assistance to FDIC Management (continued)

• Participated in the Corporation’s        • The Assistant Inspector General for
  Information Quality Guidelines Task        Audits met with Internal Control
  Force organized to help ensure the         Liaisons from throughout the
  overall quality of information             Corporation to discuss changes in
  disseminated by the FDIC, in               the Office of Audits’ planning,
  accordance with section 515 of the         auditing, reporting, follow-up, and
  Treasury and General Government            resolution processes and
  Appropriations Act for Fiscal Year         emphasized the importance of
  2001.                                      establishing and maintaining good
                                             communication throughout the
• Met with management from the               audit process.
  Division of Finance to discuss the
  status of the financial audits.          • OIG special agents continued to
                                             participate in DOS Commissioned
• The Assistant Inspector General for        Examiner Seminars, where they
  Audits participated in the DOS and         provided information on the structure
  Division of Insurance conference for       of the Office of Investigations, an
  Regional Directors and Assistant           overview of the types of investigations
  Regional Directors and spoke of our        conducted by the Office of
  audit work related to Superior Bank.       Investigations, and coordination
                                             efforts with DOS. They also
• Office of Audits executives met with       provided insight for examiners on
  DOS Field Office Supervisors in a          identifying “red flags” related to the
  series of meetings to communicate          First National Bank of Keystone
  our planned and current work               failure.
  regarding the Division of Compliance
  and Consumer Affairs and DOS and
  to update the Field Office Supervisors
  on OIG audit processes.




                                                                                       41
     FDIC Inspector General Leads IG Community




       The last 6 months challenged the Inspector General (IG) community
     in many different ways. As Vice Chair of the President’s Council on
     Integrity and Efficiency (PCIE), the FDIC Inspector General provided the
     forum for the IG community to come together and respond to the
     issues at hand.
        Following the tragic events of September 11, the IG community took
     the challenges of fighting terrorism abroad and securing our homeland
     very seriously. Immediately following the attack, hundreds of individu-
     als representing the IG community began participating in rescue and
     evidence recovery at the crash sites in New York, Pennsylvania, and
     Washington, D.C. In the days following the attack, OIG investigators
     from across the country joined the Federal Bureau of Investigation and
     other law enforcement agencies to begin the tedious investigative
     process and participate on terrorism and bioterrorism task forces.
     Several of these efforts are still ongoing. Finally, the IG community
     contributed to safeguarding our nation’s airways by committing
     individuals to the Air Marshal Service until permanent staff is in place.
        In August 2001, the President spelled out his management reform
     agenda, which included five government-wide initiatives to help the
     government achieve better results. Over the years, the IG community
     has been highlighting the concerns noted in these initiatives as major
     challenges facing our nation. Over the last few months, the PCIE has
     been directing many of its activities to facilitate the agencies’ efforts
     to accomplish these initiatives. In particular, the IG community is
     working with the Chief Financial Officers on aspects of the financial
     management initiative by examining the erroneous payments issue
     and beginning the dialogue to accelerate financial statement reporting.
     In February, Inspector General Gianni, in his capacity as Vice Chair of
     the PCIE, testified before the House Government Reform
     Subcommittee on Government Efficiency, Financial Management and
     Intergovernmental Relations regarding the President’s Management
     Agenda and the role of the IG community in accomplishing this agen-
     da. The IG highlighted the work of the PCIE and individual IGs, provid-
     ed the community’s initial impression of the agenda, and suggested
     how the IG community could add value to the process.
        Finally, with a goal of offering greater transparency of the auditing
     side of the IG community, a PCIE working group examined and updat-
     ed the community’s peer review guide. Every 3 years each OIG is sub-
     ject to a peer review whereby one OIG examines another OIG’s audit
     policies and practices and reports on the results. The revision recog-
     nized new audit requirements, including the General Accounting Office
     Yellow Book’s new auditor independence standards, and set new
     review and reporting processes. This guide will become effective for
     the 2003/2004 peer review cycle.




42
OIG Organizational Chart



                                                            Inspector General
                                                            Gaston L. Gianni, Jr.                                      Counsel to the
                                                                                                                     Inspector General
                                                       Deputy Inspector General
                                                                                                                    Fred W. Gibson (Acting)
                                                           Patricia M. Black




                         Office of Audits                                                          Office of Investigations

                    Assistant Inspector General                                                   Assistant Inspector General
                           Russell A. Rau                                                             Samuel M. Holland




  Office of Policy Analysis and                   Office of Management and Policy                                          Office of Quality
    Congressional Relations                                                                                            Assurance and Oversight
                                                        Assistant Inspector General
    Assistant Inspector General                              Rex A. Simmons                                            Assistant Inspector General
      David H. Loewenstein                                                                                                 Robert L. McGregor




                                     OIG Executives- (standing, left to right) David Loewenstein, Russell Rau,
                                     Gaston Gianni, Patricia Black, Samuel Holland, Rex Simmons (sitting, left to
                                     right) Stephen Beard, Sharon Smith, and Robert McGregor

                                                                                                                                                 43
     Table 1: Significant OIG Achievements
     October 1, 2001 - March 31, 2002

     Audit and Evaluation Reports Issued                                               19
     Questioned Costs and Funds Put to Better Use from Audit and
     Evaluation Reports                                                       $1.6 million
     Inspector General Congressional Testimony                                           3
     Investigations Opened                                                              21
     Investigations Closed                                                              36
     OIG Subpoenas Issued                                                               16
     Convictions                                                                        11
     Fines, Restitution, and Monetary Recoveries                            $536.4 million
     Hotline Allegations Referred                                                       17
     Allegations Substantiated                                                           2
     Allegations Closed                                                                  6
     Proposed Regulations Reviewed                                                       1
     Proposed FDIC Policies and Directives Reviewed                                     18
     Responses to Requests Under the Freedom of Information Act and
     Privacy Act                                                                        7




                                                                      Table 2: Nonmonetary Recommendations


                                                                      October 1999 – March 2000              68
                                                                      April 2000 – September 2000            74
                                                                      October 2000 – March 2001              90
                                                                      April 2001 – September 2001            34
                                                                      October 2001 – March 2002              68




44
Figure 1: Products Issued and Investigations Closed

100

 90
                                                                                    10/99 - 3/00*
 80
                                                                                    4/00 - 9/00*
 70
                                                                                    10/00 - 3/01*
 60
                                                                                    4/01 - 9/01
 50
                                                                                    10/01 - 3/02
 40
                                                                             * Includes products related to OIG work
 30
                                                                               that did not result in formally issued
 20                                                                            audit or evaluation reports.

 10
  0
                 Audits &                             Investigations
                Evaluations




         Figure 2: Questioned Costs/Funds Put to Better Use (in millions)

         20

                                                                                                10/99 - 3/00
         15                                                                                     4/00 - 9/00
                                                                                                10/00 - 3/01
         10                                                                                     4/01 - 9/01*
                                                                                                10/01 - 3/02
                                                        * None this period




          5


          0
                                         Audits & Evaluations




                                                                                                                 45
     Figure 3: Fines, Restitution, and Monetary Recoveries Resulting from
                                                                            10/99 - 3/00
               OIG Investigations (in millions)
                                                                            4/00 - 9/00
     550                                                       $536
                                                                            10/00 - 3/01
     500                                                                    4/01 - 9/01
     450                                                                    10/01 - 3/02
     400

     350

     300

     250

     200

     150

     100
                                                 $67
      50
                                   $16.3 $10.7         $11.8
       0




46
OIG Counsel Activities
(October 1, 2001 - March 31, 2002)

The Mission of the Office of Counsel
The Office of Counsel serves the legal needs of the OIG. To that end, Counsel’s office provides legal
advice and assistance on the entire range of issues that have faced, are facing, or will face the
OIG. The Office litigates personnel cases; provides advice and counsel on matters arising during
the course of audits, investigations, and evaluations, including the legal sufficiency of reports;
reviews, analyzes and comments on proposed or existing regulations or legislation, including
recent banking legislation and implementing regulations; communicates or negotiates with other
entities; responds to Freedom of Information Act and Privacy Act requests and appeals; prepares
and enforces subpoenas for issuance by the Inspector General; and coordinates with the Legal
Division. Examples include:

Litigation
Counsel’s office has actively litigated 7 matters during the reporting period. These matters involved
the Equal Employment Opportunity statute, the “qui tam” provisions of the False Claims Act,
whistleblower protection laws, and civil and criminal cases in which OIG documents were sought in
discovery. These matters are in addition to 9 matters that are awaiting further action by the parties
or rulings by the courts or other adjudicatory bodies.

Advice and Counseling
Counsel’s office provided advice and counseling, including written opinions, on a number of issues,
including closed-bank matters, particularly Superior Bank FSB; personnel issues, including down-
sizing and reduction-in-force matters; payroll issues; terrorism; the implications of the Privacy Act
and Rehabilitation Act section 508 on OIG systems; interpretation of various Office of Management
and Budget Circulars; investigative matters, contract interpretations, and consulting issues; disclo-
sure of information; the Vacancy Act; and various ethics-related matters. In addition, we provided
comments relative to the legal sufficiency of several audit reports.

Legislation/Regulation Review
Counsel’s office carried out its responsibilities under the Inspector General Act to review proposed
or existing legislation and regulations. During this reporting period, we reviewed and provided
comments on 1 FDIC regulation.

Subpoenas
Counsel’s office prepared 16 subpoenas for issuance by the Inspector General during this reporting
period.

FOIA/Privacy Act
Counsel’s office responded to 7 requests under the Freedom of Information Act and the Privacy Act.




                                                                                                        47
PerformanceReport
    OIG 2001 PERFORMANCE REPORT




                                    NOT MET


            MET




                           SUBSTANTIALLY MET




                                     OIG 2001 Performance Report   49
                                   OIG 2001 Performance Report

                     Table of Contents
                                                                                                                                              Page
                                         INSPECTOR GENERAL FOREWORD................................................................51
                                         BACKGROUND ..............................................................................................52
                                         STATISTICAL SUMMARY OF PERFORMANCE AGAINST ANNUAL GOALS........53
                                         PERFORMANCE OVERVIEW ..........................................................................54
                                         PERFORMANCE BY STRATEGIC OBJECTIVE AREA ........................................54
                                               Audits, Evaluations, and Investigations Add Value
                                                   Client Satisfaction
                                                   Quality
                                                   Impact/Results
                                                   Productivity
                                                   Timeliness
                                               OIG Professional Advice Assists the Corporation
                                                   Emerging Issues and Task Forces
                                                   Reviewing Proposed Policies and Legislation
                                               OIG Communicates Effectively with Clients
                                                   Ensuring Clients are Informed of OIG Role, Mission, Issues
                                                   Responding to Inquiries and Requests
                                                   Working with PCIE and other Government Agencies
                                         RESOURCE MANAGEMENT GOALS................................................................64
                                         DETAIL LISTING OF 2001 ANNUAL PERFORMANCE GOAL
                                         ACCOMPLISHMENT ......................................................................................65
                                         STATISTICAL SUMMARY OF PERFORMANCE–
                                         2000 ANNUAL PERFORMANCE GOALS..........................................................68




50   OIG 2001 Performance Report
PerformanceReport
     Inspector General Foreword                               locations. For all of these significant priorities and
                                                              other work as well, the staff of the OIG rose to the
           A bit of perspective on the year 2001 is           occasion and produced impressive results.
     helpful to understand the results we are reporting in
     this performance report.                                        While we are proud of these accomplishments
                                                              and pleased to have either met or substantially met
            The year 2001 was a challenging time for the      74 percent of our goals for 2001, we are not
     Office of Inspector General. After a long period of      satisfied. We are continuing efforts to become a
     relative organizational stability, 2001 was marked by    better organization and improve performance.
     great flux, with the retirement of the head of the
     Office of Audits, the largest component of the OIG; a          We should note that the OIG’s Office of
     period of interim leadership of that office; and         Investigations has achieved enhanced client ratings
     ultimately, the permanent appointment of a new           and increased performance, as evidenced in this
     leadership team for the office. As part of those         2001 performance report. These were achieved in
     changes, the Evaluations group was merged into the       part due to a major reorganization in 1999.
     Office of Audits. The OIG also established a new         Likewise, we are now beginning to feel the positive
     Office of Policy Analysis and Congressional              impact of Office of Audits’ reorganization of mid-
     Relations, which assumed some of the                     2001 and are committed to take steps to achieve
     responsibilities formerly carried out by the             increased audit performance.
     Evaluations group. Along with the new leadership in             The future holds continued challenges for our
     the Office of Audits and the Office of Policy Analysis   office and others in the FDIC as we all undergo
     and Congressional Relations came new                     downsizing while addressing new and continuing
     organizational and process changes designed to           risks to the banking industry. I am confident,
     more effectively achieve the OIG’s mission.              however, that we will continue to successfully carry
            Several other key events impacting the OIG’s      out the OIG mission and that our performance will
     work occurred during 2001. In July the OIG was           provide valuable assistance to the Corporation in its
     faced with responding to a Congressional request to      efforts to insure deposits, regulate financial
     review the failure of Superior Bank, FSB, one of the     institutions, and minimize the number and cost of
     costliest of all recent failures of FDIC-insured         institution failures.
     institutions. The OIG was also required, under the
     Government Information Security Reform Act, to
     conduct the most comprehensive review to date of
     the Corporation’s information technology control
     environment and to deliver the results to the Office
     of Management and Budget through the FDIC
     Chairman in September. Additionally, the events of
     September 11, 2001 had a profound impact on all
     OIG staff and called into action OIG investigative
     resources to assist in New York and at the Pentagon
     in the aftermath of the terrorist activities in those




                                                                                OIG 2001 Performance Report            51
       PerformanceReport
     Background                                               of OIGs prepared under the Inspector General Act.
                                                              The two reports differ with respect to the time
     Nature and Purpose of Annual Performance                 periods covered (12 months vs. 6 months) and the
     Report                                                   specific reporting requirements. However, because
           The Office of Inspector General develops its       both types of reports present OIG accomplishments
     own independent strategic plan and annual                to the Congress, we have included the Annual
     performance plan. These plans were designed to           Performance Report for calendar year 2001 as a
     establish goals to measure performance consistent        separate but integral component of this Semiannual
     with the principles of the Government Performance        Report to the Congress, which covers the period of
     and Results Act (Results Act). This report presents      October 1, 2001 to March 31, 2002.
     our performance against our 2001 Annual
                                                              OIG to Change Reporting Cycle to
     Performance Plan focusing on the most meaningful
                                                              September 30 Fiscal Year
     annual measures related to achieving our strategic
     goals and objectives.                                          To date, the FDIC OIG has conducted its
                                                              performance planning and reporting cycle under the
     Relationship to FDIC’s Annual Program                    Results Act on a calendar year basis, consistent with
     Performance Report                                       the Corporation’s budget and accounting cycle.
            The FDIC is issuing its 2001 Program              However, the OIG receives a separate appropriation
     Performance Report to Congress during the second         based on the government-wide fiscal year ending
     quarter of 2002, presenting its performance against      September 30. We have made a decision to change
     21 annual goals. The Corporation’s annual goals          our Results Act performance planning and reporting
     address its mission to “Contribute to the stability      cycle to the fiscal year ending September 30. This
     and public confidence in the nation’s financial          cycle will also be consistent with the semiannual
     system” in four strategic result areas: (1) Insured      reporting periods required under the Inspector
     depositors are protected from loss without recourse      General Act. To accommodate our conversion from
     to taxpayer funding, (2) Insured depository              reporting on a calendar year basis to reporting on a
     institutions are safe and sound, (3) Consumers’          September 30 fiscal year basis, we will use a 9-
     rights are protected and FDIC-supervised insured         month transition period (January 1 to September 30,
     depository institutions invest in their communities,     2002) for our next performance reporting cycle. A
     and (4) Recovery to creditors of receiverships is        new strategic plan and an updated annual
     achieved.                                                performance plan with new goals and measures will
                                                              be developed to be effective for fiscal year 2003,
           We believe that accomplishing the OIG’s            which begins on October 1, 2002.
     strategic and annual goals and objectives
     contributes to the Corporation’s achievement of its
     mission and goals and objectives.
           The requirement for an annual performance
     report under the Results Act applies to the agency
     as a whole rather than to the OIG as a separate
     component. However, because of the unique mission
     and independent nature of Inspectors General under
     the Inspector General Act, we have prepared
     separate strategic and annual plans and reports,
     rather than integrating OIG goals and results into the
     Corporation’s plans and reports. The FDIC’s 2001
     Program Performance Report references this Annual
     Performance Report.
     Relationship to OIG Semiannual Report to
     the Congress
          Annual performance reports of OIGs prepared
     under the Results Act differ from semiannual reports



52   OIG 2001 Performance Report
  PerformanceReport
Statistical Summary of Performance Against Annual Goals
      The following table summarizes our collective
                                                                                                                   Annual Goal Accomplishment2
performance against the annual performance goals
                                                           Strategic Goal                Strategic                         (Number of Goals)
for 2001. The table reflects whether the goals were
                                                              Areas                   Objectives Areas                    Substantially  Not
Met, Substantially Met,1 or Not Met.
                                                                                                                 Met         Met1        Met                    Total
                                                          Audits, Evaluations,        Client Satisfaction           6                1                  4           11
                                                          and Investigations Add      Quality                       1                1                              2
                                                          Value                       Impact/Results                2                1                               3
                                                                                      Productivity                  1                1                  1            3
                                                                                      Timeliness                    3                                   2           5
                                                          Subtotal                                                  13               4                  7           24
                                                          Professional Advice         Advise on Emerging
                                                          Assists the Corporation     Issues & Vulnerabilities      2                                                2
                                                          OIG Communicates            Inspector General
                                                          Effectively with Clients/   Role/Activities;
                                                          Stakeholders                Inquiries and Responses;
                                                                                      Interagency Issues            6                                   2            8
                                                          Total                                                     21               4                  9           34
                                                          Percentage                                               62%              12%               26%         100%


                                                            The table above indicates that we met or substantially met 74 percent of our goals for 2001.
                                                      Performance cannot be evaluated based solely on a statistical summary of measures, given that all measures
                                                      are not equal in weight and the quality of the measures is still evolving. A summary discussion of our
                                                      performance and areas needing improvement is presented in the next section, Performance Overview.




                                                      1
                                                          A quantitative goal was considered “substantially met” if actual performance came within 10 percent of the
                                                          target level of performance.


                                                      2
                                                          A detail listing showing goal accomplishment for each of the annual performance goals for 2001 is provided
                                                          beginning on page 65. If the 2001 goal had a “like” or similar goal in 2000, the detail listing also shows goal
                                                          accomplishment for 2000.
                                                                                                                                      OIG 2001 Performance Report           53
      PerformanceReport
           For the previous reporting period (2000), we      impact, productivity, and timeliness). While we met       • We did not meet our goal related to client
     had an 83 percent level of achievement of goals         or substantially met 17 of 24 goals in these five           satisfaction with OIG communication efforts. After
     either met or substantially met (see table on page      areas, an assessment of our performance, as                 2 years of increases, the client survey has
     68). However, our performance statistics for 2001       compared to the two previous years, indicates a             indicated a decline in client satisfaction with OIG
     are not directly comparable to prior years’             continuing need to increase productivity,                   communication efforts. Survey results suggest the
     performance results due to several factors,             timeliness, and client satisfaction. Our Office of          need for OIG executives to have more direct
     including:                                              Audits and Office of Investigations are committed to        contact and spend more time cultivating
                                                             doing so.                                                   relationships with top FDIC managers. We have
     • Changes in Goals - This year’s goals differ
                                                                                                                         initiated efforts to achieve this and are beginning
       somewhat from last year’s because goals have                We met or substantially met 12 of 19 goals
                                                                                                                         to see the positive impact of these actions.
       been added, combined, or dropped. Most                related to productivity, timeliness, and client
       notably, the number of general client satisfaction    satisfaction; however, we did not meet 7 of these
                                                                                                                       • We did not meet our goal related to timeliness of
       goals has increased. We established new               goals. Concerns with performance in these areas
                                                                                                                         acknowledgment of congressional and Chairman’s
       baseline data last year enabling us to measure        can be explained in part by factors discussed in the
                                                                                                                         requests. We are reviewing ways to improve this
       client survey results for each of our three           Inspector General Foreword related to OIG
                                                                                                                         process.
       business line functions - audits, evaluations, and    organizational and operational process transitions
       investigations - at three levels: senior              and workload priorities (Superior Bank failure and
       headquarters executives (as was reported for prior    the Government Information Security Reform Act            Performance by Strategic
       surveys); 2nd tier headquarters and field             review) occurring during 2001. Full implementation        Objective Area
       executives and managers; and a combined rating.       of organizational and process changes should have
       Thus, for this year, we have nine general client      a positive impact on productivity and timeliness.         Audits, Evaluations, and Investigations Add
       survey goals (compared to three last year) related    Steps to improve communication with management            Value
       to overall client satisfaction. We have an            have already been initiated, which should address                Overall, we met or substantially met 17 of our
       additional general client survey goal related to      issues underlying client satisfaction results.            24 performance goals related to adding value to the
       knowledge of the investigative function and a                                                                   Corporation. These value-added goals encompass
                                                                   We have performed reasonably well against
       separate project-by-project survey goal for a total                                                             the five strategic objective areas of client
                                                             our existing measures and goals related to the
       of 11 client survey goals. We believe this creates                                                              satisfaction, quality, impact/results, productivity, and
                                                             quality and impact of our work, meeting or
       a disproportionate number of client survey goals                                                                timeliness.
                                                             substantially meeting all five goals. However,
       in relation to total OIG goals. We will reevaluate
                                                             determining appropriate measures and goals                     Client Satisfaction - Meeting Clients Needs
       appropriate goals for future performance reporting
                                                             continues to be a challenge. We are currently in the      and Expectations
       to address this issue and bring our goals into
                                                             process of updating our strategic and annual goals
       balance.                                                                                                              We met or substantially met 7 of our 11 client
                                                             and measures. This process will give consideration
                                                             to the new Chairman’s priorities discussed at the         satisfaction goals for 2001 related to a general
     • Organizational Realignment - Organizational                                                                     client survey and project-by-project surveys.
                                                             FDIC Executive Leadership Conference in February
       realignment and operational process changes, as
                                                             2002 and should result in improved measures.                    General Client Survey Overall Goals - We
       discussed in the Inspector General Foreword, may
       have affected performance and client survey           Strategic Goal Area: Professional Advice                  met six of the nine general client survey goals to
       views related to audits and evaluations.                                                                        increase client satisfaction ratings for our core
                                                                   We have successfully met our two                    mission activities by 10 percent above the level
                                                             performance goals related to providing professional       achieved for 2000, up to a sustaining level of 80
     Performance Overview                                    advice on vulnerabilities and emerging issues. We         percent of the maximum score possible (see table
           As indicated in the statistical summary in the    have participated in a number of joint initiatives with   on following page.)
     previous section, overall we met 25 of 34 goals (74     FDIC management related to bank supervision,
     percent). Presented below is a brief overview of our    information technology and security, and financial
     performance for each of the three strategic goal        statement reporting. We believe these initiatives
     areas. A more detailed discussion of goal               have served to improve corporate operations.
     accomplishment is presented in the next section.        Strategic Goal Area: Communications
     Strategic Goal Area: Audits, Evaluations,                     We met or substantially met six of eight goals
     and Investigations Add Value                            related to semiannual reporting, referring hotline
           The OIG’s 2001 strategic objectives address       complaints, responding to Freedom of Information
     five components of audit, evaluation, and               Act and Privacy Act requests, and establishing new
     investigative value (client satisfaction, quality,      client baseline data. We did not meet goals in two
                                                             areas as discussed below.


54   OIG 2001 Performance Report
  PerformanceReport
 General Client Survey Overall Goals
                                                     Audits           Evaluations                       Investigations
      Senior Executives                              Not Met                 Met                            Not Met
      2nd Tier Executives & Managers                     Met              Not Met                                Met
      Combined (All Respondents)                         Met                 Met                                 Met


      We established new baseline data last year
enabling us to measure client survey results for
2001 for each of our three business line functions -
audits, evaluations, and investigations - at three
levels: senior headquarters executives (as was
reported for prior surveys); 2nd tier headquarters
and field executives and managers; and a combined
rating. Thus, for this year, we have nine overall
general client survey goals (compared to three last
year), creating a disproportionate number of goals in
this area. We will reevaluate appropriate goals for
future performance reporting to address this issue
and bring our goals into balance.
       Senior Executives Ratings: We met one of our                                                                                                                       1998             2000
                                                                     Client Satisfaction Rating – Senior Executives
three goals to increase client satisfaction ratings by                                                                                                                    1999             2001
FDIC’s most senior executives for our core mission              4                          NOT MET                                      MET                              NOT MET
activities by 10 percent above the level achieved for                                                                                             3.78
2000. As shown in the following graph, the                                                                                       3.50
Evaluation function met its goal and showed a                   3                                                                          3.22
                                                                                                                                                                       3.19             3.10
significant (17 percent) increase and was graded as                                                                                                                            3.00
an A/A-. Investigations had a slight (3 percent)                                2.60     2.67
                                                                                                 2.50
increase and received a grade of B/B+. The Audit                                                          2.32
                                                                2
function had a slight (7 percent) decrease from the
previous year and received a C+. The decline may
have been due to changed audit and evaluation
processes and plans that management did not fully               1
understand.

                                                                                                                           N/A                                   N/A
                                                                0

                                                                                            Audits                                      Evaluations                       Investigations


                                                               Note: A client satisfaction rating was not obtained for evaluations and investigations in 1998. Also, for comparison purposes, ratings
                                                               for 1998 and 1999 were recomputed using the 2000 and 2001 grade numerical equivalent values.




                                                                                                                                                         OIG 2001 Performance Report                    55
      PerformanceReport
     2nd Tier Executives and Managers Ratings: We met                     Client Satisfaction Rating                                                                                        2000
     two of our three goals to increase client satisfaction
                                                                          2nd Tier Executives and Managers                                                                                  2001
     ratings by the FDIC’s 2nd tier executives and
     managers for our core mission activities by 10                   4
     percent above the level achieved for 2000. As
     shown in the following graph, Investigations met its                                        MET                                 NOT MET                                   MET
     goal and had a significant (86 percent) increase and             3                                                            3.20
                                                                                                                                                                                 3.11
     received a grade of B/B+. The Audit function also
     met its goal and showed a significant (22 percent)                                                                                      2.63
     increase and was graded as a C. The Evaluation                   2
     function had a decrease (18 percent) from the                                                 2.00
     previous year and received a B-/C+. It should be                                     1.64                                                                          1.67
     noted that the methodology for obtaining client
                                                                      1
     survey results from 2nd tier executives and
     managers was changed from focus group interviews
     for 2000 to electronic email surveys for 2001.
     Therefore, survey results and ratings for the 2 years            0
     may not be fully comparable.
                                                                                            Audits                                Evaluations                          Investigations

     Combined Ratings: For each of the core mission
     areas, we combined the percentage increase or
     decrease in ratings for senior executives and 2nd              Comments from the client survey report,                               executive level reported they had sufficient
     tier executives and managers to determine a net          specific to each of our three core mission areas, are                       experience with the Office of Investigations during
     percentage change. Based on the net percentage           summarized below.                                                           the past year to evaluate the investigation
     change, we met all three of the goals to increase                                                                                    function.
                                                                Audits: Concerns were expressed about the
     client satisfaction ratings for our core mission                                                                                     Action plans are being developed to address
                                                                lack of communications on the plans,
     activities by 10 percent above the level achieved for                                                                          client concerns.
                                                                activities, and direction of the audit function;
     2000, up to a sustaining level of 80 percent of the
                                                                the value and cost-benefit of certain audit                         General Client Survey - Office of Investigations
     maximum score possible.
                                                                products; and the timeliness and uneven                             Knowledge: The goal to increase the number of
                                                                quality of audit reports and recommendations.                       FDIC executives having knowledge or understanding
       Audits: The Audit function showed a net
                                                                On a positive note, respondents believe they                        of the Office of Investigations was not met. Results
       percentage increase of 15 percent (7 percent
                                                                have been kept informed about ongoing                               of the 2001 general client survey indicated that only
       decrease for senior executives and 22
                                                                audits and regard the audit staff as                                5 of the 15 (33 percent) executives interviewed
       percent increase for 2nd tier executives and
                                                                professional and competent.                                         reported they had sufficient knowledge to evaluate
       managers).
                                                                                                                                    the investigation function. Of the ten who declined to
                                                                Evaluations: As in previous years, evaluation                       provide an evaluation, five did make comments on
       Evaluations: The Evaluation function showed
                                                                work continues to receive the highest client                        their views of the Office of Investigations, which
       a net percentage decrease of 1 percent (17
                                                                satisfaction ratings of the three core mission                      were mostly positive. In 2000, 10 of 14 (71 percent)
       percent increase for senior executives and 18
                                                                areas. Evaluation reports are regarded as well                      interviewees reported sufficient knowledge of
       percent decrease for 2nd tier executives and
                                                                balanced with clear recommendations that                            investigations. Significantly, 11 of the 15 senior
       managers). However, the goal was considered
                                                                can be readily implemented. However,                                executives interviewed during the 2001 survey also
       met because the average rating for the
                                                                concerns were expressed about the lack of an                        participated in the senior executives’ interviews last
       Evaluation function by senior executives and
                                                                in-depth understanding of the evaluation                            year. As the survey report noted, there was no ready
       2nd tier executives and managers for 2001
                                                                function and the integration of the evaluation                      explanation for the sharp drop in reported
       was 3.21, which is greater than the
                                                                function into the Office of Audits.                                 understanding of the investigation function.
       sustaining level of 80 percent of the
       maximum score possible (3.20).
                                                                Investigations: Survey respondents expressed                        Project-by-Project Survey Goal - Our goal to
                                                                concerns about timeliness in completing                             achieve an average client satisfaction rating for
       Investigations: Investigations showed a net
                                                                investigations and had a general lack of                            audit and evaluation reports of 80 percent or greater
       percentage increase of 89 percent (3 percent
                                                                knowledge about the investigation function.                         of the maximum score possible on project-by-
       increase for senior executives and 86 percent
                                                                Only 5 of 15 interviewees at the senior                             project client surveys was substantially met.3
       increase for 2nd tier executives and managers).

                                                                                                   3
                                                                                                       A quantitative goal was considered “substantially met” if actual performance came within 10
56   OIG 2001 Performance Report                                                                       percent of the target level of performance.
  PerformanceReport
Ratings averaged 87 percent for audit reports and           Percentage of “Impact” Reports                         2001 Target
76 percent for evaluation reports issued during the         as of December 31, 2001
                                                                                                                   2001 Actual
year.                                                                                          MET
                                                         100%                                       100%
Quality - Complying with Professional Standards                              96%                                      97%

       We met or substantially met both of our quality    80%          80%                    80%               80%
goals. The Office of Audits goal to have no material
weaknesses disclosed from internal and external
quality assurance reviews and to resolve any              60%

significant matters identified by the reviews was
met. The Office of Investigations goal to conduct         40%
internal operational reviews every 12 months in its
regional offices and resolve significant matters was
                                                          20%
substantially met.

Impact/Results - Products Achieve Significant               0%
Impact or Results                                                       Audits               Evaluations        Combined

       We met or substantially met all three of our
impact/results goals. As shown in the following
graphs, two impact goals were met, one related to           Percentage of Closed Investigation Cases               2001 Target
audit and evaluation reports, and the other to              Resulting in Significant Results                       2001 Actual
                                                            as of December 31, 2001
investigation results. In the first graph, “impact”
reports are audit and evaluation reports that either      100%
                                                                                              MET
(1) result in management’s agreement to implement
actions to achieve monetary benefits and improved          80%
                                                                                                      86%

programs or procedures or (2) provide FDIC
management with relevant, timely information                                                70%
                                                           60%
needed for decision-making. In the second graph,
significant results are either reports to management,
criminal convictions, civil actions, administrative        40%
actions, or a combination of these.
      A third impact goal related to establishing an       20%
Electronic Crimes Team, initiating investigations into
unauthorized intrusions into the FDIC’s computer
                                                            0%
networks, and conducting computer forensic
examinations was substantially met.
      The following factors present challenges in
fully measuring the impact of audit, evaluation, and
investigative work: accurately measuring cost
                                                         presented include a discussion of major issues
savings from work; quantifying the impact of various
                                                         facing the Corporation and significant audit,
OIG proactive prevention activities, including the
                                                         evaluation, investigation, and other OIG activities.
value of improved internal controls resulting from
                                                         The semiannual reports present various measures
OIG work; and measuring the deterrent value of OIG
                                                         specified in the Inspector General Act including
investigative work.
                                                         questioned costs and funds put to better use; fines,
     Our semiannual reports to the Congress              restitution, and monetary recoveries resulting from
present results that have had a significant positive     OIG investigations; and nonmonetary
impact on the operations of the FDIC. Results            recommendations.




                                                                                                                                 OIG 2001 Performance Report   57
       PerformanceReport
     Productivity - Managing Resources to Maximize
     Productivity
                                                                    Audit Reports/Memoranda Issued                                                  2001 Target
           As shown in the following graphs, we met or              through December 31, 2001
                                                                                                                                                    2001 Actual
     substantially met two of our three productivity goals.
     Audit reports and memoranda issued (41) were                  Number of Reports
                                                                                                           NOT MET
     substantially (46 percent) below the target of 76.            80
                                                                                                            76
     Evaluation reports, memoranda, or letters issued
     (13) were above the goal of 12. The goal of 68                60
     investigative cases closed was substantially met by
     closing 65 cases (96 percent of the goal).
                                                                   40                                                  41



                                                                   20


                                                                    0




                                                                  Evaluation Reports/Memoranda/Letters Issued                                       2000 Target
                                                                  through December 31, 2001
                                                                                                                                                    2000 Actual

                                                                   Number of Reports
                                                                   16
                                                                                                                 MET

                                                                                                                       13
                                                                   12                                       12



                                                                     8


                                                                     4


                                                                    0




                                                                   Number of Investigative Cases Closed                                             2001 Target
                                                                   through December 31, 2001
                                                                                                                                                    2001 Actual

                                                                   Number of Cases
                                                                  80
                                                                                                      SUBSTANTIALLY MET4
                                                                                                            68
                                                                                                                       65
                                                                  60


                                                                  40


                                                                  20


                                                                    0


                                                              4
                                                                  A quantitative goal was considered “substantially met” if actual performance came within 10
                                                                  percent of the target level of performance.
58   OIG 2001 Performance Report
  PerformanceReport
        The OIG’s reorganization of the audit and
evaluation functions and implementation of new
processes may have had an impact on the issuance           Percentage of Audit & Evaluation Products                       2001 Target

of audit and evaluation reports. However, once             Issued Within Established Timeframes                            2001 Actual
                                                           as of December 31, 2001
changes are completely implemented, productivity
                                                         100%
should improve. Additionally, departures from                                 NOT MET                       MET
planned schedules for audits were necessary to
address issues and carry out projects brought about       80%               80%                       80%         80%
by significant congressional requests resulting from
the failure and closing of Superior Bank, Hinsdale,
                                                          60%
Illinois. Of the factors impacting the number of                                     59%
investigative cases closed, the most significant was
case complexity.                                          40%

Timeliness - Issuing reports in a timely manner
                                                          20%
      We met three of our five timeliness goals. The
top graph shows two goals. The bottom graph
shows one goal for investigations that includes two        0%
aspects of timeliness in issuance of investigation                             Audits                  Evaluations

reports.
As shown in the top graph -
  Audits - We did not meet our goal to issue 80
  percent of audit reports or other reporting            Percentage of Investigation Reports Issued                      2001 Target
  vehicles within 260 days. Actual performance           Within Established Timeframes (see text)                        2001 Actual
                                                         as of December 31, 2001
  was 59 percent (24 of 41 audit products). The                                             MET
                                                         100%
  median audit product issuance time was 233                                         100%             100%        100%
  days. Factors related to the difficulties in meeting                      90%
  this goal include those that have been previously       80%
  mentioned.
                                                          60%
  Evaluations - We met our goal to issue 80
  percent of evaluation reports or other reporting
  vehicles within agreed-upon time frames or              40%
  within 180 days. Actual performance was 80
  percent (8 of 10 evaluation products).
                                                          20%

As shown in the bottom graph -
                                                           0%
• We also met our goal to issue 90 percent of                              Within 30 Days             Within 60 Days
  Reports of Investigation within 30 working days
  upon completion of cases, and to issue 100
  percent of Reports of Investigation within 60
  working days. Actual performance was issuing
  100 percent of investigation reports within 30
  working days (35 of 35 reports); thus
  automatically satisfying both aspects of this goal.




                                                                                                  OIG 2001 Performance Report            59
       PerformanceReport
     As shown in the top graph -
     • We did not meet our goal that at least 70 percent       Percentage of Pending Investigative Cases    2001 Target
       of pending investigative cases are less than 2          Less Than 2 Years Old                        2001 Actual
       years of age. At year-end, only 51 percent of           as of December 31, 2001
       cases (58 out of 108) were less than 2 years old.      100%
       The goal was not met because investigations are
       becoming more complex and are taking longer to                                      NOT MET
                                                              80%
       complete. Also, the Office of Investigations is
       dealing with a number of personnel actions and                                    70%
       has experienced some retirements and                   60%
       resignations.
                                                                                                     51%

                                                              40%
     As shown in the bottom graph -
     • We achieved our goal that 100 percent of
                                                              20%
       employee cases, with no criminal prosecution
       potential, are completed in less than a year. Actual
       results for the year equaled 100 percent (6 out of      0%
       6 cases).




                                                               Percentage of Employee Cases Completed       2001 Target
                                                               In Less Than 1 Year                          2001 Actual
                                                               as of December 31, 2001
                                                                                               MET
                                                              100%                       100%        100%



                                                              80%


                                                              60%


                                                              40%


                                                              20%


                                                               0%




60   OIG 2001 Performance Report
  PerformanceReport
OIG Professional Advice Assists Corporation
      We met both of our performance goals in this       Percentage of Policies Reviewed and Legislative and
strategic goal area. One goal relates to our Office of   Regulatory Proposals Analyzed Within Requested         2001 Target
Audits’ involvement in conducting assessments or         Timeframes
                                                                                                                2001 Actual
                                                         as of December 31, 2001
participating in task forces relating to emerging
                                                                                        MET
issues, new systems, or other Corporation matters.       100%
The second goal relates to reviewing proposed                                         95%   96%

legislation, regulations, and corporate policies.
                                                         80%
Emerging Issues and Task Forces
OIG activities in 2001 related to emerging issues        60%
and task forces include the following:
                                                         40%
• Participated in a technology meeting in New York
  and offered suggestions related to e-banking.
                                                         20%
• Informed the Division of Information Resources
  Management (DIRM) of an error in the                     0%
  programming of SCOR (Statistical CAMELS Offsite
  Rating).

• Participated in meetings and discussions on ways
  to improve the FDIC’s financial and reporting
  processes.

• Participated in the Division of Supervision’s
  Process Redesign project and provided the
  Structure Group with information about regional
  and field office lease costs and field office
  staffing.

• Assisted DIRM with developing a new process for
  completing the federally mandated independent
  security reviews of major applications and general
  support systems.

• Analyzed key financial reporting areas to
  determine what improvements the Corporation
  can make to assist the Division of Finance in
  preparing complete financial statements more
  timely.

Reviewing Corporate Policies and Legislative
and Regulatory Proposals

      As shown in the graph at the top of this page,
we met the goal related to reviewing and analyzing
proposed corporate policies and legislative and
regulatory proposals.




                                                                                              OIG 2001 Performance Report     61
      PerformanceReport
     Communicating Effectively With the                                                            OIG Communication Efforts                                 1998   2000
     Chairman, the Congress, and Other                                                                                                                       1999   2001
     Stakeholders                                                                                 Customer Satisfaction Rating
          As discussed below, we met six of the eight                                               4
     goals in this strategic goal area.
     Ensuring Clients are Informed of OIG Role,                                                                                           NOT MET
                                                                                                    3
     Mission, Activities, Issues, and Deficiencies                                                                                             2.69
                                                                                                                                        2.62
           Client Satisfaction (Senior Executives) - The                                            2                                                 2.19
     goal to increase the satisfaction of the senior
     executives with OIG communication efforts above                                                                             1.26
                                                                                                    1
     the 2000 rating was not met. As shown in the first
     graph, the communication rating decreased from
     2.69 for 2000 to 2.19 for 2001, that is, a reduction                                           0
     from B- to C/C+ if stated in letter grades. This
     marked the first year communication scores had
     decreased after two consecutive years of increases.
     (Note: For comparison purposes, ratings for 1998
     and 1999 were recomputed using the 2000 and                                                  Level of Understanding of OIG                              1998   2000
     2001 grade numerical equivalent values published                                                                                                        1999   2001
     with the surveys.) Client survey results suggest the                                         Customer Satisfaction Rating
     need for OIG executives to have more direct contact
                                                                                                   4
     and spend more time cultivating relationships with
                                                                                                                                        3.74          3.61
     the top FDIC managers than they have during the                                                                                           3.57

     past year. Survey results depicted in the second                                              3                             3.01
     graph below showed that the level of understanding
     of the OIG’s mission, role, and functions by the
                                                                                                   2
     senior executives was generally high; however, this
     was not a performance goal.
                                                                                                   1
           Client Satisfaction (Second-Tier Executives and
     Managers) - The goal to establish a baseline of FDIC
     management (below the senior executive level)                                                 0
     satisfaction with OIG communications efforts and set
     future targets was met.
           Providing Information to Clients - The goal             Access to Reports - Our goal to provide OIG
     related to providing information to and interacting      semiannual reports, audit reports, evaluation reports,
     with the Congress and corporate officials was met.       and press releases to the FDIC Information Center
     The Semiannual Report to the Congress for the            and the OIG Webmaster in accordance with policy
     period ending March 31, 2001, which included the         was met.
     OIG 2000 Performance Report, and the Semiannual
     Report to the Congress for the period ending
     September 30, 2001, were issued in accordance
     with all statutory requirements. Also, an analysis and
     assessment of the Corporation’s top 10 performance
     measures was provided to Congressman Dan Burton,
     Chairman of the House Committee on Government
     Reform.




62   OIG 2001 Performance Report
  PerformanceReport
Responding to Congressional, Employee, and                Hotline Complaints Referral Time                  2001 Goal = 15 days or
Public Inquiries and Requests                             as of December 31, 2001                           less
                                                         Number of Days                      MET            2001 Actual
      Hotline Complaints and Freedom of Information
                                                          15                           15
Act and Privacy Act (FOIA/PA) Requests - As shown
in the first graph, the OIG’s goal to refer hotline
complaints within an average of 15 working days of       10
receipt was met. In meeting this goal, the first graph                                              8
shows the 2001 “actual” average number of days            5
(8), appropriately, as less than the target (15). As
shown in the second graph, the goal to respond to
90 percent of FOIA/PA requests within 15 working          0
days of receipt was also met.
      Chairman and Congressional Requests - As
shown in the third graph below, the OIG did not
meet its goal to timely acknowledge and track the         Percentage of FOIA/PA Requests                                  2001 Target
resolution of requests from the Chairman’s Office or      Responded to Within 15 Days of Receipt                          2001 Actual
                                                          as of December 31, 2001
from the Congress. During 2001, a tracking system
was in place which showed that 50 percent (7 of          100%
                                                                                            MET
14) of Chairman’s Office or congressional requests                                     90%         91%
were acknowledged within 10 days of receipt.             80%
However, it should be noted that the mean (average)
time for acknowledging requests or sending final
responses in lieu of acknowledgements was 13             60%
days.
                                                         40%
Working with PCIE and Other Government
Agencies to Address Crosscutting Issues
                                                         20%
       We met our goal to actively participate in the
activities of the President’s Council on Integrity and
Efficiency (PCIE) and other government activities         0%
relevant to the OIG and FDIC. The FDIC Inspector
General continues to serve as PCIE Vice Chair and,
in this capacity, provides leadership on a wide
variety of interagency activities. Significant OIG
activities in achieving this goal in 2001 include:
                                                           Percentage of Chairman’s and                                   2001 Target
• Publishing the PCIE and the Executive Council for        Congressional Requests Acknowledged                            2001 Actual
  Integrity and Efficiency (ECIE) Strategic Framework      Within 10 Days of Receipt as of December 31, 2001
  and introductory pamphlet on the Inspector             100%
  General community.
                                                          80%                          80%
• Overseeing the annual awards program and the
  PCIE and ECIE retreat.
                                                          60%

• Preparing PowerPoint presentations for                                                           50%
  international visitors and other government             40%
  audiences.
                                                          20%
• Issuing the PCIE’s Annual Progress Report to the
  President.
                                                           0%

• Participating in the Inspector General community’s
  telework and IGNet task group.
                                                                                                  OIG 2001 Performance Report           63
      PerformanceReport
     • Coordinating with the PCIE on the Government
       Information Security Reform Act (GISRA), making
                                                             Resource Management Goals                                • Counsel’s office provided advice and counsel on
                                                                                                                        113 matters which involved some amount of
       a presentation at DIRM’s Seminar on GISRA, and               In addition to the strategic goals, the OIG has     research, in addition to other matters for which
       discussing the OIG’s role in satisfying the           adopted an operating principle that commits the OIG        responses could be provided immediately. Also,
       Corporation’s GISRA requirements.                     to the effective management of resources related to        Counsel’s office prepared 72 subpoenas for
                                                             staffing; information technology; professional             issuance by the Inspector General.
     • Meeting with Inspectors General and staff from        standards and internal controls; communications;
       the Department of the Treasury and the Board of       legal advice; and administrative services.               • A new tracking system was implemented to more
       Governors of the Federal Reserve System on                   Resource management goals relate to internal        accurately measure the time frames between the
       emerging issues for a symposium held in               activities such as implementing the OIG’s diversity        OIG’s receipt and payment of invoices. The system
       November.                                             action plan, completing internal quality assurance         should produce excellent results in paying all
                                                             reviews; conducting risk assessments and internal          requisitions, credit cards, and invoices within the
     • Coordinating meeting with Treasury OIG and FDIC       control reviews; developing information systems and        established time frame of 5 business days from
       officials on Office of Foreign Act Control            providing computer services to OIG staff; and              the receipt of the request for payment.
       compliance.                                           providing legal advice and other administrative and
                                                             support services.                                        • We are making substantial progress in meeting all
     • Contributing an article to the Spring/Summer                                                                     of the OIG’s human resources customer service
       2001 issue of the PCIE’s Journal of Public Inquiry          A number of accomplishments and activities           standards for personnel actions.
       on a review of FDIC employee use of the Internet.     were involved in pursuing the OIG’s resource
                                                             management goals in 2001. Some of these are              • An OIG human capital strategic plan has been
                                                             highlighted below:                                         developed in draft. Work will continue until it is
     • Providing a full-time employee to the Federal Law
       Enforcement Training Center in support of the         • We continue to address the five action areas in          finalized during 2002.
       federal government OIG training program.                the OIG’s Diversity Action Plan through various
                                                               diversity-related activities such as attending         • A number of improvements have been
     • Continuing to participate in PCIE Results Act           training sessions, participating in meetings and         implemented in response to the 2000 survey of
       Interest Group meetings.                                groups, and issuing quarterly OIG diversity              OIG staff satisfaction with our internal
                                                               reports.                                                 administrative services.
     • Funding and facilitating the design of two editions
       of the Journal of Public Inquiry.                     • A new framework has been developed for a new
                                                               approach for carrying out our internal Quality
     • Commenting on various legislative proposals for         Assurance Review responsibilities.
       the PCIE.
                                                             • A new OIG Training and Professional Development
     • Attending meetings of the Interagency Ethics            System has been developed and is being
       Council and the Council of Counsels to the              implemented.
       Inspectors General.
                                                             • Laptop computer docking stations were installed
     • Continuing to participate in Assistant Inspectors       in the offices of all headquarters staff slated to
       General for Investigations meetings of the PCIE         receive the systems. Docking stations were also
       Offices of Inspector General.                           installed in field sites.




64   OIG 2001 Performance Report
 PerformanceReport
Detail Listing of Annual Performance Goal Accomplishment
                      2001 Annual Performance Goal                                     Goal                     Goal
                       (By Strategic Goal Area and                               Accomplishment            Accomplishment
                        Strategic Objective Area)                                     2001                      2000
                                        Audits, Evaluations, and Investigations Add Value
Client Satisfaction
Audits:
Achieve a level of client satisfaction 10 percent above the level achieved in a
general client survey for 2000 (survey report issued in 2001) up to a sustaining
level of 80 percent of the maximum score possible.
• Senior level executives                                                           Not Met                Not Met
• Second-tier executives and managers                                               Met                    N/A
• Combined                                                                          Met                    N/A
Evaluations:
Achieve a level of client satisfaction 10 percent above the level achieved in a
general client survey for 2000 (survey report issued in 2001) up to a sustaining
level of 80 percent of the maximum score possible.
• Senior level executives                                                           Met                    Not Met
• Second-tier executives and managers                                               Not Met                N/A
• Combined                                                                          Met                    N/A
Investigations:
Achieve a level of client satisfaction 10 percent above the level achieved in a
general client survey for 2000 (survey report issued in 2001) up to a sustaining
level of 80 percent of the maximum score possible.
• Senior level executives                                                           Not Met                Not Met
• Second-tier executives and managers                                               Met                    N/A
• Combined                                                                          Met                    N/A
Achieve an average client satisfaction rating for audit and evaluation reports of   Substantially Met      Met
80 percent or greater of the maximum score possible on project-by-project
client surveys.
Increase the number of FDIC executives having knowledge or understanding of         Not Met                N/A
the Office of Investigations by 33 percent.
Quality
Internal and external quality assurance reviews disclose no material                Met                    N/A
weaknesses and any significant matters identified by reviews are resolved.
Conduct operational reviews every 12 months in each regional office and             Substantially Met      Substantially Met
resolve significant matters identified.




                                                                                                        OIG 2001 Performance Report   65
      PerformanceReport
     Detail Listing of Annual Performance Goal Accomplishment
                           2001 Annual Performance Goal                                          Goal                 Goal
                            (By Strategic Goal Area and                                     Accomplishment       Accomplishment
                             Strategic Objective Area)                                           2001                 2000
     Impact/Results
     80 percent of audit and evaluation reports [including all types of reporting            Met                 N/A
     vehicles] (1) result in management’s agreement to implement actions to achieve
     monetary benefits and improved programs or procedures or (2) provide FDIC
     management with relevant, timely information needed for decision-making.
     70 percent of closed cases will result in either reports to management, criminal        Met                 Substantially Met
     convictions, civil actions, administrative actions, or a combination of these
     elements.
     Establish an Electronic Crimes Team and initiate investigations into unauthorized       Substantially Met   N/A
     intrusion into FDIC’s computer networks and conduct computer forensic
     examinations.
     Productivity
     Issue 76 reports or memoranda communicating the results of audits.                      Not Met             Substantially Met
     Issue 12 reports or other reporting vehicles communicating the results of               Met                 Met
     evaluations.
     More than 68 cases will be closed during the year.                                      Substantially Met   Met
     Timeliness
     Issue 80 percent of audit reports or other reporting vehicles within 260 days.          Not Met             Met
     Issue 80 percent of evaluation reports or other reporting vehicles within time          Met                 Substantially Met
     frames agreed upon by OIG and FDIC management or issue report within
     180 calendar days if no time frame was agreed upon.
     At least 70 percent of active cases will be less than 2 years of age.                   Not Met             Not Met
     100 percent of employee cases, with no criminal prosecution potential, will be          Met                 N/A
     completed in less than a year.
     Issue 90 percent of Reports of Investigation within 30 days, and 100 percent of         Met                 Substantially Met
     Reports of Investigation within 60 working days, after completion of the case.
                                                         Professional Advice Assists Corporation
     Advise on Emerging Issues and Vulnerabilities
     Conduct assessments or participate in FDIC task forces related to emerging              Met                 Met
     issues, new systems, or other matters affecting the Corporation, within time
     frames that are responsive to corporate needs.
     Review proposed corporate internal policies and respond to the Corporation and          Met                 Met
     analyze regulatory/legislative proposals within requested time frames 95 percent
     of the time.




66   OIG 2001 Performance Report
 PerformanceReport
Detail Listing of Annual Performance Goal Accomplishment
                      2001 Annual Performance Goal                                       Goal              Goal
                        (By Strategic Goal Area and                                Accomplishment     Accomplishment
                         Strategic Objective Area)                                       2001              2000
                                           Communicate Effectively with Clients/Stakeholders
Communication Efforts and Providing Information on OIG Role/Activities
Provide OIG Semiannual Reports, Annual Performance Plan, Annual Performance          Met             Met
Report, and other information to and interact with the Congress and corporate
officials.
Achieve a level of FDIC senior executive client satisfaction 10 percent above the       Not Met      Met
level achieved in a general client survey for 2000 (survey report issued in 2001)
up to a sustaining level of 80 percent of the maximum score possible.
Establish a baseline of FDIC management (below the senior executive level)              Met          N/A
satisfaction with OIG communication efforts and set future targets for client
satisfaction.
Provide OIG Semiannual Reports, audit reports, evaluation reports, and press            Met          Met
releases to the FDIC Public Information Center and the OIG Webmaster in
accordance with policy.
Responding to Inquiries and Responses
Refer OIG Hotline complaints within an average of 15 working days of receipt to         Met          Met
appropriate OIG or corporate officials for review and track their resolution.
Respond to 90 percent FOIA/PA requests within 15 days of receipt unless deadline        Met          Not Met
is extended in accordance with law, applicable regulation, and OIG policy.
Acknowledge 80 percent of Chairman’s Office or congressional requests within            Not Met      Substantially Met
10 business days of receipt and track their resolution.
Interagency Activities
Actively participate in the President’s Council on Integrity and Efficiency and other   Met          Met
government activities relevant to the OIG and FDIC.




                                                                                                    OIG 2001 Performance Report   67
      PerformanceReport
     Statistical Summary of Performance – 2000 Annual Performance Goals
                                                                           Annual Goal Accomplishment
                                                                                (Number of Goals)
     Strategic Goal Areas            Strategic Objectives Areas    Met   Substantially Met   Not Met    Total
     Audits, Evaluations, and      Client Satisfaction             1                              3       4
     Investigations Add Value      Relevance                       2           1                          3
                                   Quality                         2                                      2
                                   Impact/Results                  3                                      3
                                   Productivity                    3           1                          4
                                   Timeliness                      1           2                2         5
     Professional Advice           Advise on Emerging
     Assists the Corporation       Issues and Vulnerabilities       4                                     4
     OIG Communicates              Inspector General Role/
     Effectively with Clients/     Activities; Inquiries and
     Stakeholders                  Responses; Interagency Issues     8         2                1        11
     Total                                                          24         6                6        36
     Percentage                                                    66%        17%              17%      100%




68   OIG 2001 Performance Report
    Reporting Terms and
          Requirements

Index of Reporting Requirements - Inspector General Act of
1978, as amended
Reporting Requirement                                                  Page
Section 4(a)(2): Review of legislation and regulations                 47
Section 5(a)(1): Significant problems, abuses, and deficiencies        11-26
Section 5(a)(2): Recommendations with respect to significant
problems, abuses, and deficiencies                                     11-26
Section 5(a)(3): Recommendations described in previous semiannual
reports on which corrective action has not been completed              71
Section 5(a)(4): Matters referred to prosecutive authorities           27
Section 5(a)(5) and 6(b)(2): Summary of instances where requested
information was refused                                                75
Section 5(a)(6): Listing of audit reports                              72
Section 5(a)(7): Summary of particularly significant reports           11-26
Section 5(a)(8): Statistical table showing the total number of audit
reports and the total dollar value of questioned costs                 74
Section 5(a)(9): Statistical table showing the total number of audit
reports and the total dollar value of recommendations that funds
be put to better use                                                   74
Section 5(a)(10): Audit recommendations more than 6 months old
for which no management decision has been made                         75
Section 5(a)(11): Significant revised management decisions during
the current reporting period                                           75
Section 5(a)(12): Significant management decisions with which the
OIG disagreed                                                          75




                                                                            69
Reader’s Guide to                            these costs. A “disallowed cost,”
                                             according to the Inspector General Act,
Inspector General Act                        is a questioned cost that management,
Reporting Terms                              in a management decision, has
                                             sustained or agreed should not be
What Happens When Auditors
                                             charged to the government.
Identify Monetary Benefits?
                                                  Once management has disallowed a
     Our experience has found that the
                                             cost and, in effect, sustained the
reporting terminology outlined in the
                                             auditor’s questioned costs, the last step
Inspector General Act of 1978, as
                                             in the process takes place which
amended, often confuses people. To
                                             culminates in the “final action.” As
lessen such confusion and place these
                                             defined in the Inspector General Act,
terms in proper context, we present the
                                             final action is the completion of all
following discussion:
                                             actions that management has
     The Inspector General Act defines       determined, via the management
the terminology and establishes the          decision process, are necessary to resolve
reporting requirements for the               the findings and recommendations
identification and disposition of            included in an audit report. In the case
questioned costs in audit reports. To        of disallowed costs, management will
understand how this process works, it is     typically evaluate factors beyond the
helpful to know the key terms and how        conditions in the audit report, such as
they relate to each other.                   qualitative judgements of value received
     The first step in the process is when   or the cost to litigate, and decide
the audit report identifying questioned      whether it is in the Corporation’s best
costs▼ is issued to FDIC management.         interest to pursue recovery of the
Auditors question costs because of an        disallowed costs. The Corporation is
alleged violation of a provision of a law,   responsible for reporting the disposition
regulation, contract, grant, cooperative     of the disallowed costs, the amounts
agreement, or other agreement or             recovered, and amounts not recovered.
document governing the expenditure of             Except for a few key differences, the
funds. In addition, a questioned cost        process for reports with recommendations
may be a finding in which, at the time of    that funds be put to better use is
the audit, a cost is not supported by        generally the same as the process for
adequate documentation; or, a finding        reports with questioned costs. The audit
that the expenditure of funds for the        report recommends an action that will
intended purpose is unnecessary or           result in funds to be used more
unreasonable.                                efficiently rather than identifying
    The next step in the process is for      amounts that may need to be eventually
FDIC management to make a decision           recovered. Consequently, the
about the questioned costs. The              management decisions and final actions
Inspector General Act describes a            address the implementation of the
“management decision” as the final           recommended actions and not the
decision issued by management after          disallowance or recovery of costs.
evaluation of the finding(s) and
recommendation(s) included in an audit
report, including actions deemed to be
necessary. In the case of questioned
costs, this management decision must         ▼
                                                 It is important to note that the OIG does not
specifically address the questioned costs        always expect 100 percent recovery of all costs
                                                 questioned.
by either disallowing or not disallowing




70
                                                                                                    Appendix I:
                                                                                        Statistical Information
                    Required by the Inspector General Act of 1978,
                                                       as amended
Table I.1: Significant                                    Report Number,                     Significant      Brief Summary of Planned
Recommendations From Previous                             Title & Date                       Recommendation   Corrective Actions and
Semiannual Reports on Which                                                                  Number           Associated Monetary Amounts
Corrective Actions Have Not Been
Completed                                                 Management Action In Process
      This table shows the corrective actions             01-011                               3              Develop an E-government
management has agreed to implement but has not            Development of the FDIC’s Public                    implementation plan that uses
completed, along with associated monetary                 Key Infrastructure                                  the Office of Management and
amounts. In some cases, these corrective actions                                                              Budget’s guidelines for the
                                                          May 24, 2001                                        implementation of the
are different from the initial recommendations made
in the audit reports. However, the OIG has agreed                                                             Government Paperwork
that the planned actions meet the intent of the initial                                                       Elimination Act.
recommendations. The information in this table is
                                                          EVAL-01-002                          2              Assess the need to complete
based on information supplied by the FDIC’s Office
                                                          FDIC’s Background Investigation                     new Position Designation
of Internal Control Management (OICM). These 26
                                                          Process for Prospective and                         Records for position risk
recommendations from 5 reports involve monetary
                                                          Current Employees                                   designations where FDIC
amounts of over $11 million. OICM has categorized
                                                                                                              divisions and offices
the status of these recommendations as follows:           August 17, 2001                                     inconsistently applied U.S. Office
Management Action in Process:                                                                                 of Personnel Management
(6 recommendations from 2 reports, $0)                                                                        criteria in making the
                                                                                                              designations.
      Management is in the process of implementing
the corrective action plan, which may include                                                  3              Re-designate position sensitivity
modifications to policies, procedures, systems or                                                             levels for examiner positions to
controls; issues involving monetary collection; and                                                           reflect their public trust
settlement negotiations in process.                                                                           responsibilities.
Litigation: (20 recommendations from                                                           4              Alert the Security Management
3 reports, $11 million)                                                                                       Section of all personnel
        Each case has been filed and is considered “in                                                        assignments to positions where
litigation.” The Legal Division will be the final                                                             users have access to sensitive
determinant for all items so categorized.                                                                     computer systems or data.
                                                                                               5              Ensure that new Information
                                                                                                              Security Manager positions are
                                                                                                              properly designed and
                                                                                                              appropriate background checks
                                                                                                              are performed.
                                                                                               7              Establish a specific schedule to
                                                                                                              update the Corporation’s
                                                                                                              employee security database, the
                                                                                                              Employee Background
                                                                                                              Investigation Tracking System.

                                                          Litigation
                                                          95-032                               5              Recover $5,259,285 from the
                                                          Local America Bank, F.S.B.,                         association for noncompliance
                                                          Assistance Agreement                                with the tax benefits
                                                                                                              provisions of the assistance
                                                          March 24, 1995                                      agreement.




                                                                                                                                           71
 Report Number,                                          Significant             Brief Summary of Planned
 Title & Date                                            Recommendation          Corrective Actions and
                                                         Number                  Associated Monetary Amounts
 Litigation (continued)
 96-014                                                  1, 4-16                 Recover $4,526,389 of assistance paid to Superior Bank.
 Superior Bank, F.S.B., Assistance
 Agreement, Case Number C-389c
 February 16, 1996

 98-026                                                   2, 3, 4, 6             Recover $1,220,470 of assistance paid to Superior Bank.
 Assistance Agreement Audit of Superior Bank,
 Case Number C-389c                                       11                     Compute the effect of understated Special Reserve
 March 9, 1998                                                                   Account for Payments in Lieu of Taxes and remit any
                                                                                 amounts due to the FDIC.


 Table I.2: Audit Reports Issued by Subject Area

                           Audit Report                                           Questioned Costs                      Funds Put
 Number                 Title                                            Total                  Unsupported             to Better Use
 & Date
 Supervision, Insurance, and Consumer Affairs
 02-005                  Issues Related to the Failure of Superior
 February 6, 2002        Bank, FSB, Hinsdale, Illinois
 EVAL-02-001             Evaluation of Rating Differences Between the
 February 8, 2002        FDIC and Other Primary Federal Regulators*
 02-004                  Follow-up Audit of the FDIC’s Use of Special
 February 20, 2002       Examination Authority and DOS’s Efforts to
                         Monitor Large Bank Insurance Risks
 02-009                  Division of Compliance and Consumer Affairs’
 March 26, 2002          Risk-Scoping Process for Fair Lending
                         Examinations
 02-013                  Effectiveness of Prompt Corrective Action
 March 26, 2002          Provisions in Preventing or Reducing
                         Losses to the Deposit Insurance Funds
 Resolution, Receivership, and Legal Affairs
 01-024                  FDIC’s Identification of and Accounting                                                           $1,451,248
 December 5, 2001        for Unclaimed Deposits Transferred
                         to State Unclaimed Property Agencies
 01-025                  Least Cost Test Model
 December 13, 2001
 02-002                  Least Cost Decision of Superior Bank
 February 8, 2002        and Liquidation of Remaining Receivership Assets
 02-006                  DRR’s Efforts to Facilitate Collections                                                             $123,450
 March 5, 2002           on Criminal Restitution Orders



72
Table I.2: Audit Reports Issued by Subject Area (continued)

                        Audit Report                                                                            Questioned Costs            Funds Put
Number                Title                                                                         Total                     Unsupported   to Better Use
& Date
Information Assurance
02-001                Follow-up Audit of Internal Controls Over
January 2, 2002       the Customer Information and Control
                      System for the FDIC Financial Systems
02-003                Controls Over Outlook Resources
February 14, 2002
02-008                           FDIC’s Efforts to Implement a
March 22, 2002                   Single Sign-on Process
02-011                           FDIC’s Excess Computer Hard
March 26, 2002                   Drive Sanitation Process
02-012                           Security and Controls Over the Risk
March 28, 2002                   Analysis and Value Estimation
                                 (RAVEN) System
02-015                           FDIC’s Dividend Processing System
March 29, 2002
Resource Management
EVAL-01-004             The New Financial Environment Project*
December 7, 2001
02-007                  FDIC’s Program for Managing FDIC-Owned
March 21, 2002          Buildings at Headquarters
02-010                  Contractor Billing Audit▼                                                 $50,460
March 22, 2002
02-014                  Capitalization of Internal-Use
March 29, 2002          Software Development Costs
TOTALS FOR THE PERIOD                                                                             $50,460                         $0          $1,574,698
* An evaluation report.
▼
    In addition, this report identified $252,675 in unresolved costs which may result in additional disallowed amounts.




                                                                                                                                                       73
 Table I.3:       Audit Reports Issued with Questioned Costs
                                                                                                                        Questioned Costs
                                                                             Number
                                                                                                                  Total               Unsupported
 A. For which no management decision has been made by the
    commencement of the reporting period.                                        0                                  0                         0
 B. Which were issued during the reporting period.                               1▲                              50,460                       0
    Subtotals of A & B                                                           1                               50,460                       0
 C For which a management decision was made during the                           1                               50,460                       0
    reporting period.
    (i) dollar value of disallowed costs.                                        1                               50,460                       0
    (ii) dollar value of costs not disallowed.                                   0                                  0                         0
 D. For which no management decision has been made by the                        0                                 0                          0
    end of the reporting period.
    Reports for which no management decision was made within                     0                                  0                         0
    6 months of issuance.

 ▲
     In addition, this report identified $252,675 in unresolved costs which may result in additional disallowed amounts.




 Table I.4: Audit Reports Issued with Recommendations for Better Use of Funds
                                                                                                                Number                Dollar Value
 A. For which no management decision has been made by the commencement of the                                     0                         0
    reporting period.
 B. Which were issued during the reporting period.                                                                  2                      1,574,698
    Subtotals of A & B                                                                                              2                      1,574,698
 C. For which a management decision was made during the reporting period.                                           2                      1,574,698
    (i) dollar value of recommendations that were agreed to by management.                                          0                          0
        - based on proposed management action.                                                                      0                          0
        - based on proposed legislative action.                                                                     0                          0
    (ii) dollar value of recommendations that were not agreed to by management.                                     2                      1,574,698
 D. For which no management decision has been made by the end of the reporting period.                              0                          0
    Reports for which no management decision was made within 6 months of issuance.                                  0                          0




74
Table I.5: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations without management decisions.


Table I.6: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.


Table I.7: Significant Management Decisions with Which the OIG Disagreed
During this reporting period, there were no significant management decisions with which the OIG disagreed.


Table I.8: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.




                                                                                                             75
     Abbreviations
     and Acronyms
               AID................................................................Agency for International Development
               ATM ..............................................................Automated Teller Machine
               BIF ................................................................Bank Insurance Fund
               BOA ..............................................................Bank of America
               CD ................................................................Certificates of Deposit
               CICS..............................................................Customer Information and Control System
               DCA ..............................................................Division of Compliance and Consumer Affairs
               DIRM ............................................................Division of Information Resources Management
               DOS ..............................................................Division of Supervision
               DPS ..............................................................Dividend Processing System
               DRR ..............................................................Division of Resolutions and Receiverships
               E&Y ..............................................................Ernst & Young
               ECIE ..............................................................Executive Council on Integrity and Efficiency
               ECT ..............................................................Electronic Crimes Team
               FBI ................................................................Federal Bureau of Investigation
               FDIC ..............................................................Federal Deposit Insurance Corporation
               FOIA/PA ........................................................Freedom of Information Act and Privacy Act
               FSBH ............................................................First State Bank of Harrah
               GAO ..............................................................U.S. General Accounting Office
               GISRA............................................................Government Information Security Reform Act
               HCSB ............................................................Hartford-Carlisle Savings Bank
               IFS ................................................................Institution for Savings
               IG ..................................................................Inspector General
               IRS ................................................................Internal Revenue Service
               IT ..................................................................Information Technology
               JTTF..............................................................Joint Terrorism Task Force
               OI ..................................................................Office of Investigations
               OICM ............................................................Office of Internal Control Management
               OIG................................................................Office of Inspector General
               OMB..............................................................Office of Management and Budget
               OTS ..............................................................Office of Thrift Supervision
               PB&T ............................................................Pueblo Bank and Trust Company
               PCA ..............................................................Prompt Corrective Action
               PCIE ..............................................................President’s Council on Integrity and Efficiency
               RAVEN ..........................................................Risk Analysis and Value Estimation System
               Results Act ..................................................Government Performance and Results Act
               RLS ..............................................................Receivership Liability System
               RTC ..............................................................Resolution Trust Corporation
               SAIF ..............................................................Savings Association Insurance Fund
               SCERS ..........................................................Seized Computer Evidence Recovery Specialists



76
                                                              In Memory

James A. Renick

                       James A. Renick died of a heart            Family, friends, and colleagues
                  attack on February 5, 2002. Jim retired     celebrated Jim’s retirement together on
                  from the FDIC in March 2000 after more      March 30, 2000. At the time of his
                  than 23 years of service. Jim was           death, Jim resided in Fredericksburg,
                  involved in almost every aspect of audit    Virginia, with his wife, Marilyn. He is
                  and investigative activities at the FDIC.   survived by his wife, three children, and
                  He joined the Corporation in 1976 as        eight grandchildren.
                  Assistant Director of the Office of
                  Corporate Audits which in 1989 became
                  the Office of Inspector General. At that
                  time, he became the Deputy Inspector
                  General, a position he held until then-
                  Acting Chairman Andrew Hove selected
                  him as the FDIC’s Inspector General
                  upon the retirement of Robert Hoffman
                  in 1993. When the Congress amended
                  the Inspector General Act in 1993 to
                  designate the position of Inspector
                  General at the FDIC a presidential
                  appointment, Jim served as Acting
                  Inspector General for more than 2 years
                  until current Inspector General Gaston
                  L. Gianni, Jr., was named Inspector
                  General in April 1996. Jim served as
                  Principal Deputy Inspector General until
                  his retirement.




                                                                                                  77
    The Office of Inspector General (OIG) Hotline is a convenient mechanism employees, contractors, and others can
   use to report instances of suspected fraud, waste, abuse and mismanagement within the FDIC and its contractor
       operations. The OIG maintains a toll-free, nationwide Hotline (1-800-964-FDIC), electronic mail address
    (IGhotline@FDIC.gov), and postal mailing address. The Hotline is designed to make it easy for employees and
 contractors to join with the OIG in its efforts to prevent fraud, waste, abuse, and mismanagement that could threaten
                                      the success of FDIC programs or operations.




                                 To learn more about the FDIC OIG and for complete
                               copies of audit and evaluation reports discussed in this
                                        Semiannual Report, visit our Web site:
                                               http://www.fdic.gov/oig



78
Design by FDIC/DOA/CSB/Design & Printing Unit
